<html>
<title> - ``FEDERAL GEOSPATIAL DATA MANAGEMENT;'' AND H.R. 2489, ``AMERICAVIEW GEOSPATIAL IMAGERY MAPPING PROGRAM ACT.''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       ``FEDERAL GEOSPATIAL DATA 
                           MANAGEMENT;'' AND 
                       H.R. 2489, ``AMERICAVIEW 
                      GEOSPATIAL IMAGERY MAPPING 
                            PROGRAM ACT.'' 

=======================================================================

                   OVERSIGHT AND LEGISLATIVE HEARINGS

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 23, 2009

                               __________

                           Serial No. 111-29

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




























                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                


              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
           DOUG LAMBORN, Colorado, Ranking Republican Member

Eni F.H. Faleomavaega, American      Don Young, Alaska
    Samoa                            Louie Gohmert, Texas
Rush D. Holt, New Jersey             John Fleming, Louisiana
Dan Boren, Oklahoma                  Jason Chaffetz, Utah
Gregorio Sablan, Northern Marianas   Cynthia M. Lummis, Wyoming
Martin T. Heinrich, New Mexico       Doc Hastings, Washington, ex 
Edward J. Markey, Massachusetts          officio
Maurice D. Hinchey, New York
John P. Sarbanes, Maryland
Niki Tsongas, Massachusetts
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                









                              CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 23, 2009..........................     1

Statement of Members:
    Blackburn, Hon. Marsha, a Representative in Congress from the 
      State of Tennessee.........................................     6
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     1
        Prepared statement of....................................     3
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Byrne, Michael, Geographic Information Officer, State of 
      California.................................................    24
        Prepared statement of....................................    25
        Response to questions submitted for the record...........    32
    Marlow, Susan, Chief Executive Officer, Smart Data 
      Strategies, Inc............................................    43
        Prepared statement of....................................    45
        Response to questions submitted for the record...........    49
    Palatiello, John M., Executive Director, Management 
      Association for Private Photogrammetric Surveyors..........    35
        Prepared statement of....................................    37
        Response to questions submitted for the record...........    39
    Siderelis, Karen C., Geospatial Information Officer, U.S. 
      Department of the Interior.................................     7
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    16














                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 23, 2009..........................    65

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................    65
        Prepared statement of....................................    66
    Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
      from the State of South Dakota.............................    67
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................    66
        Prepared statement of....................................    67

Statement of Witnesses:
    Batzli, Dr. Sam, Director, WisconsinView, Geospatial 
      Information Scientist, The Space Science & Engineering 
      Center, University of Wisconsin-Madison....................   102
        Prepared statement of....................................   103
        Letter from State of Wisconsin Department of Military 
          Affairs submitted for the record.......................   108
        List of documents retained in the Committee's official 
          files..................................................   110
        Response to questions submitted for the record...........   110
    Dodge, Rebecca L., Ph.D., Outreach Director, AmericaView.....    75
        Prepared statement of....................................    77
        StateView Consortia Summaries submitted for the record...    83
        Response to questions submitted for the record...........    91
    Kimball, Suzette M., Acting Director, U.S. Geological Survey, 
      U.S. Department of the Interior............................    69
        Prepared statement of....................................    71
        Response to questions submitted for the record...........    72
    O'Neill, Mary, Principal Investigator, South Dakota View, and 
      Manager, Office of Remote Sensing, South Dakota State 
      University.................................................    94
        Prepared statement of....................................    96
        Response to questions submitted for the record...........    99



      OVERSIGHT HEARING ON ``FEDERAL GEOSPATIAL DATA MANAGEMENT.''

                              ----------                              


                        Thursday, July 23, 2009

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:10 a.m. in 
Room 1324, Longworth House Office Building, Hon. Jim Costa 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Costa, Lamborn, Holt, Sablan, 
Sarbanes, Tsongas and Lummis.
    Also Present: Representative Blackburn.
    Mr. Costa. Good morning, everybody. Thank you for being 
here this morning for the House Subcommittee on Energy and 
Mineral Resources meeting.
    Today is a two-fer. First, we are going to have an 
oversight hearing on Federal geospatial data management. When 
we complete the testimony from our panel members and questions 
that are asked by Members of the Subcommittee, we will conduct 
a legislative hearing to formally consider the measure from our 
colleague from South Dakota, Stephanie Herseth Sandlin, who has 
been working on this for some time.
    It will be a good opportunity to discuss the AmericaView 
Act and where the oversight, I think, needs to be applied as it 
relates to the Federal efforts on geospatial issues that 
involve so many areas of national policy in terms of resources, 
in terms of defense policy, in terms of general planning and 
our relationship at the state and local level, and also the 
private/public intersection because so much has changed. So 
much has changed.
    So we will be holding two hearings back-to-back today. The 
first will discuss the geospatial data, and then when that is 
over we will officially reconvene for a legislative hearing 
with a panel of experts to discuss the AmericaView bill in more 
detail.
    But first let me make some observations as it relates to 
the subject matter at hand.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. In this field, believe it or not, five years can 
literally feel like a lifetime. You might ask why. Well, those 
of you who are in the audience obviously know because this is 
an issue near and dear to your heart.
    Google Maps, Google Earth, iPhone, all of these things that 
we seem to take for granted these days, didn't exist five years 
ago. The people's iPhone they have there, they can have the 
ability to provide directional course in your automobile or 
wherever you are going. We take that for granted, but five 
years ago that didn't exist.
    So how we use the state-of-the-art technology in our 
everyday lives that now seems to be taken for granted is really 
the subject matter at hand and so while most Americans may not 
know what geospatial means, what we do know is they use it 
every day in their lives.
    We all use it every day in our lives, whether it is, as I 
said, looking at instructions on an outline or whether it is a 
complex way of figuring out how our regions and our states deal 
with forest fires, for example, or the complex way to deal with 
information for fisheries, our resource management, whether it 
be oil or natural gas.
    The Federal government's role in geospatial information 
mapping has changed significantly over 200 years. It has come a 
long way since Thomas Jefferson sent Lewis and Clark in one of 
the first expeditions, as they said, to map this great expanse 
of the United States that resulted in the Louisiana Purchase 
from France, and to find out whether or not there was a passage 
that connected the great river systems of the Continental 
Divide on the east to the river systems of the Continental 
Divide on the west.
    Clearly the ability to link the Missouri River and the 
Columbia River was not to be, not nearly in the way that 
President Jefferson had hoped or that Lewis and Clark later 
discovered was not available.
    Nonetheless, today the Federal government still has and 
collects voluminous amounts of geospatial data. The Department 
of the Interior estimates that roughly 80 percent of the 
Federal data that they have on record has a geospatial 
component to it.
    Unfortunately, like a number of things, one hand of the 
government doesn't necessarily know what the other hand of the 
government is doing. The Department of the Interior estimates 
that 50 percent of the money the government spends on 
geospatial efforts is redundant. Agencies oftentimes do not 
know what other agencies have already done and therefore can't 
use the existing data because it wasn't collected with the 
right information necessary to make it work.
    There have been efforts to better coordinate these agencies 
that have been going on record of gathering and collecting this 
data for really over 50 years, but I think Congress has learned 
that in the last set of geospatial hearings in this decade that 
the efforts have moved very slowly and have been very, very 
ineffective. So today we stand here to try to figure out how we 
can try to fix these things.
    Before I yield to the Ranking Member for his opening 
statement, I would like to do something that I think makes it 
much more informative and interactive.
    When I was talking about some of the stuff that we see on 
the news where they use geospatial and they will take you right 
to a specific location, whether it be in Mumbai, India, or 
whether it be in Pakistan or whether it be the flooding of the 
Red River up in the Dakotas where all of a sudden you are 
zoomed in on a region and, all of a sudden, you are right on 
the site. Well, all of that is done as a result, in part, of 
this mapping.
    I--my staff I should say--give credit where credit is due--
we have a five-minute video that will bring home, I think, to 
everyone the subject matter at hand. We will see how good we 
are with Marcie's efforts to make this happen. If it is 
successful, I will take all credit. If it doesn't work, it is 
because Marcie couldn't figure out how to get the computerized 
video thing going.
    Let us see how it works here. We will show you what we are 
talking about today. It is from Penn State.
    [Whereupon, a video was played.]
    Mr. Costa. I like that. ``The location of anything is 
becoming everything,'' and we want to thank Penn State 
University for this trailer for the geospatial documentary that 
they are producing. I think it does a nice job of setting up 
today's hearing in terms of the subject matter at hand.
    With that, I would like to thank our witnesses and 
recognize the Ranking Member, Mr. Doug Lamborn from Colorado, 
for any opening statement that he would like to make.
    [The prepared statement of Mr. Costa follows:]

Statement of The Honorable Jim Costa, Chairman, Subcommittee on Energy 
    and Mineral Resources, on ``Federal Geospatial Data Management''

    Good morning, and welcome to the Energy and Mineral Resources 
Subcommittee hearing on geospatial information. Officially this is a 
the first hearing of a doubleheader that we will be holding this 
morning, so those of you in the audience and watching online will be 
getting your money's worth. The second hearing will be a legislative 
hearing on a bill sponsored by my good friend and fellow Blue Dog, 
Congresswoman Stephanie Herseth-Sandlin, and I will have more to say 
about that bill a little later.
    This is the first time that I have had the opportunity to chair a 
hearing on this important topic, and, to the best of my knowledge, the 
first Congressional hearing directly on geospatial issues since 2004. 
While five years might not seem like a huge gap, when it comes to 
technology it is a lifetime. Five years ago, Google Maps and Google 
Earth did not exist, nor did iPhones. Today, Americans take it as a 
given that they should be able to get instantaneous driving directions 
across a city, state, or the entire country, or, if they have a GPS-
enabled device, they should be able to find out the location of the 
nearest restaurant or gas station. Most people probably could not 
explain what ``geospatial'' means, but they know what it does, and it 
has become an increasing part of our everyday lives.
    Also, most people probably have no idea what goes in to collecting 
that data and making it available in a useful form. I think we take for 
granted that every road will be there when we search for directions, or 
that the U.S. Geological Survey topographical maps will be there when 
we want to go on a hike in the forest, or that there will be a map 
showing what areas are being affected by severe drought. But a 
tremendous amount of time and money is required to make sure these maps 
exist, that they are accurate, and that they match up properly. Often 
times, such as when emergency responders need to know where to go, and 
where hazardous utility lines may be buried, this can be a matter of 
life and death.
    Historically, the federal government has been the primary 
collector, manager, and integrator of geospatial data. Over 200 years 
ago, Thomas Jefferson signed the bill creating the United States Coast 
Survey, and the need to understand the shapes of our coastlines and the 
boundaries of our frontiers made mapping a truly federal affair. But 
recently the situation has changed, and the federal government has 
fallen from its preeminent position. This is not necessarily a problem 
in and of itself. In many cases, state and local governments need a 
much higher level of detail than the federal government, so it is 
fitting that they now create some of the highest resolution geospatial 
data sets. And often times the private sector is better equipped to 
efficiently collect or process the data. I believe the variety of 
geospatial information on the web provides excellent examples of that.
    But the federal government has a number of other significant 
problems in this field. Government Accountability Office reports from 
five years ago point out that data duplication and a lack of 
coordination are a serious problem for the federal government. Earlier 
this decade, the Department of the Interior estimated that about 50 
percent of the federal government's spending on geospatial data is 
redundant. Numerous examples exist where one agency spends considerable 
money collecting data that, with a little extra coordination between 
different parts of the federal government, could have been useful for a 
number of different agencies. But the federal government has failed to 
manage this coordination effectively, and the American people pay the 
price, either through wasted money or inadequate data.
    In theory, the federal government has been working towards 
resolving these issues, and establishing something called the National 
Spatial Data Infrastructure, since the early 1990s. But progress has 
been extremely slow, and some people have doubts that we even know what 
the National Spatial Data Infrastructure really is, or if we would know 
when it is completed. The dramatic advances in technology over the past 
several years raise questions about whether we need to reevaluate how 
the federal government manages geospatial data and activities.
    I look forward to hearing from all our witnesses about how they 
believe the federal government can make improvements in the years 
ahead, and I now yield to the Ranking Member, Mr. Lamborn, for his 
opening statement.
                                 ______
                                 

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Lamborn. Yes. Thank you, Mr. Chairman. I enjoyed that 
also.
    Before anything else, I would like to ask unanimous consent 
that the gentlewoman from Tennessee, Mrs. Blackburn, be allowed 
to sit on the dais and participate in the hearing, especially 
for the purposes of an introduction when it comes time to bring 
up the first panel of witnesses.
    Mr. Costa. Without objection.
    Mr. Lamborn. And thank you for having this hearing also. I 
appreciate doing this so we can examine the acquisition and 
management of our Federal geospatial data. My state of Colorado 
is proud to be the home to many outstanding geospatial and 
mapping companies, including DigitalGlobe, CompassData and 
others. We know the importance of this science and industry to 
America.
    Today's hearing will hopefully provide us with answers 
regarding how much money the Federal government spends on 
geospatial data; what, if any, improvements in coordination 
between Federal agencies for data collection have been 
implemented recently; and how we can ensure the Federal 
government is getting the most out of our citizens' tax 
dollars.
    One of the key questions we will try to answer at this 
hearing is how can we improve the coordination between our 
Federal agencies when collecting geospatial data. One of the 
key agencies responsible for enforcing this coordination is the 
President's Office of Management and Budget, OMB. I am certain 
that their testimony on this issue would be particularly 
enlightening.
    Unfortunately, we will not be hearing from OMB today. 
Although they were apparently invited to attend, OMB must have 
decided the issue was not important enough to participate in 
this hearing. This unwillingness by OMB to come before this 
hearing and help us answer the important questions facing 
Federal geospatial data management will leave us with many 
unanswered questions, regardless of how enlightening and 
informative our witnesses will be today.
    The lack of OMB's willingness to testify is particularly 
troublesome when you consider that the so-called stimulus bill 
authorizes billions of dollars for mapping and could end up 
wasting hundreds of millions of precious taxpayer dollars on 
duplicative and needless surveys.
    On our Federal lands in the West where many of us use the 
motto ``Take only memories, leave only footprints,'' the 
mapping community likes to use the motto, ``Map once, use many 
times.'' Unfortunately, collectively, Federal agencies seem to 
use the motto,`` Map many times, hoard the data.'' This 
mentality by our agencies wastes taxpayer dollars.
    When the Department of Transportation spends money on maps, 
which duplicates work done by the Department of Agriculture or 
Commerce, that means less money for roads and infrastructure. 
Eliminating this sort of duplication is exactly why we are here 
today and again one of the reasons OMB should have been here 
with us as well.
    I want to welcome the witnesses, and I look forward to 
their testimony. Mr. Chairman, I yield back.
    I think now would be an excellent time to do any 
introductions.
    [The prepared statement of Mr. Lamborn follows:]

     Statement of The Honorable Doug Lamborn, Ranking Republican, 
 Subcommittee on Energy and Mineral Resources, on ``Federal Geospatial 
                           Data Management''

    Thank you Mr. Chairman, I appreciate you holding this hearing today 
to examine the acquisition and management of our federal geospatial 
data. My state of Colorado is proud to be the home to many outstanding 
geospatial and mapping companies, including DigitalGlobe, CompassData 
and others. We know the importance of this science and industry to 
America.
    Today's hearing will hopefully provide us with answers regarding 
how much money the federal government spends on geospatial data, what, 
if any, improvements in coordination between federal agencies for data 
collection have been implemented recently, and how we can ensure the 
federal government is getting the most out of our citizens tax dollars.
    One of the key questions we will try to answer at this hearing is: 
``how can we improve the coordination between our federal agencies when 
collecting geospatial data.''
    One of the key agency's responsible for enforcing this coordination 
is the President's Office of Management and Budget (OMB). I am certain 
that their testimony on this issue would be particularly enlightening.
    Unfortunately, we will not be hearing from OMB today. Although they 
were apparently invited to attend, OMB decided the issue and this 
committee not important enough to participate in the hearing. This 
unwillingness by OMB to come before this committee and help us answer 
the important questions facing federal geospatial data management will 
leave us with many unanswered questions regardless of how enlightening 
and informative our witnesses will be today.
    The lack of OMB willingness to testify is particularly troublesome 
when you consider that the Obama-Pelosi non-stimulus stimulus bill 
authorizes billions of dollars for mapping and could end up wasting 
hundreds of millions of precious taxpayer dollars on duplicative and 
needless surveys.
    On our federal lands in the west many of us use the motto, ``take 
only memories, leave only footprints'', the mapping community likes to 
use the motto, ``map once, use many times''. Unfortunately, 
collectively federal agencies seem to use the motto ``map many times, 
horde the data.'' This mentality by our agencies wastes taxpayer 
dollars.
    When the Department of Transportation spends money on maps which 
duplicates work done by the Department of Agriculture or Commerce that 
means less money for roads and infrastructure.
    Eliminating this sort of duplication is exactly why we are here 
today, and again one of the main reasons OMB should be here with us as 
well.
    I want to welcome the witnesses and I look forward to their 
testimony.
                                 ______
                                 
    Mr. Costa. All right. I will defer to our colleague who has 
one of our first panel members from her district who she knows. 
Mrs. Blackburn?

    STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I do want to thank 
you and Ranking Member Lamborn for allowing me to be here this 
morning. I do appreciate the courtesy that you are extending.
    I come before the Subcommittee with the distinct honor this 
morning of welcoming my constituent, and long-time friend, I 
will have to add to that, even though we will not tell you how 
long because it would date us, and women who are over 50 years 
old don't talk about such things.
    But Susan Marlow will offer some expert testimony for you, 
and she will provide this Committee with a unique perspective 
on geospatial coordination in governance at the Federal level. 
There is a reason that her testimony is so well placed for this 
Committee. She is the president and CEO of Smart Data 
Strategies, Inc.
    Now, that business started in 1989, and it is a woman owned 
and woman run business in Tennessee's seventh congressional 
district. She is a well-known professional in Middle Tennessee, 
and she is sought after for her expertise regarding geospatial 
business and technology. The Committee will no doubt benefit 
from having access to her experience.
    There is no other voice in our state and certainly in 
Tennessee's seventh congressional district, which goes from 
Memphis to Nashville, all the way to Fort Campbell, Kentucky, 
and there is no voice more knowledgeable or well versed on the 
issues that are before this Committee in the geospatial and 
mapping discipline.
    Susan, we are thrilled that you would take your time, that 
you would step away from your business. As we know, for small 
business people the clock never calls it a day. You are always 
working.
    So we are thrilled that you are here. I know you all have a 
busy schedule, so I will welcome my constituent and will yield 
back my time, and I thank you for the courtesy.
    Mr. Costa. Thank you, Congresswoman Blackburn. We look 
forward to hearing your constituent as a part of this panel.
    Ms. Marlow, you are to be advised, with all the members of 
the panel, that we have a rule that limits you to five minutes. 
Your statement won't be as long as your introduction was.
    [Laughter.]
    Mr. Costa. I am sorry, but we do have a written statement 
that we will be anxious to read.
    But for all panel members, those of you who have not 
testified before here, it is a five-minute rule. Right in front 
of you, there is a timer. The green light will be on for the 
first four minutes, and then when the yellow light goes on, you 
have one minute left. When the red light goes on, then your 
time is expired.
    The Chair generally gives points for those that are within 
the five minutes. Correspondingly, if you go beyond the five 
minutes you get demerits so we hope and appreciate that you 
will comply with our rule, and obviously we look forward to the 
question and answer time where we get a chance to further 
provide information and learn from the testimony that you 
provide.
    So with that understood, we have in the order that the 
introductions began Mr. John Palatiello. Is that right?
    Mr. Palatiello. Palatiello.
    Mr. Costa. Palatiello.
    Mr. Palatiello. Very good.
    Mr. Costa. OK. Executive Director for Management 
Association for Private Photogrammetric Surveyors, known as 
MAPPS; Mr. Michael Byrne, Geospatial Information Officer from 
my home state of California. It is good to have you here. And 
Ms. Karen Siderelis. Is that correct?
    Ms. Siderelis. Siderelis. Almost correct.
    Mr. Costa. Siderelis. OK. The Geospatial Information 
Officer for the U.S. Department of the Interior.
    As the Ranking Member noted, we had hoped that the 
representative from the Office of Management and Budget would 
have testified. Staff made a serious effort to try to get them 
to be here today. It is unfortunate that they were not able to 
be here.
    We will hold them to that because their information and 
their testimony is an important part of this discussion, so we 
hope in the future that they will provide that opportunity to 
testify before the Subcommittee and that we can go from there.
    So why don't we begin at the beginning--that is usually a 
good place to begin--with Ms. Karen Siderelis, the Geospatial 
Information Officer from the Department of the Interior. We 
look forward to your five-minute testimony and also some 
explanation as to how we can deal with this issue of 
redundancy.
    So, Karen, you are on first.

    STATEMENT OF KAREN C. SIDERELIS, GEOSPATIAL INFORMATION 
              OFFICER, U.S. DEPARTMENT OF INTERIOR

    Ms. Siderelis. Excuse me. I am the Geospatial Information 
Officer----
    Mr. Costa. Speak in closer to the mic. We all want to hear 
you.
    Ms. Siderelis. Is this better?
    Mr. Costa. Yes.
    Ms. Siderelis. OK. I thank you for the opportunity to be 
here this morning and to provide testimony for the hearing on 
Federal geospatial data management and look forward to 
contributing positively to a dialogue about the value of 
geospatial information and the efforts to create a National 
Spatial Data Infrastructure.
    Mr. Chairman, I would particularly like to thank you for 
using the video this morning to help us understand the value of 
geospatial data to the nation. It was quite impressive and I 
think a very nice beginning to the hearing.
    This morning I would like to briefly discuss the status of 
Federal efforts to create a National Spatial Data 
Infrastructure, alert the Members to opportunities and 
challenges that we face in establishing a coordinated NSDI and 
describe some of the current directions that the Administration 
is pursuing to address the opportunities and challenges.
    Over the last decade, significant Federal progress has been 
made to an NSDI. My written testimony provides information 
about advancements in seven key areas, work that we have done 
in strategic planning, improving Federal governance and 
accountability, developing partnerships with the non-Federal 
community, developing data sharing mechanisms, streamlining our 
investment management, developing approaches for sharing 
operational data assets and supporting key national issues.
    Please allow me to call your attention to just a few 
noteworthy accomplishments that are in my written testimony. 
Firstly, through the Federal Geographic Data Committee we have 
provided partial funding for more than 600 projects to support 
the NSDI. Since 1984, we have invested more than $18 million in 
our partners to leverage their investments, and they have more 
than matched that investment of $18 million.
    We have contributed seed money to help states develop 
geospatial strategic and business plans as part of the 50 state 
initiative, and that helps us in the Federal agencies 
understand how we might leverage the investments of our 
partners.
    We have supported NSDI training through a distributed 
network of partners. We have endorsed 24 geospatial standards 
and initiated another 14. We have registered almost 200,000 
records in the geospatial one-stop portal, making it easier for 
users to find and use geospatial data.
    We have established a SmartBUY contract vehicle to 
consolidate purchases of geospatial software, and we have 
developed a draft plan for the Imagery for the Nation 
Initiative that could provide significant cost savings in the 
acquisition of aerial imagery across the entire country.
    And we have established the National Geospatial Advisory 
Committee to provide a forum for non-Federal advice. Two of my 
colleagues on the panel today, Michael Byrne and John 
Palatiello, are currently serving as members of that committee.
    And perhaps most important, we have used geospatial 
technologies and data to monitor, respond and prepare for a 
number of national issues. Geospatial technologies and data are 
being used to address many key national issues, including 
climate change, economic recovery, energy, homeland security 
and managing our natural resources and critical infrastructure.
    And I think your opening remarks, Mr. Chairman, and the 
examples we saw in the video were wonderful examples of some of 
the things that we also are doing in the Federal agencies to 
use this information. I have provided as an attachment to my 
written testimony a document providing web links to some of the 
outstanding uses of geospatial data in the Federal agencies.
    Regardless of our achievements, the United States still has 
work to do to achieve an effective National Spatial Data 
Infrastructure, and the Federal government must provide 
competent and appropriate leadership. We must continue to 
develop and refine spatial data policy, increase our 
understanding of the collective geospatial capacity of the 
Federal government and our partners and provide the means to 
oversee our investments.
    Mechanisms to ensure performance and accountability and 
incentives for participation in a collaborative and coordinated 
NSDI must continue to be a focus. We have tremendous 
opportunities to leverage the intersection of an era of 
``unprecedented transparency and accountability,'' a renewed 
commitment to innovative government, an increasingly 
geospatially literate society, as you described, Mr. Chairman, 
and a period of unparalleled technological sophistication in 
order to put geospatial information at the fingertips of the 
Nation.
    The Administration is committed to the National Spatial 
Data Infrastructure and considers fully embedding geospatial 
information into the business of government as an obvious and 
essential direction. We will do this through encouraging 
innovation both in the use of new technologies and transformed 
business processes, ensuring broad and effective collaboration 
with state, local and tribal governments, leveraging progress 
made in industry with our partners, our commercial partners, 
clearing policy obstacles and providing a focus on performance.
    In the short term, the Administration will concentrate in 
three areas. Firstly, we will engage the Nation in a dialogue 
about its geospatial future. We intend to hold a national 
geospatial open forum using new media to garner input from all 
corners of the country to seek out the best ideas for enhancing 
the NSDI.
    Second, we will bring creative energy to making Imagery for 
the Nation a reality. We will work with our partners to 
demonstrate the principles and concepts of the NSDI through the 
Imagery for the Nation Initiative and thereby meet a key 
national need.
    And, third, we will bolster the geospatial governance 
structure that we have in place and assure that the Federal 
Geographic Data Committee is successful in providing 
unprecedented leadership in the twenty-first century.
    Today American society demands and expects geospatial 
information to be at their fingertips. Leveraging advancements 
in the private sector and leadership from our partners in 
state, local and tribal government, the Nation stands ready and 
poised to enjoy the benefits of a robust National Spatial Data 
Infrastructure.
    I look forward to working with Members of the Subcommittee 
on any further efforts toward the NSDI and appreciate your 
leadership in convening this hearing today.
    I thank you for the opportunity to present testimony and 
would be pleased to answer any questions.
    [The prepared statement of Ms. Siderelis follows:]

 Statement of Karen C. Siderelis, Geospatial Information Officer, U.S. 
 Department of the Interior and Acting Chair of the Federal Geographic 
                             Data Committee

    I thank The Honorable Chairman Costa and the Members of the 
Subcommittee on Energy and Mineral Resources for the opportunity to 
provide testimony for this hearing on Federal Geospatial Data 
Management and to contribute positively to the dialog about the value 
of geospatial data to the nation and efforts to create the National 
Spatial Data Infrastructure (NSDI).
    My experience with the subject of geospatial data includes my 
present position as Geospatial Information Officer for Department of 
the Interior (DOI) and my current role as Acting Chair of the Federal 
Geographic Data Committee (FGDC). I also have served as Associate 
Director for Geospatial Information and Chief Information Officer for 
the U.S. Geological Survey and worked a number of years in the State of 
North Carolina as the Director of the Center for Geographic Information 
and Analysis.
    Chairman Costa's letter of invitation stated that this hearing will 
examine 1) the usefulness of geospatial data to the nation; and 2) the 
status of federal efforts to create a National Spatial Data 
Infrastructure, reduce redundant geospatial data investments, promote 
data sharing, and increase coordination of geospatial data gathering 
activities within the federal government and between federal agencies 
and non-federal entities.
    To address the first point of the usefulness of geospatial data to 
the nation, I will briefly share with you some examples of how 
geospatial information and technology have and are being used to 
address issues of national significance, and invite you to explore with 
me the possibilities of the future National Spatial Data 
Infrastructure.
    To address the second point, my testimony includes observations of 
the Federal progress that has been made over the last decade to ensure 
more effective investments in geospatial data, promote data sharing, 
and improve coordination both within the federal government and between 
federal agencies and non-federal entities. I will also alert you to 
opportunities and challenges we face in realizing a robust and 
coordinated NSDI, and describe directions the current Administration is 
pursuing to address these opportunities and challenges. The testimony 
is centered on efforts of the FGDC and its responsibilities outlined in 
OMB Circular A-16 and Executive Order 12906.
              Usefulness of Geospatial Data to the Nation
    A report prepared by the National Geospatial Advisory Committee 
entitled The Changing Geospatial Landscape states a remarkable truth:
        ``Practically overnight, access to terabytes of geographical 
        information, much of it in three dimensions, has changed the 
        way people work, live, and play.''
    Geospatial information and technology are now ubiquitous and 
embedded in numerous aspects of society. They support planning, 
decision-making, and action in many disciplines, professions and 
organizations literally around the world. Geospatial information is 
being used to address the nation's critical issues and applications 
include natural resource management, land records management, 
conservation and environmental restoration, facility management, 
transportation and logistics, human health, security, natural and human 
disasters, humanitarian relief, climate and environment--just to name a 
few. Today the consumer market has exploded and geospatial information 
and technology are being used in ways never imagined even a decade ago.
    Geospatial information has been a valuable tool in the Nation's 
response to the events of September 11, 2001, Hurricane Katrina, the 
annual fire season, avian influenza, Census data collection and 
analysis, weather forecasting, and now the economic recovery. The 
impact and benefits of this information in each of these efforts was 
significant.
    However most of these uses and applications still arise issue-by-
issue and project-by-project and require extensive time to prepare and 
synthesize information. Imagine the United States with a National 
Spatial Data Infrastructure that enables easy access to current, high 
quality, application-ready information--information that is produced 
once, used many times, and satisfies a broad range of users from 
scientists to end consumers. The National Spatial Data Infrastructure 
of the future could place geographic knowledge at the fingertips of the 
nation.
               Federal Progress, Achievements, and Status
    Over the last decade remarkable Federal progress has been made 
toward a National Spatial Data Infrastructure. I call your attention to 
achievements in 7 key areas: strategic planning, improved Federal 
governance and accountability, partnerships with the non-Federal 
community, data sharing mechanisms, streamlined investment management, 
shared operational data assets, and support to key national issues.
Strategic Planning
    Over the past several years federal partner agencies have conducted 
two significant efforts to develop strategic approaches for geospatial 
coordination.
NSDI Strategic Directions
    In 2004, the FGDC launched the NSDI Future Directions Initiative to 
craft a national geospatial strategy and implementation plan to further 
the development of the NSDI. The resulting document, ``NSDI Future 
Directions Initiative, Towards a National Geospatial Strategy and 
Implementation Plan'', drew on the collective insights and 
contributions of the geospatial community at-large and requires a 
variety of organizations and individuals to become involved and share 
the responsibility for implementation in order to achieve success. This 
report provides a context for action to address the needs of the 
geospatial community, built on past successes and providing the 
blueprint for collective action. The strategy described in the report:
    <bullet>  Is based on communication, cooperation, and partnerships;
    <bullet>  Reflects an integrated approach to access critical 
geospatial data and products;
    <bullet>  Recognizes the need to communicate the NSDI's value 
beyond current constituents;
    <bullet>  Emphasizes coordination of resources and appropriate 
technical services for all Federal and non-federal entities;
    <bullet>  Focuses on achieving interoperability and framework 
standards compliancy and adoption; and
    <bullet>  Outlines procedures, defined more concretely in its 
accompanying Action Plans, for achieving each objective and serves as a 
starting point to address the issues.
Geospatial Line of Business
    Subsequent to development and execution of this National Strategy, 
the FGDC embarked on a follow-up effort to enhance coordination across 
federal agencies. The FGDC used a business process approach in 
developing the next iteration of its strategic efforts in 2006 through 
the OMB sponsored Geospatial Line of Business Initiative. The 
Geospatial Line of Business is a government-wide initiative, sponsored 
by the Office of Management and Budget that focuses on improving 
government effectiveness by promoting the use of geospatial information 
in order to improve both the policy decisions and the internal business 
processes of Federal agencies. This initiative has produced a Common 
Solutions and Target Architecture document that has served as the 
operational framework for federal geospatial coordination over the past 
three years. Two of the major accomplishments that this initiative 
produced are the Geospatial SmartBUY Blanket Purchase Agreements (BPAs) 
and the OMB Circular A-16 Supplemental guidance. These specific 
accomplishments will be described in more detail later in this 
testimony.
Improved Federal Governance and Accountability
    Implementation of the strategic vision required executive 
participation and concurrence from partner agencies, a mechanism to 
guide the Steering Committees efforts, clarification of the Federal 
roles and responsibilities directed in A-16, and recognition of the 
importance of managing geospatial investments. Improved governance and 
accountability mechanisms include the following items.
Senior Agency Officials for Geospatial Information
    In March of 2006, OMB directed select executive departments and 
agencies that produce, maintain, or use geospatial information to 
designate a senior agency official who has agency-wide responsibility, 
accountability, and authority for geospatial information issues, 
referred to as a Senior Agency Official for Geospatial Information or 
SAOGI. Each SAOGI is responsible for internal coordination and 
implementation of geospatial-related initiatives and activities in 
their agency and also serve as the policy-level official to represent 
the agency on the FGDC Steering Committee.
FGDC Executive Committee
    In April 2008, a subset of the Steering Committee members, along 
with the Chair and Vice-chair were chartered as an Executive Committee. 
The Executive Committee meets frequently and is responsible for 
providing guidance, making recommendations and helping move forward 
critical issues for the Steering Committee. The Executive Committee 
member agencies are the seven agencies with the majority of the Federal 
geospatial investments, including: Department of the Interior (DOI), 
Department of Agriculture (USDA), Department of Commerce (DOC), 
Department of Defense (DoD), Department of Homeland Security (DHS), 
Environmental Protection Agency (EPA), and National Aeronautics and 
Space Administration (NASA). OMB serves as the Vice-chair. The 
Executive Committee has taken the lead on advancing Federal geospatial 
initiatives, such as Imagery for the Nation (IFTN), and has enabled the 
FGDC to progress efficiently and maintain continuity during the 
administration transition period.
A-16 Supplemental Guidance
    Draft Supplemental Guidance for OMB Circular A-16 has been 
developed to clarify roles, responsibilities, and management processes 
to help lead agencies more systematically and effectively implement 
their geospatial management responsibilities. The Guidance sets the 
framework for lifecycle-based portfolio management and establishes a 
reporting process to increase transparency in the development and 
maintenance of nationally significant geospatial datasets. It also 
provides a standard lexicon of terms for use in this process. It offers 
a decision process for adding, modifying, or deleting specific themes 
or datasets from the Circular based on alignment with long-term 
national strategies or goals, specific business requirements, benefits, 
and costs. Most importantly it establishes a meaningful process for 
continuously improving nationally important geospatial data.
Individual Agency Governance Improvements
    Many improvements in geospatial governance have occurred within 
individual agencies. For example in 2008, DOI issued a Secretarial 
Order entitled ``Enhanced Geospatial Governance'' that, among other 
things, established the position of Geographic Information Officer. 
This formally recognizes the importance the Department places on the 
need for strategic oversight and management of geospatial investments 
and operations. Two other examples of Federal Departments establishing 
GIO positions are the EPA and the U.S. Army.
Partnerships with the Non-Federal Community
    Non-Federal partners are key to the success of the NSDI. 
Advancements in Federal coordination with these important stakeholders 
are described below.
National Geospatial Advisory Committee
    One of the most effective new developments to enhance our 
partnership and governance process has been the establishment of the 
National Geospatial Advisory Committee (NGAC). The NGAC is a Federal 
Advisory Committee established by the Interior Department in 2008 to 
provide external advice and recommendations to the member agencies of 
the FGDC. Two of my colleagues on the panel today, Michael Byrne and 
John Palatiello, currently serve as members of the committee. The NGAC 
includes a balanced membership of 28 committee members representing a 
variety of organizations involved in geospatial issues, including the 
private sector, non-profit organizations, academia, and all levels of 
government. The NGAC has staggered membership terms, and Secretary 
Salazar issued a call for nominations earlier this month for the next 
round of appointments to the committee.
    In the short period that the NGAC has been in existence, it has 
proven to be an invaluable source of advice and feedback for the FGDC. 
The NGAC promotes two-way communication on issues of common interest to 
the national geospatial community and provides a forum to convey views 
representative of our partners and stakeholders. The NGAC meets on a 
quarterly basis and has established subcommittees that conduct research 
and develop draft products between committee meetings. Over the past 
year, the NGAC has analyzed and provided recommendations on Imagery for 
the Nation, Geospatial Line of Business, National Land Parcel Data, 
Transition Recommendations, ``Changing Landscape'' of Geospatial 
Technology, Economic Stimulus, and FGDC Governance. For next steps, the 
NGAC is working with us to conceptualize an approach for a new National 
Geospatial Policy and Strategy. This is a very complex activity, and I 
anticipate that this issue will be a major focus of the NGAC's work 
over the coming year.
Cooperative Agreements Program
    The NSDI Cooperative Agreements Program (CAP) was established by 
FGDC to help form partnerships among organizations to implement the 
NSDI. The CAP funds innovation in the GIS community to build the NSDI. 
This broad effort includes a focus on people, organizational know-how, 
best business practices, collaboration, education, tools, technology, 
the Internet, standards and data. The NSDI CAP is a success story for 
the NSDI, FGDC, and our constituents.
    CAP participation is now open to all sectors, except for Federal 
agencies, and has included: Federal agencies (prior to 2008), State 
governments, county and city governments, Tribal organizations, 
academic institutions, regional organizations, and private 
organizations. Since 1994, $18 million has been spent on CAP, funding 
over 600 projects, each of which is matched by non-Federal funds in the 
form of in-kind services. These matches typically range from 25 percent 
to 100 percent of the award.
50 States Initiative
    This initiative provides seed money, requiring in-kind matches from 
the awardees, to help states develop geospatial strategic and/or 
business plans in support of the NSDI. These plans can then be utilized 
by the Federal agencies who can, through their programs and state 
liaisons, improve the integration of efforts between and across levels 
of government and between agencies. Currently, 46 states have received 
awards.
NSDI Training
    The FGDC supports NSDI training through a distributed network of 
partners including State GIS Coordinators, university GIS programs, 
independent consultants, and Federal programs including the National 
Biological Information Infrastructure (NBII) and the National Oceanic 
and Administrative (NOAA) Coastal Services Center. NSDI training 
focuses on Geospatial Metadata and NSDI Clearinghouse implementation to 
aid individuals in documenting and publishing their geospatial data 
resources. An Online Training Initiative provides training modules on 
Geospatial Data Discovery and Access, Geospatial Data Integration, 
Geospatial Partnerships, Policy and Planning, the NSDI, GOS, geospatial 
web services, NSDI Standards, NSDI data themes, geospatial business 
planning, and the CAP. The FGDC also provides ``train-the-trainers'' 
sessions where attendees can learn the methods and materials for 
specific topics and become ``certified'' trainers. These trainers can 
then train others in their agencies, organizations, or geographic 
areas.
Data Sharing Mechanisms
    We have advanced our capabilities for data sharing within and among 
Federal agencies, and also between Federal agencies and our not-federal 
partners.
Geospatial Standards
    Standards are critical to the sharing of geospatial information. 
The FGDC in cooperation with partners develops geospatial standards for 
implementing the NSDI. These include standards on: thematic data 
content, metadata, transfer protocols, positional accuracy, 
cartographic representation, and others. The FGDC's standards process 
incorporates established Federal requirements, and complements other 
National and International standards development efforts including the 
International Organization for Standardization (ISO), the American 
National Standards Institute (ANSI), and the InterNational Committee on 
Information Technology Standards (INCITS).
    There are currently 24 FGDC endorsed geospatial standards and 
another 14 currently in development. Since 2003, the 7 Framework data 
themes, and 4 additional data themes, have been endorsed. These include 
cadastre, digital orthoimagery, elevation, geodetic control, 
governmental unit boundaries, hydrography, transportation, bathymetry, 
geology, vegetation, and wetlands.
    A significant amount of data collected by non-Federal partners 
becomes part of the NSDI. FGDC standards facilitate the contribution of 
data to the NSDI by non-Federal partners and provide guidance for the 
partners producing their own data. For example, last year, only one 
third of the new and updated data added to the wetlands layer of the 
NSDI was produced using funds appropriated to the U.S. Fish and 
Wildlife Service's National Wetlands Inventory. The rest was 
contributed by cooperators.
Geospatial One Stop
    Geospatial One-Stop (GOS) is an e-government initiative sponsored 
by OMB. GOS makes it easier, faster, and less expensive for all levels 
of government and the public to access geospatial information. The GOS 
portal, also known as geodata.gov, serves as a public gateway for 
improving access to geospatial information and data. It provides a 
robust geospatial data catalog and tools for searching Federal and non-
Federal geospatial information. It also includes a ``Marketplace'' 
where geospatial data purchase/development efforts are posted to foster 
partnerships for data collection and reduce costs. Use of the GOS 
continues to grow. From 2004 to 2008 the number of records registered 
with the GOS has increased from 11,000 to 188,000.
Data.gov and Recovery.gov
    Geospatial technology and expertise have been used to support 
Data.gov and Recovery.gov, two new Administration initiatives to 
increase public access to government information and activities. 
Data.gov deals specifically with access to high-value government 
generated data sets. For example the USGS's ``Global Visualization 
Viewer'' provides access to 1.5 million aerial photographs of U.S. 
sites and 8.5 million images captured worldwide by U.S. Earth-observing 
satellites. Recovery.gov specifically provides information about the 
American Recovery and Reinvestment Act, providing information to the 
public about the use of stimulus funds.
Streamlined Investment Management
    In the last few years, several important steps have been taken to 
streamline Federal investments in geospatial information and 
technology.
Geospatial SmartBuy
    The Geospatial Line of Business, through the FGDC, has established 
a SmartBuy contract vehicle to consolidate purchase of geospatial 
technology. The acquisition initiative is led by the Department of the 
Interior and GSA. Multiple Blanket Purchase Agreements, provide 
significant cost savings and greatly improve the government's access to 
high quality commercial geospatial software, packaged data, and related 
products. BPAs will be available to Federal civilian and defense 
agencies as well as state, local, and Tribal governments.
Investment Reporting
    As a part of the Geospatial Line of Business, a 2008 data call was 
issued to the Lead Agencies responsible for each of the 34, OMB 
Circular A-16 Data Themes of National Significance. This information is 
being used to develop a framework for geospatial data portfolio 
management.
    The FY 2007 budget passback guidance issued by OMB to all Federal 
agencies directed agencies to ``update and report to OMB by March 30, 
2007, their inventories of geospatial data and systems using a common 
set of investment definitions''. Agency information obtained through 
this investment reporting request was intended to be used to coordinate 
agency investments in geospatial data and services through FY 2009. 
Analysis of agency responses is contained in the ``2007 Data Call 
Analysis Report'' and some of the key findings were:
    <bullet>  For the specific data sets included in the reporting 
request, the Federal government financed or plans to invest, directly 
or indirectly, $1.89 billion in spatial data and geospatial services 
during the FY 2007--FY 2009 period.
    <bullet>  The level of geospatial investment each year was 
relatively consistent.
    <bullet>  Fifty two percent (52%) of agencies reported a three year 
average of less than one million ($1M) per year in geospatial data and 
services investments within the scope of the investment data request.
    <bullet>  DHS, DOC, DOI, and USDA investments when combined total 
over 90% of total reported federal geospatial data and services 
investments and these agencies are lead federal agencies for 87% of the 
data themes within the scope of the 2007 geospatial investment 
reporting request.
    <bullet>  A high degree of redundant investment types was not 
readily apparent in comparison with other LoB initiatives (i.e. Human 
Resources LoB, Financial Management LoB, Grants, etc.)
Shared Operational Data Assets
    The FGDC has provided leadership to align the efforts of the 
Federal agencies and worked collaboratively with our non-Federal 
partners to move toward a national goal of shared operational data 
assets being available on-line for multiple uses and purposes.
Imagery for the Nation
    Imagery for the Nation (IFTN) is a proposed Federal program, to be 
conducted in partnership with State and local governments, to address 
the nation's basic business needs for imagery. The vision for IFTN is 
that the nation will have a sustainable and flexible digital imagery 
program that meets the needs of local, State, regional, Tribal and 
Federal agencies. Imagery is used for countless applications in all 
levels of government and sectors, and has been embraced by the public 
through its use in online tools such as Google Earth and Microsoft 
Virtual Earth. Partnerships between levels of government to acquire 
imagery data have been successful and growing because the benefits of a 
coordinated approach are clear: lower costs, reduced duplication of 
effort, greater standardization and more data available for the full 
spectrum of uses and users. IFTN has been endorsed by the National 
Geospatial Advisory Committee and many other stakeholder groups. We are 
finalizing a project plan for IFTN and working with our partner 
agencies to develop a funding strategy.
National Land Parcel Data
    Land parcel data is another key data asset that has received focus 
by the FGDC. Digital land parcel data are a critical component 
supporting key national programs and priorities. Parcel information, 
combined with other geographic information, is used to support numerous 
other programs such as management of emergency situations (including 
wildland fire and hurricanes), the development of domestic energy 
resources, management of private and public lands, support of business 
activities, and monitoring regulatory compliance. A recent National 
Research Council report, ``National Land Parcel Data: A Vision for the 
Future'' provided a set of recommendations on the development of a 
national approach to parcel data. The NGAC has also reviewed and 
endorsed the recommendations in the report. The FGDC has begun to 
address the parcel data recommendations. For example, the NGAC and 
other stakeholders have identified how parcel level information across 
the country can be used in developing effective responses to the 
current mortgage crisis. The FGDC Cadastral Subcommittee convened an 
outreach conference in May with partners and stakeholders in the 
financial community to demonstrate how parcel information can help 
support a data-driven response to the mortgage crisis. We are working 
with our partner agenciues to address the recomendations that resulted 
from the meeting.
Support for Key National Issues
    Geospatial technologies and data are used at all governmental 
levels and by non-Federal constituents to monitor, respond, and prepare 
for a multitude of issues. Geospatial technologies and data are 
currently being used to address many key national issues including: 
climate change, economic recovery, energy exploration, homeland 
security, and managing our environmental resources and critical 
infrastructure. During the 9-11-2001 response, daily monitoring and 
mapping of ``ground zero'' using aerial imaging was performed to 
monitor structural stability and locate heat signatures of survivors 
and fires. The most costly U.S. natural disaster, Hurricane Katrina was 
both tracked prior to its landfall and responded to using geospatial 
technologies. The Indonesian Tsunami's impact and response by U.S. 
Federal, private sector, and international agencies relied on 
geospatial technologies. During the recent wildfires in the west, 
public postings online of minute-by-minute fire location changes 
utilized online mapping technologies. The question is no longer where 
can geospatial data help, but how can we more efficiently prepare and 
manage our geospatial portfolio and increase our spatial readiness to 
be prepared for, respond to, and minimize time, expense and loss.
    I call your attention to an attachment to this testimony that 
provides web links to some outstanding geospatial activities in the 
Federal agencies that are supporting critical national issues. For 
example, the National Geospatial Program (NGP) in the U.S. Geological 
Survey collects and integrates base national geospatial datasets, 
maintains standards, coordinates data discovery and access, and ensures 
consistent and current data are available for the Nation. Two of NGP's 
primary products are The National Map and The National Atlas, which 
present current, accurate, and consistent geospatial data and map 
services online. These products contain data and information describing 
the landscape of the U.S. and locational features that can be fused or 
integrated and displayed online or in a traditional map format. The 
National Map represents the starting point--the basic framework--from 
which land and resource decisions and economic and environmental 
policies can be made.
    Coastal habitats are among the most important habitats for fish and 
wildlife. The large number of National Wildlife Refuges along coasts 
are tremendously important to myriad migratory birds and endangered 
species. In its draft climate change action plan, the U.S. Fish and 
Wildlife Service recognizes that and states that it will use the Sea 
Level Affecting Marshes Model (SLAMM) to develop adaptive strategies 
for coastal Refuges. Absent Federal geospatial data readily available 
over the internet, the use of SLAMM would be limited due to cost and 
limited access to the data. These data sets include wetlands data from 
the U.S. Fish and Wildlife Service, elevation from the U.S. Geological 
Survey, and tide data from the National Oceanic and Atmospheric 
Administration.
                      Opportunities and Challenges
    In spite of this record of achievement, the United States still has 
work to do to achieve a cost effective National Spatial Data 
Infrastructure that ensures the nation's geospatial readiness to 
address critical issues across all sectors and disciplines. Although 
there has been a dramatic shift from the Federal government being the 
primary producer of geospatial data, the expectation remains that the 
Federal government will provide competent and appropriate leadership to 
realize a coordinated NSDI. We must continue to refine and develop 
spatial data policy, increase our understanding of the collective 
geospatial capacity of the Federal government and its partners, and 
provide the means to oversee and control Federal investment in 
geospatial data and technology. Mechanisms to ensure the accountability 
of Federal agencies and incentives for non-Federal participation in a 
collaborative, coordinated NSDI must continue to be a focus.
    At the same time there are tremendous opportunities to leverage the 
intersection of an era of ``unprecedented transparency and 
accountability'', a renewed commitment to innovative government, 
geospatially literate society, and a period of unparalleled 
technological sophistication in order to put geospatial information at 
``the fingertips of the nation.''
               The Administration's Geospatial Directions
    The Administration is committed to the National Spatial Data 
Infrastructure and considers ``geo-enabling the government'' an obvious 
and essential direction. We will do this through:
    <bullet>  Encouraging innovation, both in the use of new 
technologies and transformed business practices;
    <bullet>  Ensuring broad and effective collaboration with State, 
local and tribal governments;
    <bullet>  Leveraging industry progress;
    <bullet>  Clearing policy obstacles; and
    <bullet>  Focusing on performance.
    In the short term we will concentrate in 3 areas:
    1.  We will engage the nation in a dialog about its geospatial 
future. We plan to hold a ``National Geospatial Open Forum'', using new 
media, to garner input from all corners of the country to seek out the 
best ideas for enhancing the National Spatial Data Infrastructure.
    2.  We will bring creative energy to making Imagery for the Nation 
(IFTN) a reality. We are listening to the non-Federal stakeholders and 
concur that this important project can serve as a superb demonstration 
of the principles and concepts of the NSDI and meet a key national 
need.
    3.  We will bolster the geospatial governance structure that we now 
have in place. We will ensure that the FGDC is successful in providing 
unprecedented leadership to meet the geospatial needs of the Federal 
government and of the nation in the 21st century.
                                Summary
    Today, American society demands and expects geospatial information 
to be at their fingertips. Leveraging advancements in the private 
sector and leadership from state, local and tribal governments, the 
Nation stands poised to enjoy the benefits of a robust National Spatial 
Data Infrastructure.
    As I have discussed through this testimony, highlighting numerous 
accomplishments over the last decade, the Federal Government is 
continuing and will continue to play a key role in the NSDI. We are 
making significant strides towards meeting user expectations, 
leveraging private sector innovation, collaborating with non-Federal 
partners, and managing our investments. While there is substantial work 
to be done to realize the National Spatial Data Infrastructure, we have 
advanced national geospatial efforts in order to:
    <bullet>  quickly and effectively respond to the Nation's 
priorities;
    <bullet>  be the leader in the global spatial data infrastructure;
    <bullet>  stay at the forefront of technology;
    <bullet>  respond to disasters and national security events;
    <bullet>  meet the increasing demand for access and use of 
geospatial information; and
    <bullet>  provide transparency and accountability to citizens.
    I look forward to working with the Subcommittee on any further 
efforts toward the National Spatial Data Infrastructure and appreciate 
your leadership in convening this hearing. Thank you for the 
opportunity to present this testimony. I would be pleased to answer any 
questions.
                                 ______
                                 

    Response to questions submitted for the record by Ms. Siderelis

Response to Questions from Chairman Jim Costa from the State of 
        California
 1.  Ms. Siderelis, you mentioned that the administration had recently 
        appointed a Chief Performance Officer to try to improve agency 
        compliance with federal geospatial directives, such as those 
        outlined in Circular A-16. Could you provide more specifics on 
        what the Chief Performance Officer will do in an attempt to 
        increase agency compliance, and what other specific actions 
        this administration is going to take to improve the situation 
        with federal geospatial activities and data management?
    Response: OMB Director Peter Orszag describes the role of the Chief 
Performance Officer (CPO) as leading efforts ``in reforming government 
hiring practices and in retaining highly skilled and effective 
employees'' as well as ``contracting reform, program evaluation, and e-
government'' performance. Each of these areas of focus is relevant to 
improving performance of the geospatial activities of the Federal 
agencies. The CPO will work with the Chief Information Officer, the 
Chief Technology Officer, and the chair and members of the Federal 
Geographic Data Committee (FGDC) to improve agency compliance with 
Circular A-16 and other directives. The FGDC subcommittees' chairs will 
work with their respective OMB examiners and the new Chief Performance 
Officer to ensure that all agencies use applicable FGDC standards 
developed to support Circular A-16 data themes. These standards are 
critical to the sharing of geospatial information within and among 
Federal agencies, and between non-Federal and Federal sources. This, in 
turn, fosters consistency among data sets and furthers compliance and 
accomplishment of Circular A-16 directives.
    One specific action the administration intends to take is the 
development of a set of government-wide and agency-specific geospatial 
metrics that will be monitored through a variety of means including a 
geospatial ``dashboard'' that will present Federal agency investments 
and performance in geospatial activities.
 2.  Ms. Siderelis, please provide more details on the administration's 
        plans or intentions for the Imagery for the Nation project. How 
        would such an implemented Imagery for the Nation program 
        improve the aerial imagery situation for different 
        stakeholders, such as the federal government, state 
        governments, local governments, and the private sector? How 
        much money would an Imagery for the Nation initiative, as 
        envisioned by the administration, cost? Would that be all new 
        money, or would there be opportunities to repurpose existing 
        money that already goes to aerial imagery? When does the 
        administration envision an Imagery for the Nation program being 
        operational?
    Response: We plan to fully explore the available options to make 
Imagery for the Nation (IFTN) a reality. We are listening to the non-
Federal stakeholders and concur that this important project can serve 
as a demonstration of the principles and concepts of the NSDI and meet 
a key national need. Imagery is used for countless applications in all 
levels of government and sectors, and has been embraced by the public 
through its use in online tools such as Google Earth and Microsoft 
Virtual Earth.
    Partnerships between levels of government to acquire imagery data 
have been successful and the benefits of a coordinated approach are 
clear: lower costs, reduced duplication of effort, greater 
standardization and more data available for the full spectrum of uses. 
Imagery for the Nation is designed to improve coordination, minimize 
duplication, and maximize taxpayer dollar investments in imagery 
through a reliable, sustained Federal program conducted in partnership 
with State and local government.
    Based on a draft plan for IFTN developed by a team of Federal 
agencies working with our non-Federal partners, costs for fully 
implementing Imagery for the Nation are currently estimated at $100 
million per year. Most of this would be new money, but there are 
opportunities to repurpose some existing money that already goes to 
aerial imagery. One of the goals of the IFTN program is to better 
define and understand Federal imagery expenditures with the intention 
of improving the use of existing funding where appropriate. The funding 
strategy in the draft IFTN plan includes making a determination in 
FY2010 of the difference between the total program costs and the 
existing expenditures in order to define the level of new funding 
required.
    Establishment of an Imagery for the Nation program management 
office is being planned for Fiscal Year 2010, with the goal to 
implement the funding and coordination infrastructure called for in the 
IFTN draft plan by Fiscal Year 2011. Negotiations and discussions with 
the affected agencies are now underway.
 3.  Ms. Siderelis, what role do you see the National Agricultural 
        Imagery Program playing in the Imagery for the Nation 
        initiative?
    Response: The Imagery for the Nation plan proposes to build upon 
and align USDA's National Agriculture Imagery Program (NAIP) and the 
USGS-NGA Urban Area Imagery Partnership, to implement a sustainable and 
flexible national digital imagery program. The high resolution (1 
meter) component of the Imagery for the Nation program would evolve 
from NAIP and be managed by USDA, and the very high resolution 
component (1 foot or better) would be managed by the USGS.
 4.  Ms. Siderelis, could you please describe the role that the 
        National Geospatial Advisory Committee (NGAC) plays with regard 
        to the FGDC? Does the FGDC follow priorities established by the 
        NGAC, and if so, what are those priorities?
    Response: The National Geospatial Advisory Committee is a Federal 
Advisory Committee established by the Interior Department in 2008 to 
provide external advice and recommendations to the member agencies of 
the FGDC. The NGAC includes a balanced membership of 28 committee 
members representing a variety of organizations involved in geospatial 
issues, including the private sector, non-profit organizations, 
academia, and all levels of government. The NGAC Charter defines the 
role of the Committee:
        ``The Committee will provide advice and recommendations related 
        to management of Federal and national geospatial programs, the 
        development of the National Spatial Data Infrastructure, and 
        the implementation of Office of Management and Budget Circular 
        A-16 and Executive Order 12906. The Committee will review and 
        comment upon geospatial policy and management issues and will 
        provide a forum to convey views representative of non-federal 
        stakeholders in the geospatial community.''
    In the short period that the NGAC has been in existence, it has 
proven to be a valuable source of advice and feedback for the FGDC. The 
NGAC meets on a quarterly basis and has established subcommittees that 
conduct research and develop draft products between committee meetings. 
Over the past year, the NGAC has analyzed and provided recommendations 
on Imagery for the Nation, Geospatial Line of Business, National Land 
Parcel Data, Transition Recommendations, the ``Changing Landscape'' of 
Geospatial Technology, Economic Stimulus, and FGDC Governance. The FGDC 
reviews and considers the priorities expressed in the recommendations 
very seriously. In FY2010, the NGAC will work with the FGDC to 
conceptualize an approach for developing a new National Geospatial 
Policy and Strategy. We anticipate that this complex activity will be a 
major focus of the NGAC's work over the coming year. Additional 
information about the NGAC is available at: www.fgdc.gov/ngac.
 5.  Ms. Siderelis, what can be done to more clearly identify the 
        component pieces of the National Spatial Data Infrastructure so 
        that goals can be identified and so that we can effectively 
        measure progress towards its completion?
    Response: The component pieces of the NSDI, as described in OMB 
Circular A-16, include data themes, metadata, the National Spatial Data 
Clearinghouse, standards, and partnerships. Perhaps the greatest 
obstacle in achieving the vision of the National Spatial Data 
Infrastructure, however, is the lack of a clear and unified 
understanding of what a successful NSDI would look with respect to 
these components and the priority activities. As a first step to 
address this challenge, we plan to hold a ``National Geospatial Open 
Forum'', using new media, to garner input and seek out the best ideas 
for the NSDI. We are working with the National Geospatial Advisory 
Committee to plan the Forum and to identify additional opportunities 
and approaches to update and enhance our geospatial policies and 
practices.
 6.  Ms. Siderelis, what are the unique barriers to the inclusion of 
        tribal governments in the National Spatial Data Infrastructure? 
        How are the DOI and FGDC working to address these barriers? How 
        well are tribal voices being represented on the National 
        Geospatial Advisory Committee?
    Response: The FGDC and its partner agencies have an active program 
to support inclusion of tribal governments in the NSDI. For example, in 
partnership with the FGDC, DHS/FEMA has institutionalized the training 
courses ``Emergency Management Framework for Tribal Governments'' and 
``Emergency Management Operations for Tribal Governments'' at FEMA's 
Emergency Management Institute (EMI). The courses are offered several 
times a year at EMI and field offerings are also delivered twice a 
year. The courses include sessions that focus on the importance of the 
NSDI, metadata, and building partnerships.
    In partnership with the FGDC, USGS, NASA, and Tribal Colleges, the 
Tribal College Forum VIII will be held in Bellingham, WA, in August 
2009. Forum sessions will include training on NSDI Awareness, Metadata, 
and the North American Profile.
    FGDC has successfully integrated the ``First Nations NSDI Training 
Session'' to be included in ESRI regional and national user 
conferences. Sessions are either lecture or computer lab style, 
depending on the facility. The number of requests has been significant 
and the NSDI track at ESRI conferences is now a 2-day event held during 
the ESRI conference.
    FGDC has also partnered with the National Congress of American 
Indians (NCAI) in developing and delivering NSDI workshops at NCAI's 
mid-year and annual meetings/conferences. Plans for the future include 
institutionalizing this session in all NCAI mid-year and/or annual 
meetings. FGDC recently delivered the first workshop in partnership 
with the Canadian DNR to share NSDI boundary and metadata issues.
    One of our goals in creating the NGAC was to ensure a balanced 
membership that includes a wide variety of viewpoints, including tribal 
and Native American perspectives. One of the members of the Committee 
is Dr. Timothy Bennett, who serves as the President and CEO of the 
North Dakota Association of Tribal Colleges. Dr. Bennett was appointed 
to the Committee to represent a tribal perspective. We are currently 
going through the next round of appointments to the NGAC, and we will 
continue to seek tribal representation.
 7.  Ms. Siderelis, the National Geospatial Advisory Committee produced 
        a number of recommendations for the new administration, 
        including establishing a geospatial leadership and coordination 
        function within the executive office of the President, 
        establishing Geographic Information Officers within agencies, 
        and more. Has the administration taken a look at these 
        recommendations, and what does it think of them? Does it plan 
        to act on any of those recommendations?
    Response: The Administration appreciates the thoughtful 
recommendations that were prepared by the National Geospatial Advisory 
Committee, which address these governance issues as well as the need 
for statutory review and attention to workforce and education issues. 
The administration concurs with the spirit and intent of the 
recommendations--to utilize geospatial information and technologies to 
their fullest potential--and will be responsive to each of these 
recommendations. Precisely how we act on all of these recommendations 
is still under consideration.
 8.  Ms. Siderelis, earlier this decade the Department of the Interior 
        reported that up to half of all federal geospatial investments 
        may be redundant. However, during the hearing you mentioned 
        that after the recent data calls, you believe that the degree 
        of redundancy might be lower than that previously believed. Do 
        you have a more accurate estimate for how much of the federal 
        geospatial investment is redundant?
    Response: Since the time earlier this decade when it was postulated 
that a significant portion of federal geospatial investments may be 
redundant, significant strides have been made in improving 
understanding and management of Federal geospatial investments.
    The FY 2007 budget passback guidance issued by OMB to all Federal 
agencies directed agencies to update and report inventories of 
geospatial data and systems using a common set of investment 
definitions. Analysis of the responses revealed the following key 
findings:
    <bullet>  For the specific data sets included in the reporting 
request, (``themes providing the core, most commonly used set of base 
data known as framework data, specifically geodetic control, 
orthoimagery, elevation and bathymetry, transportation, hydrography, 
cadastral, and governmental units'') the Federal government financed or 
planned to invest, directly or indirectly, $1.89 billion in spatial 
data and geospatial services during the FY 2007--FY 2009 period.
    <bullet>  The level of geospatial investment each year was 
relatively consistent.
    <bullet>  Fifty two percent (52%) of agencies reported a three year 
average of less than one million ($1M) per year in geospatial data and 
services.
    <bullet>  DHS, DOC, DOI, and USDA investments when combined total 
over 90% of total reported federal geospatial data and services 
investments.
    <bullet>  A high degree of redundant investment was not readily 
apparent.
    <bullet>  A major shortcoming of the responses was that many 
investments failed to specify investment-type, data theme, and service 
components as directed in OMB's request. This fact limited readily 
identifiable opportunities for LoB collaboration.
    It may also be surmised that improvements in Federal geospatial 
investment management are supported by the increasing use of FGDC's 
data search and discovery tools, the geospatial application registry, 
government-wide geospatial SmartBUYs, and increased coordination and 
integration of geospatial programs).
    Federal investments that may be redundant with non-Federal efforts 
in the geospatial community are problematic to measure also. The FGDC 
has not performed a widespread study of redundant investments between 
federal and non-federal efforts but does try to identify and address 
these issues on an initiative-by-initiative basis and through 
leadership on large opportunities such as Imagery for the Nation.
 9.  Ms. Siderelis, can you explain how the geospatial ``dashboard'' 
        will work? How will it differ from Geospatial One Stop?
    Response: The geospatial ``dashboard'' is envisioned to be a high-
level snapshot into the efforts and health of the federal geospatial 
OMB Circular A-16-based activities. The ``dashboard'' will present 
information based on key initiative status and progress and will rely 
on the consistent and sustained reporting of the federal agencies. This 
effort will require both a defined set of metrics, and a mechanism for 
ensuring prompt and accurate reporting from the agencies. The FGDC will 
work with OMB and the new Chief Performance Officer to identify the 
requirements for the geospatial dashboard to begin providing 
transparency into the federal geospatial portfolio.
    Geospatial One Stop (GOS) is a web-based tool for finding and 
publishing geospatial data and map services, and for facilitating 
cooperative data acquisitions. Within GOS is a ``statistics'' page that 
displays certain performance statistics and graphs about the use and 
content of the GOS site.
10.  Ms. Siderelis, for a number of years, numerous studies by the 
        National Research Council, National Academy of Public 
        Administration, and others have recommended some form of 
        consolidation of Federal geographic information activities, 
        such as moving the activities, or at least the coordination, 
        currently performed by FGDC, out of the Department of the 
        Interior. What are your views on such recommendations?
    Response: The advantages of consolidation and/or relocation of 
Federal geographic information responsibilities have been well-
expressed by other entities such as the National Research Council and 
the National Academy of Public Administration. Conversely, 
consolidation/relocations may have disadvantages in that they are often 
very complex and time-consuming. My view is that our focus should be on 
developing a spatial data infrastructure for the Nation that 
effectively underpins decisions about key issues at the national and 
local level. That requires attention not only to structure but to 
clarity of purpose and roles; focus on outcomes and performance; 
adequate technical, humans and financial resources; and viable 
partnerships with the non-Federal community.
Response to Questions from Ranking Member Doug Lamborn from the State 
        of Colorado
1.  Can you attempt to estimate for the Committee how much the Federal 
        government spends on geospatial activities?
    Response: The FY 2007 budget passback guidance issued by OMB to all 
Federal agencies directed agencies to update and report inventories of 
geospatial data and systems using a common set of investment 
definitions. Agency information obtained through this investment 
reporting request was intended to be used to coordinate agency 
investments in geospatial data and services through FY 2009. Analysis 
of agency responses is contained in the ``2007 Data Call Analysis 
Report'', which estimates that, for the specific data sets included in 
the reporting request (``themes providing the core, most commonly used 
set of base data known as framework data, specifically geodetic 
control, orthoimagery, elevation and bathymetry, transportation, 
hydrography, cadastral, and governmental units''), the Federal 
government financed or planned to invest, directly or indirectly, $1.89 
billion in spatial data and geospatial services during the FY 2007--FY 
2009 period.
    This data call primarily captured investments that are recorded in 
agency submissions under OMB Circular A-11, Exhibit 300 (Planning, 
Budgeting, Acquisition, and Management of Capital Assets., We recognize 
that other geospatial expenditures, which may be components of agency 
program funding, were not fully documented by this data call.
2.  Why have the Geospatial Lines of Business data calls been suspended 
        and do you expect them to resume? Will the results of the data 
        calls be released to the public? This is historic data, not 
        pre-decisional data, therefore such information should be 
        provided publicly.
    Response: The Geospatial Line of Business conducted data calls in 
2006 and 2007 as an attempt to establish a baseline of the use of 
geospatial technology and data within Federal agencies. The data calls 
demonstrated that we needed a more directed study and analysis to 
accurately measure use and spending since geospatial information use is 
not considered a primary activity within most agencies. The FGDC 
Geospatial LoB is working to develop more effective means to accurately 
capture this information. These means may recommend use of financial 
coding standards and other methods to distinguish expenditures 
separating hardware, geospatial applications and geodata. While the use 
of future data calls is one mechanism to compile this information, 
there are no FGDC data calls currently scheduled. We are considering 
options for the possible use of data calls or surveys during the FY10 
period.
    The ``2007 Data Call Analysis Report'' is posted on the Geospatial 
Line of Business web page. The direct URL is http://www.fgdc.gov/
geospatial-lob/geospatial-lob-data-call-analysis-071406.pdf.
3.  Does the Federal government have the necessary national geospatial 
        data to monitor, implement, and manage a national healthcare 
        program, such as that contemplated in H.R. 3200, currently 
        before the House Energy and Commerce Committee?
    Response: The health insurance reform proposals included in H.R. 
3200 are far-reaching. As such, there are numerous opportunities to use 
geospatial information and technology to monitor, implement, and manage 
the health care programs described in the bill. One can imagine a 
myriad of health care decisions being underpinned by geospatial data: 
decisions about the geographicc distribution of health care services, 
professionals, and education opportunities; and the locations of 
program beneficiaries and health hotspots. One can also imagine the 
benefits of understanding where program investments are being made and 
the impacts of those investments. There are considerable geospatial 
assets (data, technology and expertise) in the Federal government and 
with non-Federal partners that could be focused on this issue of 
national significance. However those assets currently are not 
coordinated and directed to meet the needs of the health insurance 
reform efforts described in H.R. 3200. Speaking on behalf of the 
Federal Geographic Data Committee members, we stand ready to contribute 
to the success of health insurance reform in any way possible.
4.  At the hearing, witnesses discussed serious concerns about overlap 
        and duplication by the federal government regarding stimulus 
        money spending. Can you outline for the Committee specific 
        steps which your office is taking or has taken to reduce the 
        waste and duplication of stimulus spending on geospatial 
        acquisition? Can you outline for the Committee the steps being 
        taken by OMB to reduce waste and duplication in geospatial 
        purchasing?
    Response: The specific example hearing witnesses described of 
overlap and duplication by the federal government regarding stimulus 
money spending was that of geo-coded address information. Address 
information is being developed to support the 2010 Census but is not 
available to support the Broadband Mapping program called for in the 
American Recovery and Reinvestment Act because of limitations posed by 
Title 13 of the U.S. Code. The possible duplication of effort is due to 
legal constraints rather simply than a lack of coordination.
    Through the auspices of the Federal Geographic Data Committee, my 
office has worked with OMB to reduce the waste and duplication of 
stimulus spending on geospatial acquisition in the following ways:
    <bullet>  FGDC Executive Committee and Coordination Group 
deliberations--Monthly meetings of the FGDC Executive Committee and the 
Coordination Group have consistently included agenda items related to 
the American Recovery and Reinvestment Act. There has been a focused 
effort among the agencies to keep one another informed and to provide 
assistance to one another as needed.
    <bullet>  Broadband Mapping and Broadband Technical Opportunities 
Program--Through the auspices of the FGDC, the Senior Agency Officials 
for Geospatial Information of Interior, Agriculture and Commerce were 
convened immediately following signing of ARRA to discuss ways that 
FGDC member agencies could assist in ensuring that the Broadband 
Mapping program is successful. We have held technical planning 
meetings, met jointly with NTIA and stakeholder organizations, and 
provided various kinds of support and assistance both to the Broadband 
Mapping and Broadband Technical Opportunities programs. Currently we 
are assisting in the review process for the mapping program.
    <bullet>  Recovery.gov--Geospatial technology and expertise from 
across the Federal agencies have been used to support Recovery.gov, ``a 
user-friendly, public-facing website to foster greater accountability 
and transparency in the use of covered funds''. The mission of the ARRA 
includes ``providing information to the public to monitor the progress 
of the stimulus package''. The FGDC, with guidance from the Office of 
Management and Budget, established an ad-hoc ``Georecovery.gov Team'' 
to coordinate Federal agency response to the ARRA requirements and the 
use of supporting geospatial tools. During the site's initial 
development stage, the team provided use cases to the Recovery.gov 
developers, created a forum for Federal agencies to identify and share 
common implementation solutions for geospatial reporting to provide 
consistency and reduce redundant development, and provided geospatial 
technical experts to provide guidance and support to the Recovery.gov 
development efforts. The FGDC Secretariat as detailed a geospatial 
architect to the Recovery Accountability and Transparency Board (RATB) 
that is now overseeing Recovery.gov.
    While overlap and duplication of effort are serious concerns with 
respect to ARRA, an equally valid concern is that Federal agencies will 
fail to take advantage of geospatial information and technology to 
inform decisions about ARRA investments and their impact and outcomes.
5.  Is it true that agencies such as the Corps of Engineers manage 
        aerial photography and mapping programs, as does the USGS, the 
        Department of Agriculture, FEMA and others--and they do not own 
        airplanes and cameras, but rather, they contract with the 
        private sector for aerial imagery and mapping services?
    Response: The Corps of Engineers, USGS, Department of Agriculture, 
and FEMA manage aerial photography and mapping programs. The programs 
all differ in scope of work, requirements, and degree of program 
management. They each contract with the private sector for aerial 
imagery collection.
  a.  Is it not true that under your leadership, there is a memorandum 
        of agreement between the Department of Homeland Security and 
        the Department of the Interior that the USGS will provide 
        imagery to FEMA in particular for hurricanes and other 
        emergencies, to do response, recovery, and damage assessment?
    Response: There is a Memorandum of Understanding (MOU) between the 
Department of the Interior, acting through the U.S. Geological Survey, 
and the Department of Homeland Security to coordinate geospatial 
information and remote sensing activities as related to homeland 
security. The MOU was signed March 31, 2006 by Michael Chertoff, then-
Secretary of DHS, and Gail Norton, then-Secretary of DOI.
    The MOU outlines the shared responsibilities of DOI and DHS in 
``coordinating assured access by first responders to geospatial and 
remote sensing data'', and specifically states that DHS will coordinate 
with DOI for:
        ``classified/unclassified domestic geospatial and remote 
        sensing data to support the needs of homeland security and 
        related emergency response requirements'',

        ``acquiring, maintaining, and disseminating homeland security 
        mission-specific geospatial information of all kinds through 
        ties and partnerships with other Federal, State, local and 
        commercial data providers and users'', and

        ``providing services for data integration, information 
        visualization, and situational awareness supporting homeland 
        security planning and operations'',
    and that DOI will:
        ``serve as a source for domestic collection of unclassified 
        remotely sensed data from any airborne or satellite systems, 
        including commercial sources, in support of homeland security 
        requirements.
  b.  And does the USGS have contracts, with emergency response 
        services in these MOUs, whereby private firms provide aerial 
        imagery and mapping in support of hurricanes and other 
        emergencies?
    Response: The USGS administers a Geospatial Products and Services 
Contract (GPSC) that currently uses six contractors who are all full-
geospatial-service providers. One of those services is the ability to 
provide image acquisition and processing in times of emergencies.
    Following are some examples of recent tasks for emergency-related 
imagery acquisition:
    <bullet>  Verdigris River (KS) Oil Spill Emergency Imagery 
Acquisition, July 5, 2007--digital image acquisition and rectification 
over the Kansas counties of Miami, Montgomery, Neosho, and Wilson, an 
area comprised of approximately 2391 square miles.
    <bullet>  Linn County (IA) Emergency Ortho Acquisition, June 13, 
2008--digital image acquisition and rectification over the Linn County 
Iowa, an area comprised of approximately 264 square miles.
    <bullet>  Hurricane Ike Emergency Pre-position and Ortho 
Acquisition, September 11, 2008--pre-positioning of assets for post-
event Hurricane Ike and digital image acquisition and 
orthorectification.
    <bullet>  Lake Delton (WI) Emergency Ortho Acquisition, June 14, 
2008--digital image acquisition and rectification over the Lake Delton 
Wisconsin, covering two separate areas, one approximately 16.8 square 
miles and the other 4.64 square miles.
    The following is a list of recent tasks for National Special 
Security Events (NSSE) imagery acquisition:
    <bullet>  Yankee Stadium (NY), February 1, 2008--very high 
resolution imagery for approximately 4 1/2 square mile area surrounding 
Yankee Stadium, collected and processed in support of security for the 
Pope's visit to New York.
    <bullet>  Imagery acquisition for both the Democratic National 
Convention and the Republican National Convention.
    <bullet>  Imagery acquisition related to the Presidential 
Inauguration.
  c.  Do you have any reason to believe NOAA needs to be buying planes 
        and cameras, ostensibly for emergency response, when the 
        private firms have this equipment and these capabilities, and 
        other agencies successfully contract with these firms?
    Response: Neither the Department of the Interior nor the FGDC have 
authority over how other agencies meet their missions and conduct their 
procurement activities. I respectfully refer you to NOAA for further 
information regarding their needs.
Response to Questions from Congressman Gregorio Kilili Camacho Sablan, 
        from the Commonwealth of the Northern Mariana Islands
1.  What is the status of geospatial issues in the insular areas? Do we 
        get the same sort of coverage that the rest of the states get?
    Response: The status of geospatial information in the insular areas 
is variable, as it often is with many of the states. Some Federal 
programs create geospatial information that is consistent across the 
states and insular areas. For example, the Census TIGER files include 
coverage of the insular areas. Other Federal programs do not always 
create geospatial data that is uniform and comparable across all of the 
states and insular areas. This is generally due to technical complexity 
associated with any given location and/or the lack of sufficient 
resources. In addition, earlier this year, the DOI Office of Insular 
Affairs provided a $350,000 grant to Guam for an Enterprise License 
Agreement (ELA) for ESRI geospatial software.
2  When we speak about programs like ``The National Map'' or ``Imagery 
        for the Nation'' are you including the Commonwealth of the 
        Northern Mariana Islands in those programs?
    Response: Due to the costs and complexity of mapping projects in 
the insular areas they are not mapped on a regular schedule by the USGS 
and its national mapping program (The National Map).
    The Imagery for the Nation plan includes acquiring imagery for the 
insular areas with a 3 year cycle for both high resolution (1-meter) 
and very high (1-ft) imagery. In addition, I understand that USDA, in 
partnership with other funding agencies, has acquired satellite imagery 
for many of the islands in the Pacific Basin, including the 
Commonwealth of the Northern Mariana Islands.
                                 ______
                                 
    Mr. Costa. Well, we will look for those questions. You 
exceeded the time limit by----
    Ms. Siderelis. Yikes.
    Mr. Costa.--several minutes.
    Ms. Siderelis. Demerits.
    Mr. Costa. We will try not to hold that against you.
    Ms. Siderelis. Thank you.
    Mr. Costa. I was interested in the three points you are 
going to be following up on. I thought it was important that 
you lay those out to the Subcommittee.
    The next witness is, by example we don't want you to 
follow, Mr. Byrne from California. We look forward to your 
five-minute testimony.
    We are glad that you came all the way here. We know 
California is having a lot of challenges, our state, these 
days, and the fact that you are here I think underlines the 
importance of this subject matter.
    Mr. Byrne, would you please begin your testimony? I am 
going to be out for about 10 minutes. I have a group from the 
District that I want to say hello to.
    Mr. Sablan will do an able job of continuing this hearing 
with my Ranking Member and the other Subcommittee Members that 
are here.
    Please begin.

  STATEMENT OF MICHAEL BYRNE, GEOSPATIAL INFORMATION OFFICER, 
                      STATE OF CALIFORNIA

    Mr. Byrne. Mr. Chairman, Ranking Member Lamborn and 
Subcommittee Members, thank you for the opportunity to offer 
testimony on Federal geographic data management activities as 
they affect state government.
    My name is Michael Byrne. I am the Geographic Information 
Officer for the State of California. I also serve on the board 
of directors for the National States Geographic Information 
Council, which helps me speak knowledgeably on behalf of state 
governments. Finally, as Ms. Siderelis mentioned, I am on the 
National Geospatial Advisory Committee. Today I am speaking as 
the GIO for the State of California.
    I have submitted written testimony for the record. My 
written testimony gives detailed recommendations for improving 
geospatial data management. In particular I address the 
California perspective when it comes to geospatial data 
management and coordination, the state's perspectives on the 
same, what the framework of the National Spatial Data 
Infrastructure is and how we know when a successful NSDI 
exists.
    I am convinced that geospatial technology is one of the 
most important technologies of our time. Governor 
Schwarzenegger is convinced enough that he asked one of his 
Cabinet members to develop a statewide strategy for geospatial 
data. GIS is important to the Governor because it allows him to 
visualize inordinately complex situations that ask the question 
why and where.
    The intent of the National Spatial Data Infrastructure is 
to provide the basic framework to manage and illustrate 
business and policy decisions. Much like our transportation 
infrastructure is a catalyst for interstate commerce, the NSDI, 
if properly implemented, will stimulate better policy outcomes 
for the entire nation.
    California would not be the agricultural center that it is 
if it were not for the highway and rail network allowing us to 
export our products and agriculture. Similarly, we require a 
network of data providing for decision transactions. The better 
the data infrastructure, the better the decisions. If we know 
where things are, we make better decisions.
    The NSDI is important because it means that all levels of 
government will make better decisions for all policy sectors. 
To illustrate the point, consider the following examples in 
California. The California Partnership for the San Joaquin 
Valley is using GIS to illustrate water supply demands in the 
region. This effort illustrates the struggle of scarce resource 
before the decision occurs.
    In particular, new maps are showing which areas have 
significant declines in groundwater depth and which ones 
require stream flow for sensitive habitat. This is critical 
information for managing an increasingly scarce and vital 
resource, water.
    Additionally, consider the example from the California 
Broadband Task Force. It developed a map prior to making its 
full set of recommendations. Because of this map, the policy 
discussion could strategically target where broadband isn't 
available and then move to locations in which broadband is 
available, but adoption is low. One result has been an effort 
in digital literacy. Were it not for the mapping, the policy 
decision would have focused perhaps in the wrong place.
    We can answer policymakers' questions better if we have the 
spatial information infrastructure in place which delivers the 
data to decision makers before the policy discussion. We answer 
them poorly if we do not have that infrastructure.
    My position was created in an effort to better coordinate 
California's state spatial data. My position is housed in the 
Office of the State Chief Information Officer, a Cabinet agency 
in California, for several reasons. First, GIS technology is a 
technology component. That means it has to be aligned with 
information technology.
    Second, the CIO serves all state government. If my position 
were located in, say, the Natural Resources agency, I would be 
inclined to focus on natural resources mapping issues and not 
health or education. Because my position is in the CIO's 
office, I can serve the mapping needs of all state agencies.
    Third, the Governor recognizes that for GIS to be 
successful there needs to be a champion at a high enough level 
in government to allow cross-agency collaboration. We still 
have a long way to go in California.
    In order for the NSDI to be successful, I think several 
things need to happen. First, geospatial data needs to be 
coordinated with state, regional and local governments. This is 
critical to our success in California.
    Second, governance of the NSDI at the national level needs 
to be elevated above the Department of the Interior. Geospatial 
needs to be able to serve all government. When governance is 
housed in one department, it tends to by nature focus on the 
business needs of that department.
    Third, geospatial governance and the NSDI stewardship need 
to have a mandate and line item funding. We must have a program 
that is mandated to provide effective leadership and is 
authorized to perform essential management tasks.
    Thank you for the opportunity to speak here today.
    [The prepared statement of Mr. Byrne follows:]

      Statement of Michael Byrne, Geographic Information Officer, 
                          State of California

    Geographic Information Systems (GIS) technologies are critical 
tools for improving the quality, accuracy, efficiency and 
responsiveness of government services. Using the concept of an 
``electronic'' or digital map, GIS records, stores and analyzes 
multiple layers of spatial data and relates this data to locations of 
interest (e.g. communities, neighborhoods and people that live there. 
These layers can be viewed and analyzed in various combinations to 
identify underlying relationships not otherwise seen. Management of GIS 
data is critical to successfully using the technology. For the purposes 
of this paper, GIS data, digital maps, and geographic information are 
used interchangeably.
    This written testimony discusses the 1) California perspective when 
it comes to geospatial data management and coordination; 2) what other 
states are doing; 3) what the framework of the National Spatial Data 
Infrastructure is and 4) how we know when we are successful with the 
NSDI.
California Perspective
    This section presents the California perspective on the National 
Spatial Data Infrastructure, where California's success and challenges 
are, its current condition, and finish by describing our future 
direction.
The California Perspective on NSDI
    From California's perspective, The National Spatial Data 
Infrastructure (NSDI) is the Data, People, Information Technology 
Infrastructure and Policies and Standards governing geospatial data in 
the nation. In order for it to be successful, it must meet local and 
state government needs; in essence a NATIONAL approach. By focusing on 
the needs of local government first, the NSDI will ensure that the 
taxpayer will only be required to pay for the production of geospatial 
data one time as opposed to duplication of data collection at every 
level. If properly instituted, the NSDI will also ensure that all 
levels of government will have the best possible data (highest 
resolution) to meet their business requirements. Finally, with this 
approach, the NSDI will result in data that has a far greater value to 
both the business of government and the private sector. High resolution 
data will enable literally thousands of commercial applications that 
will also provide benefit to the taxpayer and stimulate economic 
growth. For this approach to be successful, significant local, state 
and Federal coordination are essential. This approach must be 
collaborative in nature.
California's Successes and Challenges
    California's experience with the NSDI offers an excellent 
foundation in the following areas:
    <bullet>  Standards for describing information (e.g. metadata) and 
defining some data elements.
    <bullet>  Partnership grants for state participation (although this 
is underfunded, many success stories have come out of this effort and 
California has used them to our advantage).
    <bullet>  Direct liaisons and partnerships within California for 
leveraged local and regional data investments.
    California has failed to meet NSDI goals in the following areas:
    <bullet>  An uncoordinated approach to imagery collection across 
all of the Federal government.
    <bullet>  The lack of government produced data in the public domain 
which meets state and local needs for several framework layers.
    <bullet>  An unclear central point for geospatial data assemblage 
at the Federal level. Is it the Geospatial One Stop the National Map or 
something else? Is our NSDI metadata node (CalAtlas - http://
www.atlas.ca.gov/) being harvested by the right portal? Furthermore, we 
are unsure where the new data.gov fits into the Federal model.
California's Current Condition
    California itself has experienced both success and failures when 
developing our own State Spatial Data infrastructure. Governor Arnold 
Schwarzenegger is a proponent and supporter of mapping technology. In 
2008 he said this:
        ``During last year's firestorm [GIS] allowed firefighters to 
        see through the smoke, giving them a more accurate real-time 
        view of the conditions on the ground. And because of that, many 
        of them told me that saved lives and it saved an endless amount 
        of homes. And this is just the start.'' Gov. Arnold 
        Schwarzenegger, May 2008.
    His statement set a new tone for coordination of geographic 
information in California; it demonstrated that California had a leader 
at its highest level who recognized the value of mapped data. The State 
of California, its regional, local and education entities have long 
demonstrated mapping science innovation and capacity. California is a 
large state with a highly complex political, demographic and natural 
landscape. Mapping technology brings much of this complexity into view 
for our policy decision makers. Below is a brief assessment of GIS use 
and capacity in California.
    <bullet>  GIS technology and data is being employed in nearly 40 
state departments and agencies.
    <bullet>  California has a central repository of GIS data and 
services called CalAtlas which enables the discovery of thousands of 
data layers resulting from thousands of government projects.
    <bullet>  There are more than 11,000 GIS databases or projects 
currently in state government.
    <bullet>  Our recently adopted California Information Technology 
Strategic Plan (See http://www.itsp.ca.gov/) identifies geospatial 
technologies as one of the six top technologies to further develop in 
the state.
    <bullet>  California has GIS Council (See http://gis.ca.gov/
council/) with representation from state, Federal, and regional 
partners which advises GIS collaboration and coordination.
    <bullet>  The GIO is housed in the Office of the State Chief 
Information Officer, a Cabinet level agency in state government. The 
CIO directs information technology resources and has authority over IT 
policy. Importantly, the GIO is housed here rather than a specific 
business unit like Natural Resources, to ensure alignment of geospatial 
issues and program-neutral coordination amongst ALL government 
interests.
    <bullet>  California has successfully implemented seven of the nine 
National States Geographic Information Council (NSGIC) success factors 
(See http://www.nsgic.org/hottopics/fifty_states.cfm).
    <bullet>  Of the seven framework (See http://www.fgdc.gov/
framework) data layers defined by the Federal Geographic Data Committee 
(FGDC), we have efforts towards statewide coordination for the 
following.
      <all>  Geodedic Control
      <all>  Elevation
      <all>  Hydrography
      <all>  Parcels (new)
    <bullet>  Many local and regional efforts within the state are 
further advanced than state government in terms of mapping technology 
development and use; most notably Los Angeles County and the San Diego 
region.
    California now has a recognized central data store, called 
CalAtlas, which is free to all users. This GIS hub is a library of data 
that began to deliver substantial benefits when the old ``cost 
recovery'' data model was removed and the data portal opened such that 
users could describe, publish and discover data for download at no 
cost. While the CalAtlas is not used by all state, regional and local 
entities, it provides a single location for the discovery of 
information. CalAtlas is a success because the state has a budget 
``line-item'' dedicated for it. This budget status, while underfunded 
given the size of the state is working. Moreover, our approach is 
collaborative rather than a command and control approach. This 
collaborative approach has contributed to the advanced GIS use by many 
entities.
    Most recently staff at the California Natural Resources Agency, 
which houses CalAtlas, has developed a common operating picture (COP) 
for the state. The COP was used by the California Department of Fire 
Protection, the California Emergency Management Agency and the 
Department of Public Health during statewide emergency exercise last 
fall and the fires that erupted shortly thereafter. Having a common 
picture allows all emergency operations centers across the state to 
view the same relevant local authoritative data during an emergency. We 
have also used the COP during the recent H1N1 flu outbreak and expect 
to use it again as related pandemic flu activities ramp up in the fall.
    Our collaborative approach to GIS has been very successful. 
California has developed as many as 16 regional GIS collaboratives that 
are self forming and self chartering. Some have become full-fledged 
non-profit organizations (501(c)3) while others are more loosely 
organized. In addition we have a non-profit professional association, 
the California Geographic Information Association (CGIA), which has 
provided a means to apply for grants, receive and spend money on behalf 
of state GIS initiatives before the GIO position was formally 
established. Finally, our California GIS Council has been in place for 
nearly 10 years, now on its second charter. The Council has provided a 
forum for Federal, state and regional goals to be developed and 
implemented. The Council, with support from the CGIA and state and 
Federal funding has published the following documents (1) the 
California Framework Data Plan, (2) the California GIS Strategic Plan 
and (3) an Imagery Business Plan (See http://www.cgia.org for all three 
papers).
California's Future Direction
    California now has a formally recognized GIO and leadership support 
from the CIO, but there remains much more work to do. The following 
represents a minimum set of goals:
    <bullet>  Direct Agencies to establish GIS leads (e.g. Agency GIOs) 
responsible for data coordination and collaborate with the state GIO to 
align GIS investments with local and regional government.
    <bullet>  Establish appropriate state agency leads to collect and 
steward data layers for which they have logical responsibility and 
business interests; and coordinate the flow of appropriate related data 
to and from local and Federal levels.
    <bullet>  Establish a competitive GIS matching grant program to 
support the broader and collaborative use of GIS to solve significant 
public policy issues in communities and regions throughout California.
    We are moving forward. The state CIO has identified an objective in 
the state IT Strategic Plan to manage statewide data as an asset, much 
like we manage buildings, roads and common infrastructure as an asset. 
As such, California is in the process of releasing a new strategy to 
assemble and manage these data. Central to the data strategy is 
managing geospatial data, in particular address data, at a central 
place with state government access. This approach, based on the concept 
of data as a service, will allow California to manage data more 
efficiently and reduce costs. The plan recognizes that the foundation 
of nearly ALL data has a geographic component. We need to collect and 
manage data such that we can apply the power of GIS to analyze these 
data assets geographically. Management of this common store will be 
driven by state government business needs rather than some technology 
specific drivers.
    To sum up, California strongly endorses the concept of the NSDI 
(one that meets local and states needs in a coordinated way), and is on 
its way to ensuring a robust State Spatial Data Infrastructure, but 
still has more work to do with respect to coordination and funding.
States Perspective
    This section presents the collective states perspective on the 
National Spatial Data Infrastructure, in particular some direction from 
the National States Geographic Information Council and the Western 
Governors' Association regarding the requirements for a robust NSDI.
States Perspective on NSDI
    There is a high degree of variability from state to state. As an 
example, compare California to the District of Columbia. California is 
the third largest state (164,000 square miles) and D.C. is a major 
metropolitan municipality (61 square miles). California has 
approximately 37 million people and D.C roughly 600,000. One thing that 
these two places share is a common vision for the NSDI. Both California 
and D.C. recognize that business needs drive the need for efficient 
mapping technologies and, in particular that, a national approach to 
data collection should be driven by local and state business needs. One 
thing that makes this complicated, is that the states and local 
government are all in varying stages of development and have adopted 
different approaches. This makes the job of coordinating the NSDI 
incredibly complex and its gets more complex each year that passes 
without effective Federal leadership. There are few incentives for 
local and state agencies to ``retool'' their efforts when they are 
heavily invested in their current operations.
    In order to further develop a common goal, the states formed the 
National States Geographic Information Council (NSGIC) in 1991. NSGIC 
is an organization committed to efficient and effective government 
through the prudent adoption of geospatial information technologies. As 
such, NSGIC gathers state GIS coordinators to provide a common voice 
for GIS infrastructure and future recommendations. NSGIC has developed 
criteria for successful GIS coordination within states (called the 
Fifty States Initiative) and keeps a survey of GIS activities for 
states in order to measure progress. Finally NSGIC develops an advocacy 
agenda each year to focus the community on the most important GIS 
activities. Currently the NSGIC advocacy agenda, which is adopted by a 
vote from each state, lists the following as core issues for 2008:
    <bullet>  Imagery for the Nation (IFTN)--IFTN (See http://
www.fgdc.gov/iftn) would create two effectively coordinated imagery 
collection programs for the nation and would establish basic standards 
for imagery collection and distribution. These programs will, annually 
capture 1 meter data leaf-on, and less frequent hi-resolution leaf-off 
data with buy-up options for states and locals who need additional 
features. This program would eliminate duplication of effort and reduce 
national costs. The National Geospatial Advisory Committee has endorsed 
ITFN. Imagery provides the picture from which most other data are 
derived, making it the single most critical data layer.
    <bullet>  Nationwide Parcel Mapping--This initiative would create a 
seamless parcel dataset for the nation. Parcels are a framework data 
theme under the FGDC yet there is no national data layer available for 
government use. The National Research Council recently published a 
paper outlining what should be done, and those recommendations have 
been endorsed by the National Geospatial Advisory Committee. If created 
a national parcel database could be effectively used to monitor the 
health of the mortgage industry in the future, among other uses.
    <bullet>  Transportation for the Nation--This initiative calls for 
the Federal government creating a seamless nationwide addressable roads 
dataset that is built in a collaborative and shared environment. While 
the U.S. Department of Transportation has authority to do this under 
OMB Circular A-16, a regular annual program does not exist.
    <bullet>  NSDI Cooperative Agreement Grants--The FGDC manages this 
competitive grant program in order to increase capacity for geospatial 
management in each state. The program budget for FY 2009 was $1.3 
million with individual grants at about $50,000. The budget for this 
program, in order to be successful, needs to be significantly 
increased.
    <bullet>  Technology for the 21st Century--GIS is an advanced 
technology and as such needs to have ancillary technologies in place in 
order to be successful. NSGIC has identified increases in broadband 
availability and the reauthorization of the E-Gov act as critical to 
the success of the NSDI.
NSGIC's Recommendations
    Since the adoption of this advocacy agenda in September 2008, NSGIC 
has developed specific recommendations along two lines. First, it is 
clear that the lack of a comprehensive imagery program inhibits further 
geospatial development. Second, with the release of the American 
Reinvestment and Recovery Act (ARRA) and in particular the National 
Telecommunications Information Administration (NTIA) notice of fund 
availability for broadband mapping releasing the highly accurate 
address point database from the U.S. Census Bureau is critical. Below 
are suggested actions for each of these issues.
    Imagery for the Nation
    <bullet>  Congress should fund Imagery for the Nation through the 
President's Budget at the full amount needed for national coverage. 
``Line items'' are required in the USDA/FSA and DIO/USGS budges, and 
statutory language is required to protect funds from being diverted to 
short-term agency needs, unwarranted management fees or new priorities. 
An annual appropriation of $95.6 million is required; current 
expenditures likely exceed $30 million, but increased funding on an 
annual basis is critical.
    <bullet>  Ensure the business requirements of all levels of 
government can be met through buy-up options that allow government 
agencies to procure what THEY need (e.g. high resolutions, increased 
accuracies).
    <bullet>  Provide active leadership for the FGDC to implement IFTN 
and use it as a model to build the NSDI in concert with state and local 
governments.
    Address Points from the Census Bureau
    <bullet>  Congress should remove addresses and address point 
locations from the Title 13 restrictions and instruct the U.S. Census 
Bureau and other Federal agencies (e.g. the U.S. Postal Service and the 
Department of Health and Human Services) to work together to develop a 
common file and make the data available throughout government levels.
    <bullet>  Give the U.S. Census Bureau funds and granting authority 
to work with state and local governments to create and maintain a 
national address file.
    <bullet>  Address and coordinate data should be updated by local 
address authorities as building permits are issued, thereby capturing 
new construction developments. Data should be developed locally, with 
local and state custodians acting as regional integrators that merge 
local data into region-wide databases.
Western Governors' Association Recommendations
    Finally, the Western Governors' Association (WGA) recently released 
a Geospatial Policy Statement (See http://www.westgov.org/wga/policy/
09/GIS.pdf). The WGA first identified the key business issues facing 
the western states: economic downturn, renewable energy zones/energy 
reform, wildland fire protection, and water delivery. The WGA statement 
goes on to say that in order to affect these issues from a public 
policy perspective, the western governors require ``timely, accurate 
and multilayerd geographic data.'' The WGA statement calls for the 
following to occur:
    <bullet>  Implement effective policies in geographic technology 
that will help inform effective policies in economic, energy, fire and 
water agendas.
    <bullet>  Encourage regional, state and interstate data sharing, in 
particular for the Bureau of Land Management to lead and complete the 
national parcel dataset.
    <bullet>  Support IFTN and urge Congress to fully fund it.
    <bullet>  Support Federal, state, tribal and local coordination 
through Coordinating Councils.
    <bullet>  Support the National Geospatial Advisory Committee and 
the Geospatial Line of Business which is analyzing geospatial 
investment across the Department of Interior.
    <bullet>  Western Governors believe in an intergovernmental 
approach to the development and governance of geospatial activities is 
necessary to a successful NSDI.
    State and local government inclusion in managing the NSDI is 
imperative. A working solution must include the lowest common 
denominator of data collection (e.g. city/local) and, at a minimum, 
must include regular collection and maintenance of imagery, parcels, 
elevation, hydrography, transportation, geodedic control, political 
boundaries and address point data. At a maximum, the data must be 
developed, coordinated and published such that interstate collaboration 
exists to evaluate and analyze landscape public policy issues.
National Spatial Data Infrastructure Framework
    This section describes the promise of a robust NSDI and provides 
specific steps Congress can take to make the NSDI real.
    Production of geospatial data and technologies has shifted from the 
Federal government to state and local government and the private 
sector. However, the United States is still using a Federal-centric 
governance model for the National Spatial Data Infrastructure (NSDI). 
We cannot build the NSDI without eliminating the ``silos'' and 
duplication of effort in Federal government, and implementing an 
inclusive governance model. This requires strong leadership that is 
independent of the specific agencies and has the authority to regulate 
geospatial budgets.
    The FGDC and its participating agencies understand the role of 
state and local governments and the private sector in building the 
NSDI, but since there is no clear definition of the NSDI or effective 
business plans to build it, focus has remained solely on Federal 
business needs instead of national objectives that include local and 
state government benefits. In large part, this has been driven by the 
lack of a national policy, effective strategic and business plans, and 
the unwillingness to approach Congress for adequate appropriations to 
do the job.
    Only those agencies with missions clearly tied to geospatial data 
are successful in securing budget appropriations are subsequently 
protective of their own targeted efforts. The FGDC has no authority or 
power to interfere with the budget processes in these agencies. For 
example, perhaps the largest public policy debate facing the 111th 
Congress will be healthcare reform. Healthcare represents the largest 
growth sector in the U.S. economy currently representing about 15.2 
percent of the Gross Domestic Product (GDP) projected to reach 19.5 
percent of GDP by 2017, making it the single largest industry in the 
nation. Geospatial technology advancements can substantially improve 
the policy debate around health care by; 1) better understanding fraud 
and waste, 2) identifying high risk areas and providing focused 
outreach and prevention in those areas, 3) more accurately mapping 
quality and cost to provide better health outcomes and accessibility 
and 4) providing transparent information in a global pandemic (like 
H1N1) for better response and control of disease.
    The NSDI is very complex and efforts to effectively describe it or 
its significance to decision makers often fail. It must also be 
understood by policy makers that the vision of the NSDI can't be 
achieved until local government data (i.e. parcel maps at local scales) 
are fully integrated to meet Federal business needs.
    The FGDC does not currently allow state and local governments or 
the private sector a significant voice. This lack of input is contrary 
to the new vision of a more open and transparent government.
    No one is willing to acknowledge the true cost of building an 
effective NSDI and its ultimate cost and value are difficult to 
quantify. NSGIC believes that the price tag is over $8 billion with an 
annualized maintenance cost of approximately $2.5 billion. For context, 
the global geospatial market is estimated at $30 billion dollar a year 
and growing. The largest part of this expenditure is born by state and 
local governments, largely because no effective incentives from the 
Federal government cause them to conform to national standards or spend 
additional money to share data. A large portion of the initial $8 
billion has already been expended.
    No Congressional committee has oversight for national geospatial 
activities or the NSDI. You can make significant improvements through 
the following actions:
    1.  Immediately create a Federal Geographic Information Officer 
(GIO) position in OMB with funding and the staff required to 
investigate and understand Federal agency expenditures. Give this 
individual the authority to require that agencies work together to 
define, develop and manage an effective NSDI.
    2.  Fund and task the GIO to develop a credible research report 
within 18 months that details the value of geospatial technologies and 
a shared NSDI to the nation, including all levels of government, the 
private sector, and the public.
    3.  Establish an oversight committee that deals with geospatial 
activities to ensure a point of contact in Congress with a clear 
understanding of the issues that can take appropriate action. Focusing 
on the needed improvements to E.O. 12906 and OMB Circular A-16 would be 
a positive start.
    4.  Build a governance structure for the NSDI that includes equal 
representation by the private sector (service providers and consumers); 
Federal, state, regional, tribal and local government; academia; 
utilities; and the general public. The FGDC should focus on Federal 
agency coordination working with the GIO.
What does success look like?
    A successful NSDI is reached when decision makers are regularly 
using digital mapped data in policy discussions every day. This section 
will outline what a successful NSDI implementation would look like. In 
particular it addresses two main ideas; 1) the leadership required 
given the drastic advances in technology and 2) the vision described by 
the NGAC.
Leadership
    Recently the NGAC published ``The Changing Geospatial Landscape'' 
(See http://www.fgdc.gov/ngac). This paper outlines specifically the 
changes and advancements the GIS community has witnessed over the pass 
thirty plus years. The paper captures the major milestones and 
identifies several of the major issues that lie ahead. These milestones 
were reached in large part due to innovation in the Federal government 
(e.g. the U.S. Census Bureau, the Global Positional System and the 
advancement of the World Wide Web). However, in conclusion the paper 
says:
        ``If we as a country are sincere about resolving universal 
        concerns such as global warming, sea level rise, and affordable 
        health care, the Federal government needs to adopt innovative 
        policies supporting a dynamic and robust spatial data 
        infrastructure, an initiative that was promised more than 15 
        years ago.''
    Since President Clinton signed Executive Order 12906 in 1994 and 
OMB Circular A-16 was reauthorized much of the technology that GIS and 
geospatial activities is built on has changed dramatically. The 
``Changing Geospatial Landscape'' paper identifies how a new 
collaborative approach to leadership is required to fully develop the 
NSDI. Further, it articulates how government data is being used for 
commercial applications particularly in social media and web 2.0 tools. 
One does not have to look far to see how the Obama Administration has 
opened to Web 2.0 tools for a more efficient and effective government. 
The NGAC have illustrated how GIS tools are fundamentally collaborative 
tools for advanced policy decisions.
    To illustrate just how much has changed, nearly every Department, 
Division, and line unit in Federal, state and local government employ a 
Web master or and individual whose job duties include Web publication. 
Indeed this hearing is now being webcast. These advances are intended 
to make government more transparent to the public. Yet, the World Wide 
Web was not even an implemented technology 20 years ago. At the same 
time, in today's government, we do not have GIO's in each line unit 
similar to Web masters. GIOs would make significant advances in 
decision making through coordinating mapped data.
Vision
    The NGAC's ``Strategic Vision'' document clearly outlines what 
success looks like for the full implementation of the NSDI. The desired 
outcome is ``The Nation and its citizens value and are empowered by 
geospatial resources.'' A lengthy list of vivid descriptions for this 
future state is listed in this document. To get there, the Federal 
government needs to 1) lead with the collaboration of state and local 
partners, 2) publish ALL government owned data (that is publishable) as 
geographic data, 3) train the next generation workforce, and 4) set a 
clearly defined plan for the data and computing infrastructure required 
to manage this data.
    When the NGAC vision is reached, all citizens will be relying on 
spatial data. Indeed all decision makers will be consulting map based 
data for decisions. In short, we know there is a successful NSDI when 
executive, commission and legislative bodies are using geospatial data 
in real time for collaborative decision making and policy 
recommendations.
                                 ______
                                 

      Response to questions submitted for the record by Mr. Byrne

Questions from Chairman Jim Costa from the State of California
1.  Mr. Byrne, how useful are the National Map and Geospatial One-Stop 
        to non-Federal stakeholders?
    From my perspective, the National Map and the Geospatial One-Stop 
are not very useful products and have ``missed the mark.'' I will deal 
with them separately, since they are very different in scope and 
purpose. The National Map attempts to bring together a limited number 
of data products to create a modern version of the USGS topographic map 
series. Those maps are produced at relatively small scales compared to 
the scales used by state and local governments. Therefore the products 
of the system have limited uses. It was originally envisioned as a 
system that would bring together state and local partner data into 
seamless national coverages, but that has proven to be more difficult 
than expected. The private sector (e.g. Google and Microsoft) have been 
much more successful in assembling disparate data. Every level of 
government tends to do the same thing and some are more successful than 
others. While The National Map may be useful to some Federal agencies, 
and even states and local governments in particular situations, its 
generally utility to state and local government is highly questionable.
    Some (not all) of the data inside The National Map are very useful. 
The Federal Government should concentrate more on data production, 
distribution and proper archiving. It is unlikely that Federal agencies 
will ever compete effectively with the private sector in providing 
access to map services for public consumption. Federal agencies should 
work in closer partnership with state and local governments through 
initiatives like Imagery for the Nation that are designed to 
simultaneously meet the business needs of all levels of government.
    The Geospatial One Stop is similar in concept to a library card 
catalog. It provides information about available maps and geospatial 
data, online map services, and even paper map products. In addition, it 
strives to service many other needs by offering features such as 
communities of interest and a market place to link potential partners. 
The concept is good, but the execution is difficult. The Federal 
metadata standard on which it is built 1) allows a great deal of 
``flexibility'' in documenting data, and 2) can be difficult for many 
users to understand. Often a user can't find information in the system, 
because the steward of the metadata records didn't understand how to 
document their information properly, or they use ``odd'' terms that 
don't result in any ``hits'' when searches are conducted. As with all 
Internet search engines, the information you seek can be right at your 
finger tips, but miles away. It's a very frustrating situation. The 
concept is good, but we probably need some changes in approach. 
Modifying the metadata standard and approaching the inventory as a 
database instead of a ``search engine'' would be a good start.
2.  Mr. Byrne, do you think the States speak with one voice when it 
        comes to geospatial issues? What problems are there aligning 
        the differing interests of non-Federal stakeholders?
    I think the states generally do speak with one voice. The state 
GIOs network and speak to each other on an almost daily basis, seeking 
advice on the full range of issues that confront them. The common voice 
for state issues comes from the National States Geographic Information 
Council (NSGIC). While there is a great deal of variability in states 
(e.g. Rhode Island is not like Alaska), geospatial data issues are 
generally similar and these issues are well addressed through NSGIC. It 
is still a fact that the states are at differing stages of development, 
and have different business drivers that cause them to react 
differently to more immediate opportunities. This is sometimes judged 
as significantly divergent view points. The most significant problems 
arise in aligning all non-federal stakeholders. The ``go to'' 
organization is unclear to these stakeholders. NSGIC is attempting to 
bring stakeholders together (with assistance from FGDC and its CAP 
grants process) in statewide coordination councils, but there is 
significant variability across the nation in this effort. FGDC might be 
the ``go to'' organization, but its effectiveness in building the 
National Spatial Data Infrastructure is questionable and it does not 
operate in a manner that accommodates widespread participation by non-
federal stakeholders. In part, this is due to the concerns about 
Federal advisory committees. There are several Federal agencies outside 
of the FGDC structure (and indeed outside of The National Map and 
Geospatial One-stop), that build clearinghouses for geospatial data 
(for instance the Health Resources Services Administration has a 
geospatial clearinghouse). From a non-federal stakeholder point it is 
confusing with whom a stakeholder should engage. I am optimistic that 
the new Data.Gov portal will provide more useful tools in the future, 
but clear policy needs to be set and enforced with regard to these 
activities.
    One of the greatest problems the states face in working with the 
Federal government is the rapidly changing programs and standards or 
projects that come and go. It takes a great deal of coordination effort 
to pull the entire community together to work on a program with Federal 
agencies and it is very discouraging when the Federal agencies change 
direction, because it causes statewide coordinators to lose credibility 
with the community.
3.  Mr. Byrne, what can be done to more clearly identify the component 
        pieces of the National Spatial Data Infrastructure so that 
        goals can be identified and so that we can effectively measure 
        progress towards its completion?
    I can think of several specific points;
    Identify a Geographic Information Officer who has the authority and 
responsibility to develop and implement strategic and business plans 
for the NSDI. This Office should be able to collaborate across 
agencies, and be above a single department (e.g. at the Office of 
Management and Budget).
    Clearly articulate in all new legislation a line item for 
geospatial data and infrastructure to adequately fund development of 
the framework and other data that are required to implement the 
legislation. Have the GIO oversee the development of these data by the 
agencies and publish them in the public domain.
    Use the eGovernment reauthorization act to identify exactly how the 
GIO would interact with eGovernment activities allowing geospatial 
technologies to become part of the enterprise approach.
    Institutionalize Congressional oversight of the GIO so there is 
accountability outside of the administration.
    Fund a competent economic analysis of the current and future value 
of geospatial technologies to the national economy in terms of their 
contributions to the GNP. The purpose of this study would be to provide 
additional focus on priority setting efforts.
    Some form of score card or maturity assessment should be required 
for each Federal agency with a 360 degree evaluation process available 
to their stakeholders. Something similar should also be used to 
evaluate the contributions of the states. NSGIC has used a score card 
for the states in the past without a 360 degree review. It is currently 
working on a maturity assessment for future efforts.
4.  Mr. Byrne, are there any incentives for state and local governments 
        to share their data with each other, and with the federal 
        government, and are there any particular incentives that you 
        would suggest to improve the situation?
    The incentive for data sharing is that data becomes more valuable 
with more use. No event ever stops at a jurisdictional boundary. 
Earthquakes, floods, fires, tornados, disease, education, homeland 
security and more all have in common their geography that spans 
multiple cities, counties, regions and states. It is in the best 
interest of California to understand the full set of geographic data in 
Oregon, Nevada, Arizona and Mexico. As a data owner and steward there 
is intrinsic value and incentives to make my data available for any 
consumer. My data becomes more valuable as more people use it. The 
incentive is clearly there. For government to government (at any level) 
there is intrinsic value. However, there are many local, county, 
regional and state mandates requiring cost recovery for data.
    This is the result of as many as 35 years of investment being made 
by local and state government in digital geospatial technologies with 
little return on their investment from past partnership opportunities. 
Effective data sharing will only be fully realized when data are 
created once to meet the needs of all levels of government and the 
private sector. This requires a serious commitment by state and Federal 
agencies to support the production of data by local government agencies 
that can be aggregated for use by state and Federal agencies as 
necessary. Currently, our partnership opportunities are opportunistic 
and not part of a cohesive national plan. We must fundamentally change 
the way we work together to build the NSDI. Adequate funding is 
essential to ensure stable partnerships and mandates will be required 
to do the job right. Again, well thought out programs like Imagery for 
the Nation need to be implemented and funded for long-term successes.
5.  Mr. Byrne, could you provide some examples as to why having 
        detailed address data, such as from the census, available more 
        broadly would be in the public interest?
    Nearly every single business process in government and private 
applications deals with the address as a common data element. MediCare 
sends benefits to beneficiaries. Labor departments track employment by 
address. The IRS collects taxes by address in addition to social 
security numbers. In all cases there is an underground economy taking 
place. Using the address point data, business intelligence analytics 
could be performed to assist in the audit and investigation of these 
systems. Identifying addresses by location which are outside of the 
range of known variability for a given area/time (either high or low) 
will help auditors identify investigation requirements and save tax 
payer money. This type of analysis cannot be performed when address 
(e.g. the X and Y location on a map) information is missing. The 
government value alone for audits using the address location from 
Census is likely in the hundreds of millions of dollars annually.
    In the private sector, address information is critical for 
innovative web and smart phone applications. Nearly all of these 
applications rely on address information. Mapping addresses, even in 
applications like Yahoo Maps and Google Maps, currently uses a linear 
reference system where the location of the street address is estimated 
based on the length of the street and number of addresses in the range. 
In rural areas these estimates can be miles away from their actual 
location. Even in urban areas, these estimates can be significantly 
off. Take for instance the location of the Sacramento County Emergency 
Operations Center at 3720 Dudley Blvd McClellan, CA 95652. A Google Map 
and Yahoo Map location of this facility is over 1.5 miles from its 
actual location. Providing the actual address points collected by the 
Census Bureau at the front door of all households is an invaluable 
benefit to business and society. Inaccurate address locations cost 
time, money and most importantly--lives.
    The most serious issue surrounding address points is the 
duplication of effort to collect this data. The Federal government 
likely invested hundreds of millions of dollars to create these data. 
State and local governments will invest similar amounts in coming years 
to obtain the same data. Most of these efforts will result in the data 
being placed in the public domain. This is a perfect example of 
government waste that must be avoided. The values associated with the 
Census Bureau data are 1) completeness, 2) quality/consistency, 3) 
currency, and 4) they come from an authoritative source.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  Would you recommend that the Federal government implement a 
        government-wide Geospatial Information Office, like your 
        position in the State of California?
    Yes, most definitely. I believe the full vision of the NSDI has not 
been attained because there has not been a single office accountable 
for this effort. Simply appointing a GIO will not solve the problem. 
The GIO needs a clear mandate, authority and responsibility for Federal 
agency oversight. They will also need a strong political champion. Many 
states have established GIO positions through legislation or Executive 
Order. Clearly, a legislative solution is preferred and the GIO must be 
properly resourced to conduct the required work.
2.  What carrots or sticks to do have at your disposal to assure 
        coordination and to avoid duplication?
    In California we value GIS as part of our Information Technology 
enterprise. As such, I have two sticks at my disposal. First, the 
Office of the State Chief Information Officer, where my position is 
housed, has the statutory authority to write state IT policy. We have 
the ability to include, in the State Administrative Manual policies, 
standards and procedures that all IT functions in the state must follow 
as a matter of state policy. Since GIS is an IT solution, our policies 
can guide the further development of the enterprise. Second, all IT 
projects require, as a matter of state practice, a Feasibility Study 
Report. This report must describe the technology solution, the business 
case for the technology solution and management plan for the technology 
solution. The OCIO is one of the approving entities of these reports, 
and provides the regulatory oversight for these projects.
    At this time there are no defined carrots. However, incentives are 
usually defined through collaborative opportunities for multiple 
departments to leverage investment in IT and GIS projects by joining 
forces for combined effects and increased economies of scale.
    The ``ultimate'' carrot will be when we actually ``turn the 
corner'' on business as usual and we are able to show that all agencies 
save money by working effectively together. There are many issues 
related to trust and agency missions that must be put behind us. When 
they are, the carrots will be much more obvious to the point of not 
being required. That's the end state that I seek.
Questions from Congressman Gregorio Kilili Camacho Sablan from the 
        Commonwealth of the Northern Mariana Islands.
1.  What is the status of geospatial issues in the insular areas? Do we 
        get the same sort of coverage that the rest of the states get?
    I must speak while wearing my NSGIC hat on this question. NSGIC 
provides ``state'' membership in its organization to each of the 
insular areas and Washington DC. The only active insular area is the 
U.S. Virgin Islands, but we do have communication with Puerto Rico. 
Unfortunately, there has been little or no interaction with the insular 
areas in the Pacific Rim, so we do not know the status of their 
activities. NSGIC would be pleased to have the other insular areas join 
the organization which would help us provide information and services 
to them. I would be pleased to follow-up on this personally if contact 
information is provided.
    With regard to Federal programs, I suggest this question should be 
directed to Mr. Ivan DeLoatch, Staff Director of the FGDC to poll all 
Federal Agencies.
2.  When we speak about programs like ``The National Map'' or ``Imagery 
        for the Nation'' are you including the Commonwealth of the 
        Northern Mariana Islands in those programs?
    Again, I must speak through NSGIC on this question. The Imagery for 
the Nation initiative does include the insular areas. They are 
exceptionally difficult to acquire using aircraft and aerial cameras. 
Therefore, the general thinking is that they should be acquired via 
satellite imagery which meets the same technical specifications.
    Upon cursory examination of The National Map, it does not appear 
that the Commonwealth of the Northern Mariana Islands is included. This 
program is run by the U.S. Geological Survey and specific questions 
should be addressed to the Director of the USGS.
                                 ______
                                 
    Mr. Sablan [presiding]. Thank you very much, Mr. Byrne.
    I would like to now recognize Mr. John Palatiello. 
Palatiello?
    Mr. Palatiello. Very good.
    Mr. Sablan. Thank you.

 STATEMENT OF JOHN PALATIELLO, EXECUTIVE DIRECTOR, MANAGEMENT 
   ASSOCIATION FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS [MAPPS]

    Mr. Palatiello. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is John Palatiello, and I am the 
Executive Director of MAPPS, a trade association of more than 
170 private geospatial firms throughout the United States and 
around the globe.
    I would like to offer some perspective on where we are and 
where we need to be with regard to fully embracing the 
technology that you saw in the video at the opening of the 
hearing.
    Reference has already been made to the National Spatial 
Data Infrastructure, NSDI. The NSDI was established or the goal 
and vision of an NSDI was established by President Clinton in 
an Executive Order in 1994. It established seven framework 
layers of data that you saw in the video represented in sort of 
a GIS sandwich, geographic information sandwich, of layers.
    Unfortunately, we have not made the progress that we should 
in making the NSDI a reality. It has not been well funded. It 
has not been completely implemented and so we are not fully 
seeing the benefits that we saw in the video.
    Why has that occurred or why has that not occurred? First 
of all, we don't have a national geospatial strategy in this 
country. Our investments are made on a very ad hoc basis. We 
have extraordinarily well built, impenetrable stovepipes in the 
Federal government, and efforts to try to break them down and 
share data across those stovepipes simply are not occurring.
    We are not tying our geospatial activities to national 
priorities. For example, the climate change bill passed by the 
House a few weeks ago does not have a provision creating a 
process by which we measure, monitor, verify or validate 
whether the phenomena of climate change is indeed occurring or 
at what rate it may be occurring.
    The mortgage crisis. We should have seen it coming. We 
should have had an early warning system, and if we had had a 
parcel-based land information system, that cadastral layer of 
the NSDI, we would have seen it and we could have taken 
corrective action on a small problem before it became a large, 
multi-national, multi-trillion dollar problem.
    My fear is we are going to do the same thing in Congress 
with regard to health care. There is no provision in the 
legislation before the Energy and Commerce Committee that 
creates an epidemiology GIS or a way of locating and 
identifying where uninsured Americans reside so we can deliver 
services to them.
    Part of the reason is that we lack that policy. For 
example, the USGS operates under the Act of 1879. The Congress 
hasn't passed a National Mapping Act of 2004 or 2005 or 2009, 
so we are still operating under a very antiquated framework, 
and there is no statutory policy framework for many of today's 
geospatial activities in the Executive Branch.
    We have not defined roles and responsibilities. Government 
very often is neither a teammate nor the umpire, and all too 
often it is the opposing team. Nothing frustrates my members, 
owners of small- and mid- and large-sized businesses, more than 
when government competes with the private sector.
    We have some very good people like Ms. Siderelis and others 
in the Federal agencies who are good people that are 
unfortunately working in a very, very unfortunate circumstance 
in terms of structure. Coordination, duplication, a lack of 
coordination, too much duplication.
    For example, when you look at the broadband mapping 
initiative that was in the stimulus bill and you look at what 
the Census Bureau has already collected, we have an example of 
where the taxpayers have already paid for geospatial data, but 
yet it is not being shared with another agency and we are going 
to spend part of $350 million to collect it once again.
    Mr. Byrne mentioned no champion. We have no champion. We 
don't have accountability. The buck stops nowhere. There are 
neither carrots nor sticks at Ms. Siderelis' disposal to 
enforce the standards or assure coordination. We don't have 
metrics. You can't manage what you can't measure, and we don't 
have metrics in place to see what our progress is.
    Private insurance companies are mapping house locations as 
was indicated in the video to do ratings and to quantify their 
risk, yet, as I said, the government can't measure the effects 
of climate change.
    I will end there and say that we would like to work with 
the Committee to make sure that we have quality data, that we 
have timely data and we have accurate data, and we think 
Congress needs to step in and play a role, and we would like to 
work with you on that.
    Thank you for the opportunity to appear.
    [The prepared statement of Mr. Palatiello follows:]

         Statement of John M. Palatiello, Executive Director, 
  Management Association for Private Photogrammetric Surveyors (MAPPS)

    Mr. Chairman, members of the subcommittee, I'm John Palatiello, 
Executive Director of the Management Association for Private 
Photogrammetric Surveyors (MAPPS) the nation's only national 
association exclusively comprised of private sector firms in the 
mapping, spatial data and geographic information systems field. The 
more than 170 member firms of MAPPS are engaged in mapping, 
photogrammetry, satellite and airborne remote sensing, aerial 
photography, hydrography, aerial and satellite image processing, GPS 
and GIS data collection, integration and conversion services.
    We appreciate this opportunity to testify today on the Federal 
government's geospatial information activities and areas where 
improvement is needed in order for the citizens of our Nation to 
receive the full benefit that geospatial technologies has to offer.
    Executive Order 12906, issued by President Clinton and reaffirmed 
by President Bush established seven framework layers of geospatial data 
for Federal investment--geodetic control, parcels (cadastral), 
orthoimagery, elevation, hydrography, administrative units, and 
transportation--and constituting the National Spatial Data 
Infrastructure (NSDI). Sadly, now fifteen years later, not only is the 
NSDI not complete, but there is no record of how much progress has been 
made on any of the framework layers.
    One of the shortcomings of the government's current geospatial 
management is the limited structure and participation in the Federal 
Geographic Data Committee (FGDC). Neither state and local government, 
nor the private sector, has a seat at the table. Broader participation 
by private sector interests in setting policy and strategy for FGDC 
will result in a stronger offering that better represents the interests 
of the American public and American business, and will engage all 
stakeholders.
    Under the current structure, for Federal agencies the FGDC is 
essentially voluntary and secondary. Agencies are focused on their own 
missions, not a broader national strategy. Coordination, data sharing, 
interoperability and duplication-avoidance are secondary to meeting the 
agency's own program needs. They are after-thoughts or low priority 
items. For all agency employees, other than the very small staffs at 
FGDC, these goals are no one's full time responsibilities. There is 
neither a carrot nor a stick to incentivize or mandate conformance. A 
change in the charter and implementation of FGDC in particular must 
provide either incentives or penalties to assure compliance.
    Delegating responsibility for implementation of these coordinating 
mechanisms to entities within the Department of the Interior is not the 
most effective model. The widespread perception is that these are 
Interior or USGS activities, not OMB activities affecting all Federal 
agencies. We believe a stronger OMB role must be established to make 
coordination, inter-operability, duplication-avoidance and data-sharing 
a reality.
    Prior to the promulgation of the first version of OMB Circular A-16 
in 1953, the old Bureau of the Budget had a much stronger role in 
coordinating Federal geographic information activities. Executive Order 
3206, issued on December 30, 1919, established the Board of Surveys and 
Maps of the Federal Government to coordinate and promote improved 
surveying and mapping activities by Federal agencies. It was a Bureau 
of the Budget entity. Its name was changed to the Federal Board of 
Surveys and Maps by Executive Order 7262 on January 4, 1936. Under that 
authority, in 1941, the Bureau of the Budget issued the ``United States 
National Map Accuracy Standards,'' which applied to all Federal 
agencies that produce maps. The standards were revised several times, 
and the current version was issued in 1947. They are still used today. 
The Board was abolished by Executive Order 9094, on March 10, 1942 and 
functions were transferred to the Bureau of the Budget. An office in 
the Bureau of the Budget coordinated Federal geographic information 
activities. Those responsibilities were devolved to voluntary 
coordination activities of the agencies when Circular A-16 was issued 
in 1953. We believe the reestablishment of an OMB office should be 
considered by Congress or by OMB itself.
    Bold, decisive action is needed to eliminate the extraordinary 
waste, duplication and inefficiency in the Federal government's 
geospatial activities, the lack of a strong partnership in Federal 
agencies' relationship with State and local government, and the 
insidious extent to which there continues to be unfair government 
competition with the private sector.
    Efforts by the Bush Administration to revise OMB Circular A-16, 
create Geospatial One-Stop, launch the Geospatial Lines of Business 
(GLOB), and establish the National Geospatial Advisory Committee 
(NGAC), as well as the Clinton Administration's restructuring of the 
Federal Geographic Data Committee (FGDC) and creation of the National 
Spatial Data Infrastructure (NSDI), and the enforcement of OMB Circular 
A-16 all have one thing in common: they attempted to treat the 
symptoms, rather than the disease.
    There are dozens of Federal agencies engaged in geospatial 
activities. Neither the agencies, nor OMB, have a comprehensive 
understanding of what agencies are involved in geospatial activities. 
No one in the Federal government has a current, accurate accounting of 
the annual geospatial expenditures. It is virtually impossible to 
determine how many Federal employees are involved in these activities. 
There is no balance sheet, performed to accepted cost accounting 
standards, of the capital investment made in equipment and plant 
(office space, etc.). There is no accurate data base on the amount of 
geospatial work performed in-house and by contract. GLOB attempted to 
gather this data. However, due to a poor structure and internal systems 
within the agencies and the Federal government generally, GLOB failed. 
In fact, none of the historic budget data gathered from the agencies 
through numerous annual data calls have ever been released to the 
public. In fact, the annual data call process has been terminated, due 
to the paucity of data OMB received from the agencies. While the NGAC 
has recommended that the data calls be resumed, and that the data be 
released, those recommendations have not been implemented.
    The relationship of each agency with other Federal agencies and 
with State, local and foreign government agencies, needs improvement. 
There is considerable duplication and redundancy, little sharing of 
data, and development of standards for ``interoperability'' of data has 
been far too slow. The obstacles are not technical; they are political 
and organizational. There are some bright, dedicated professionals 
working in geospatial positions in Federal agencies who are trapped in 
an unworkable structure.
    There are far too many Federal agencies operating geospatial 
production capabilities that are expensive, inefficient, and which 
duplicate and compete with the private sector. There is in the 
geospatial structure, no uniform application of the federal policy that 
the government will not compete with the private sector. There is no 
accurate record of the extent to which the Federal government utilizes 
(or duplicates or competes with) the private sector (including the 
dollar amount and percentage contracted to the private sector and 
whether that has increased in the recent past and can increase in the 
future). Although mapping-related activities are consider 
``commercial'' in nature, agency compliance with the FAIR Act, Office 
of Management Budget Circular A-76 and Executive Order 12615 has been 
minimal. The relevant provisions of the Economy Act and the 
Intergovernmental Cooperation Act, intended to prevent unfair 
government competition with the private sector, are routinely ignored. 
There is no cross reference to these policies in NSDI, A-16, FGDC, GLOB 
or Executive Order 12906.
    Federal agencies provide grants or other Federal financial 
assistance to non-Federal entities (including but not limited to State, 
local and foreign government) to perform surveying and mapping 
activities. Many of these activities could be performed by the private 
sector. Moreover, Federal agencies provide grants and other Federal 
financial assistance to universities to perform surveying and mapping 
activities or research. In fact, these activities could be performed by 
the private sector and the ``research'' is on activities already 
commercially available. Much of this expenditure is outside the FGDC 
and A-16 structure.
    With the advent of new airborne and space-based remote sensing and 
imaging technologies, there are new business models under which 
government agencies can now buy licenses to commercial off the shelf 
maps and images, rather than the government owning data. However, 
civilian Federal agencies are very slow to embrace this concept. We 
were encouraged by developments, including the ``Tenet memo'' and the 
White House Policy on Commercial Remote Sensing, and we were hopeful 
they could help stimulate new thinking and new ways of doing business 
in the government, as well as a new paradigm for government utilization 
of the private sector. However, despite the remote sensing policy 
language on utilization of the private sector, government duplication 
of and competition with the private sector persists. We are 
disappointed that no Federal agency has been assigned the role of 
enforcing that provision in the policy.
    Given the failure of the NSDI to become a reality, numerous new 
initiatives have been launched to complete some of the framework. These 
include National Land Parcel Data, Imagery for the Nation, National 
Lidar Initiative and Elevation for the Nation, Transportation for the 
Nation, and others. While these are all worthy programs, their 
proliferation indicates the failure of the NSDI. A strategy must be 
developed to either fund and complete the NSDI as a holistic approach 
or to fully implement these individual initiatives.
    There is also a need for Congress to comprehensively address the 
confusion in some agencies on the application of the qualifications 
based selection (QBS) process codified in the ``Brooks Act'' (40 USC 
1101) to geospatial services. The current Federal Acquisition 
Regulation (48 CFR 36.601-4) does not accurately reflect the deep 
legislative history or the intent of Congress. MAPPS brought an action 
to Federal Court (MAPPS v. United States 1:06cv378) to address this 
important matter, but we were denied standing. We urge Congress to 
provide unequivocal clarification of the need for demonstrated 
competence and qualifications in the acquisition of geospatial services 
in data acquisition, production and related activities.
    Mr. Chairman, the issue is not just that we built solid, 
impenetrable stovepipes in Executive Branch agencies, but I must say 
the problem begins here in Congress. There are more than 30 
subcommittees and full committees of the Congress that have some 
oversight or legislative jurisdiction over geospatial activities. If we 
are to implement a better process for carrying out geospatial 
activities in the Executive Branch, then we must also implement a 
better committee structure for the authorization and appropriations of 
geospatial programs by the Legislative Branch.
    Mr. Chairman, numerous studies have been conducted which detail the 
lack of coordination of Federal mapping and geospatial activities, and 
the government's duplication of and competition with the private 
sector. These studies date back to the 1930s. The time for action is 
long overdue. We hope this hearing will help stimulate that action. We 
commend you for your interest and leadership and we stand ready to work 
with Congress and the Executive Branch to better serve the geospatial 
needs of the American people in economic development, resource 
management, environmental protection, infrastructure, construction and 
maintenance, homeland security and a variety of other national needs 
and applications.
                                 ______
                                 

    Response to questions submitted for the record by Mr. Palatiello

Questions from Chairman Jim Costa from the State of California
1.  Mr. Palatiello, what can be done to more clearly identify the 
        component pieces of the National Spatial Data Infrastructure so 
        that goals can be identified and so that we can effectively 
        measure progress towards its completion?
    Answer: The component pieces of the NSDI are well defined. The only 
data layer that the NSDI omits that should be added is underground 
utilizes and infrastructure. The challenge is not identifying or 
defining the SDI, but rather it is in actually implementing the NSDI. 
There has never been authorizing legislation enacted. There has never 
been an OMB funding strategy. Too often, Congress passes legislation 
that requires the NSDI data in order to be successful, the Cap and 
Trade bill being the most recent and glaring example, but doesn't 
authorize or appropriate the funds to build the NSDI. With regard to 
metrics to measure progress on the NSDI, I would suggest: Currency; 
Completeness (which may include interoperability & metadata); Scale/
Resolution; Accessibility.
2.  Mr. Palatiello, how useful are the National Map and Geospatial One-
        Stop to non-Federal stakeholders?
    Answer: The National Map (TNM) is a sound and useful program. 
Studies by the National Research Council and other organizations have 
demonstrated the need for and benefits of TNM. If fully implemented, it 
would provide a considerable portion of the data envisioned by the 
NSDI. It would also accomplish the goals of initiatives like the 
National LIDAR Initiative to provide elevation data and Imagery for the 
Nation to provide orthoimagery. USGS has established an effective 
public-private partnership to collect TNM data, through its Geospatial 
Products and Services Contracts (GPSC). These multiple-award, 
indefinite delivery/indefinite quantity (ID/IQ) contracts, awarded via 
the qualifications based selection process (QBS), pursuant to 40 USC 
1101 and 48 CFR 36.6, are vehicles to provide professional geospatial 
services to USGS, other DoI agencies, other federal agencies, as well 
as state and local government. USGS also fosters partnerships with 
other federal agencies, as well as state and local government, on the 
use of the GPSC contracts and to populate TNM data. However, TNM is 
another example of a program that has not been specifically authorized 
by Congress and a successful funding strategy has not been developed or 
implemented. Thus, TNM is languishing. Geospatial One-Stop (GOS) has 
been a disappointment. There is no longer much discussion in the 
geospatial community about GOS and it is not widely used. One of its 
major shortcomings has been its failure to successfully capture private 
data. As a result, it does not provide true ``one-stop'' shopping for 
available geospatial data. MAPPS has tried to work with USGS to provide 
a cost-effective means to include commercial data, but that effort has 
not proven fruitful. Finally, the ``market place'' feature of GOS, 
wherein agencies are to theoretically post their upcoming geospatial 
data requirements, in order to facilitate collaboration and prevent or 
reduce duplication, has never been successful.
3.  Mr. Palatiello, are there any incentives for state and local 
        governments to share their data with each other, and with the 
        federal government, and are there any particular incentives 
        that you would suggest to improve the situation?
    Answer: The greatest incentives for sharing should be cost 
avoidance, cost savings, and partnering. If two governmental units with 
common data and geographic interests can share the cost of data 
collection, they both benefit financially. We would support greater 
emphasis on forging partnerships, facilitating cost-sharing 
arrangements, and conducting needs assessments by government agencies, 
and providing policy and management mechanisms and financial incentives 
(``carrots'') to do so, and, if necessary, penalties (``sticks'') for 
agencies' failure to do so. Moreover, government agencies should be 
focused on these activities, rather than government agencies completing 
with and duplicating the private sector. Government agencies should not 
be engaged in commercially available activities, such as data 
collection and value-added services.
4.  Mr. Palatiello, you mentioned that a lot of the imagery in 
        GoogleMaps comes from the federal government. Do you know what 
        percentage of Google's imagery data is from the federal 
        government, and what agencies or programs within the federal 
        government provide that imagery?
    Answer: I do not have an accurate estimate of the percentage of 
Google's imagery that comes from the federal government, but it is my 
understanding that there are millions of sq km of ortho imagery and 
terrain published to Google Earth and Maps that has been contributed to 
Google through partnerships with local, state, and federal programs. 
These include: USDA-FSA (NAIP), USGS/EROS (DOQQs, current and 
historical aerial imagery, historical satellite imagery, terrain), and 
the National Archives. It is also my understanding that the largest 
single source of sub-meter aerial coverage that Google has is the 
direct result of USGS partnerships with state, regional, and local 
governments for aerial collections.
5.  Mr. Palatiello, you discussed your concerns with the federal 
        government competing with private industry when it comes to 
        collecting geospatial data. However, you also discussed the 
        usefulness of federal data because it is ``authoritative'' 
        data. Also, privately collected data is typically proprietary, 
        requiring the purchase of licenses in order to use the data, 
        while federal data is typically in the public domain. How 
        should the federal government determine when it is in the 
        public interest to collect data itself, so as to be an 
        authoritative, freely-available source that can be accessed by 
        many users, and when it is better to allow private companies to 
        collect the data?
    Answer: There are widespread misconceptions about licensed 
geospatial data. While this is a relatively new business model in the 
geospatial field, there is considerable literature to support the 
increased use of licensed data by federal agencies in order for such 
agencies to fulfill their statutory missions. Federal agencies use 
commercial software (such as Microsoft Word) on a regular basis. 
However, the government does not own that software, it owns a license 
to the software. That license does not in any way inhibit the ability 
of a government agency to serve the public or fulfill its mission. The 
same is true about licensed data. In 1999, MAPPS was provided a grant 
by USGS to host a conference, ``Licensing Data, Licensing People'' that 
addressed the policy issues and mechanisms for using licensed data in 
government agencies. Additionally, the National Research Council was 
funded by federal agencies to conduct a study on this issue, resulting 
in the publication of the NRC report, ``Licensing Geographic Data and 
Services'' (2004). This study found that licensed geographic data is 
not an inhibitor to government agencies. Unfortunately, very few of the 
NRC's recommendations have been implemented by the federal government.
6.  Mr. Palatiello, could you provide some examples as to why having 
        detailed address data, such as from the census, available more 
        broadly would be in the public interest?
    Answer: The most explicit example of the utility of address data 
was demonstrated when New Orleans flooded as a result of Hurricane 
Katrina and the levee breaches. We all saw news footage of rooftops 
with the entire road system flooded-out and obliterated. Maps without 
addresses were virtually useless. Had address data been available, 
emergency response deployment would have been exponentially more timely 
and effective. In its report ``Land Parcel Data: A Vision for the 
Future'' (2007), the National Research Council did an excellent job of 
describing the uses of cadastral (or parcel and address) level data. 
These include improved land records, more efficient property tax 
assessment, better planning and engineering, improved environmental 
management, enhanced economic development, better statistical and 
demographic data, better government service delivery, improved 
management of mortgages and home ownership data, better land title 
procedures, and greater development of location based businesses. There 
is almost no data that is not improved when it is given a geographic 
attribute. The more that geographic data is address-based, the more 
valuable it becomes.
7.  Mr. Palatiello, please describe your thoughts on how a parcel-based 
        national system could have provided an early warning system of 
        the mortgage crisis.
    Answer: Today, there is no common, enforced national standard for 
parcel information. The 3200 counties, plus the cities and towns all 
collect and manage their parcel information to their own standards. It 
is estimated that 20 percent of the data in the U.S. (mostly in less 
prosperous jurisdictions) is not even in a digital format. Therefore, 
there is now data set upon which to monitor disruptions, anomalies or 
significant changes or trends in our housing, home ownership, or real 
estate financing system. We only have episodic data or samplings of 
activities. Had the United States operated a national parcel-based 
system, agencies such as the Federal Reserve, HUD, Fannie and Freddie, 
and others could have seen the small, incremental increases in 
foreclosures and taken early remedial actions, rather than not 
realizing the problem until it had become a large, trillion dollar 
international crisis. With the federal government now managing a 
portfolio of hundreds of billions of dollars in mortgages, it is 
absolutely necessary that a national parcel system be in place so that 
this asset can be properly managed. There are a number of experts, 
including Dr. Ian Williamson at the University of Melbourne and The 
Honorable Gary Nairn, a member of Parliament in Australia and a 
professional surveyor, have been critical of the United States on the 
lack of a national parcel system (see: http://www.mycoordinates.org/
july09/spa.php).
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  How does the Federal government compete with the private sector?
    Beginning in 1955 (Bureau of the Budget Bulletin 55-4), it has been 
the policy of the Federal government that ``will not start or carry on 
any commercial activity to provide a service or product for its own use 
if such product or service can be procured from private enterprise 
through ordinary business channels''. Surveying, mapping and geospatial 
``related activities have always been considered commercial activities. 
Nevertheless, federal agencies employ personnel, acquire and operate 
equipment, and carry on geospatial activities that duplicate and 
compete with firms in the private sector. As long ago as 1932, a 
committee of the House of Representatives expressed concern over the 
extent to which the government engaged in activities which might be 
more appropriately performed by the private sector. Among the 
activities identified as engaged in government competition with the 
private sector was mapping. A 1973 OMB report of its Task Force on 
Mapping, Charting, Geodesy and Surveying found ``in-house mapping, 
charting and geodesy capabilities demand care and feeding once they are 
in place. And so they are fed--in perfect conformance to the principles 
of Parkinson's Law. Parkinson's Law suggests (1) the number of 
subordinates increases regardless of the amount of work produced; and 
(2) work expands so as to fill the time available for completion.'' The 
report recommended, ``private cartographic contract capability is not 
being used sufficiently. We found this capacity to be broad and varied 
and capable of rendering skilled support ... Contract capability is a 
viable management alternative ... Its use should be encouraged in lieu 
of continued in-house build-up.'' Since that report, the extent to 
which federal agencies have performed surveying, mapping and geospatial 
activities that are otherwise available from the private sector has 
continued. And, also since that report, numerous other government 
studies have advocated increased contracting with the private sector 
for the government's surveying, mapping and geospatial needs. 
Nevertheless, the government still cares for and feeds its in-house 
capability. As I indicated in my verbal testimony, we are seeing it 
again with the ARRA (Stimulus) money being used by agencies to buy 
equipment so that commercially available geospatial services are 
performed in-house, rather than contracting for services for the 
private sector. This increases unemployment in the private sector and 
results in government duplication of and competition with private 
firms, particularly small business.
2.  How would you define the roles of the various sectors and 
        stakeholders in the geospatial field?
    Government should be the demand for geospatial data to perform the 
inherently government functions set forth in the Constitution and which 
the citizenry has come to expect--such as the Census, national defense, 
regulating interstate commerce and providing for the general welfare. 
Government should not be the supply of geospatial data. The role of 
government should be to conduct analysis of its geospatial data needs, 
establish standards, award and manage contracts, oversee the data 
quality of that produced by its contractors, and apply the data to 
produce the solutions it needs to perform its inherently governmental 
functions. Universities should be engaged in education and research, 
but not do so in a manner that duplicates or competes with the private 
sector or results in the performance of services that are otherwise 
commercially available. The private sector should be meeting the demand 
for geospatial data generated by government and other users and meeting 
that demand with services, data, products, applications, and value-
added solutions.
3.  What would you recommend that Congress to do improve Federal 
        geospatial data management?
    There have been a number of studies by OMB. The National Research 
Council, the National Academy of Public Administration and others that 
have concluded that the current management structure in the government 
does not work. There is overwhelming support in the community for the 
creation of a management office in the Executive Office of the 
President (OMB, OSTP, OIRA, etc.), rather the current system wherein 
the Federal Geographic Data Committee (FGDC) is operated in the 
Department of the Interior. MAPPS has suggested a geospatial management 
office modeled after the Office of Federal Procurement Policy (OFPP), 
with a national board (not advisory committee) to set policy and 
priorities (the model of the National Capitol Planning Commission 
(NCPC) has been suggested) made up of private citizens with expertise 
and experience in the geospatial field. I would recommend legislation 
to implement such a structure. MAPPS supported the legislation that 
resulted in the creation of a Geospatial Management Office (GMO) in the 
Department of Homeland Security (DHS) and would recommend similar 
offices in other departments and independent agencies. Finally, bills 
have been introduced over the years, but not enacted, that have sought 
to strengthen geospatial activities and the role of the private sector. 
MAPPS supports the FLAIR Act introduced by Mr. Kind and Mr. Bishop 
(H.R. 1520--in the current Congress) and the Freedom from Government 
Competition Act (H.R. 2682 in the current Congress) and has supported 
legislation such as S. 4006 (Senator Allen 109th Congress), H.R. 4461 
(Mr. Young of AK 102nd Congress), H.R. 3639 (Mr. Rahall 101st 
Congress). Legislation of this nature would be helpful in reforming 
management of federal geospatial activities.
Questions from Congressman Gregorio KiWi Camacho Sablan from the 
        Commonwealth of the Northern Mariana Islands
1.  What is the status of geospatial issues in the insular areas? Do we 
        get the same sort of coverage that the rest of the states get?
    I am not the most qualified individual to answer that question. I 
believe a more comprehensive response can be provided by the Department 
of the Interior. I am aware that USGS programs, such as the National 
Atlas, include the Northern Mariana Islands. I do know that private 
firms on the mainland do deploy aircraft and perform mapping and 
geospatial activities when contracted by clients (government or 
commercial) in the insular areas. I am aware of more activity in Puerto 
Rico and the U.S. Virgin islands, but when there is a need for data and 
funding is available, firms do provide services in the insular areas of 
the Pacific.
2.  When we speak about programs like ``The National Map'' or ``Imagery 
        for the Nation'' are you including the Commonwealth of the 
        Northern Mariana Islands in those programs?
    While much of the focus and discussion of these programs has been 
on the 50 states, it is my understanding that in insular areas and the 
Northern Mariana Islands would be included. I would, however, make two 
additional points. First, compared to the lower 48 states, Alaska is a 
terribly under-mapped portion of the United States. It is my 
observation that the lower 48 states get much more attention than 
Hawaii, Alaska and the insular areas. Second, I have been involved in 
the geospatial profession for more than 25 years and I have not had a 
lot of interaction with representatives of the insular areas generally 
and the Northern Mariana Islands in particular at professional 
conferences and similar venues. It would be helpful for the Northern 
Mariana Islands to be involved in organizations like the National 
States Geographic Information Council (NSGIC) and other organizations 
so that their interests are known. Moreover, the USGS has an excellent 
program of liaisons to interface with the states on geospatial 
programs. It is my understanding the USGS Geospatial Liaison based in 
Hawaii is responsible for the Northern Mariana Islands. That is the 
individual the islands should be working with on their participation in 
programs such as The National Map and Imagery for the Nation.
                                 ______
                                 
    Mr. Sablan. Thank you. Thank you very much, Mr. Palatiello.
    And last, but certainly not least, and the most best 
introduced witness we have today, I would like to recognize Ms. 
Marlow.

STATEMENT OF SUSAN MARLOW, CHIEF EXECUTIVE OFFICER, SMART DATA 
                        STRATEGIES, INC.

    Ms. Marlow. Thank you so much, Mr. Chairman, Members of the 
Subcommittee. It is my privilege to testify before you today on 
behalf of Smart Data Strategies, a woman business enterprise 
specializing in geospatial solutions established in 1989.
    I know that when we refer to geospatial it becomes 
confusing. Even with the video, we have so many professional 
acronyms and nomenclature, but when you put it in the context 
of the video and Google Earth and things like that it becomes 
much more understandable.
    The Federal government has long recognized the need for 
geospatial data for decision making purposes. In 1990, the 
Federal Geographic Data Committee was formed. This committee, 
in turn, identified seven base layers that are critical to the 
U.S. Government, now known as the National Spatial Data 
Infrastructure or the NSDI framework that so many people are 
talking about today.
    Each one of these layers was assigned to a lead agency to 
oversee the development of context standards. While this was 
good in concept, it has not been completed. The primary 
obstacles are lack of funding and intergovernmental agency 
coordination.
    As stated already today, we are now funding a $350 million 
broadband mapping through the stimulus. While this is a great 
initiative, the framework layers are still incomplete. It is 
time to move from concept to action. Much like you need to 
frame up a house before the roof and walls go up, you need 
these base layers as the building blocks to all other layers.
    Today I am going to talk to you about the parcel layer, 
which is my expertise. While much of what I will discuss will 
pertain specifically to the parcel layer, many parallels exist 
with other framework layers.
    The ability and privilege to own land is an important 
characteristic of any free and democratic society. It is why we 
refer to it as the American Dream. The current mortgage crisis 
leaves no doubt that land ownership and the associated rights, 
interests and value of property is fundamental to our entire 
socio-economic system, yet the parcel layer remains the least 
successful of the seven framework layers.
    Local jurisdictions across the United States have the 
statutory responsibility for maintaining an inventory of the 
parcels used primarily for equitable taxation. With 
approximately 3,200 counties in the United States, this creates 
the challenge of 3,200 puzzle pieces that do not all fit 
together, but with the proper coordination they certainly 
could.
    The State of Tennessee and Alabama are very good examples 
of coordination between local jurisdiction and state agencies. 
However, there is very little coordination between local, state 
and Federal agencies except when there is a national emergency 
such as a hurricane or a wildfire. It is during these times of 
crisis that the Federal government discovers that the pieces 
don't fit together, and often times the data is nonexistent in 
those areas.
    Here is an example. I will point you to the PowerPoint 
here. Here is an example of what happens when there is no 
coordination between the framework layers. In this example, the 
parcel layer and the orthoimagery layer were collected at two 
different times for different purposes. You can see that the 
parcels are in the streets, which is obviously not an accurate 
representation of what is on the ground. But the problem is you 
don't really know which one of these is wrong. Again, another 
example of the need for coordination.
    Nearly 30 years of reports have called for a national 
property layer. Fourteen years before the NSDI identified the 
parcel layer as a must have, the National Research Council 
identified the critical need for it in the study, The Need For 
a Multi-Purpose Cadastre. And, yes, the word cadastre is 
another word for the parcel layer.
    In 2007, the NRC report came to the same conclusion that a 
national property database is necessary, feasible and 
affordable. Billions of American tax dollars have provided 
funding to foreign countries to develop spatial data, leaving 
the U.S. behind most industrial nations as it relates to the 
parcel layer and the information associated with it.
    In both the 1980 report and the 2007 report, the problems 
identified were political and institutional, not technical. In 
addition, the 2007 report included a coordination and 
implementation plan as part of its recommendation. I believe 
this model could serve as an example for all of the framework 
layers.
    One of the recommendations called for the Federal 
government to provide an inventory of its own property. Yes, 
the Federal government does not have an accurate inventory of 
its own property. This was documented in a GAO report in 2004 
and remains true today.
    It should be noted that this is the fourth consecutive 
Congress in which GAO placed managing Federal real property in 
the high risk series, those Federal programs most at risk for 
waste, fraud and abuse.
    There is, however, pending legislation, H.R. 1520, the 
Federal Land Asset Inventory Reform Act, otherwise known as the 
FLAIR Act, introduced in a bipartisan manner by full Committee 
Members Ron Kind and Rob Bishop. While this legislation is 
important and I respectfully urge you to enact it, I would also 
urge you to support additional legislation that would fund the 
creation of all framework layers and to establish Federal 
leadership roles and responsibilities.
    It is time to accept the research and start acting. This is 
not a technical problem. If FedEx can track the location of 
millions of packages per day moving around the world, the 
Federal government should be able to track the location of 
land.
    Thank you very much.
    [The prepared statement of Ms. Marlow follows:]

 Statement of Susan Marlow, President, Smart Data Strategies, Member, 
    National Academy of Sciences Committee Land Parcel Databases: A 
                            National Vision

    Mr. Chairman, members of the Subcommittee, it is my privilege to 
testify before the subcommittee on behalf of Smart Data Strategies, 
Inc, a woman owned enterprise established in 1989.
    As the owner of a small geospatial business with many government 
clients, I have seen the geospatial market mature, both technologically 
and professionally. The introduction of Google Earth and Microsoft 
Virtual Earth and the disasters of 9/11 and Hurricane Katrina have all 
had a significant impact on the rapid adoption and application of 
location based technologies. The geospatial market is expanding into 
every area of business through the enhancement of visualization and 
analytical capabilities. Any database with an address has the ability 
to be georeferenced to a location on the earth. The use of this 
decision support technology has been identified as critical to all 
levels of government. While significant milestones have been 
accomplished by federal agencies, such as the creation of the FGDC and 
the concept of the National Spatial Data Infrastructure (NSDI), there 
is still much to do in order to complete these initiatives. All levels 
of government (local, state, federal, tribal) spend millions of dollars 
each year for single purpose geospatial data collection. One of the 
missing components of making the NSDI a reality is a model and 
governance plan for data sharing and geospatial coordination. By 
comparison, most industrialized nations throughout Europe, Asia, and 
Latin America already have a coordinated national geospatial database 
with many of them being funded by U.S. tax dollars through the World 
Bank. The U.S. has the intellectual capital and the technology 
necessary to create the most accurate geospatial database in the world 
by coordinating efforts and funding.
    Created in 1994 through Executive order 12906, the NSDI defined 
seven base framework layers as critical information that needed to be 
centralized. These include hydrography, elevation, cadastral, digital 
orthoimagery, governmental units, transportation, and geodetic control 
layers. The vision of the FGDC in creation of the NSDI was designed by 
thought leaders throughout the geospatial community. Each layer has a 
defined set of standards and a lead agency responsible for that 
particular layer.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We have spent years and countless hours with some of the brightest 
people in the geospatial profession defining what the framework should 
be as well as the standards associated with each layer. While that is 
good in concept, it has not been carried out in practicality. After 14 
years, the framework layers are still incomplete. While I won't speak 
to every layer, I will draw some parallels to all layers using the 
parcel layer as an example of failed coordination and a lack of 
standardization.
    1.  The parcel layer is collected at a local level primarily for 
tax purposes. This means that each local jurisdiction has the ability 
to define their own data standard based on their unique needs. The end 
result is 3200 plus puzzle pieces that don't quite fit together. While 
millions of dollars are spent on the creation and maintenance of this 
data at the local level, the investments are not being realized at the 
federal level due to a lack of coordination.
    2.  The Bureau of Land Management (BLM) has been assigned the 
parcel layer (cadastral layer), however it is not part of BLM's core 
mission to collect parcel information for the entire country. They 
manage only the property owned by the U.S.
    3.  Appropriate accuracy levels must be considered as part of 
standardization. The parcel layer is the most detailed and requires a 
higher level of accuracy. As an example, the USGS quad maps are at an 
accuracy of plus or minus 30-40 feet depending on the terrain. Now 
imagine if your property lines were at the same accuracy level, it's 
obvious that you and your neighbors may have a few issues with that.
    Similar issues exist for each layer. If the NSDI is to be a reality 
we need to provide each lead agency the proper funding, governance 
structure, and coordination authority to move beyond the development of 
content standards into data creation, implementation, and maintenance. 
This should be accomplished in coordination with the private sector 
which has the resources and expertise to partner with government 
agencies to complete the framework layers.
    An example of how this can work has been presented by the National 
Research Council's study National Land Parcel Data: A Vision for the 
Future. These recommendations define a strategy for developing 
sustained coordination between government agencies and stakeholders to 
create and maintain the parcel layer. While these are specific to the 
parcel layer, they can serve as a road map to complete all seven 
framework layers. The recommendations are as follows:
    1.  In order to achieve nationally integrated land parcel data, 
there should be both a federal land parcel coordinator and a national 
land parcel coordinator. A panel should be established to determine 
whether BLM has the necessary and sufficient authority and capacity to 
serve as the federal and/or national land parcel coordinator, and if 
not, either it should be given the authority and resources, or some 
other agency should be named. The panel should conduct a review of 
BLM's existing stewardship responsibilities for cadastral and federal 
land ownership status under OMB Circular A-16, as well as its current 
legislative authorities and budget priorities.
    2.  As part of the Geospatial Line of Business process, the FGDC 
should identify the role of parcel data in the collection and 
maintenance of the following data themes: Buildings and Facilities, 
Cultural Resources, Governmental Units, and Housing.
    3.  The Federal Land Parcel Coordinator should coordinate the 
development and maintenance of a single, comprehensive, and 
authoritative geographically referenced database for land parcels 
managed by the federal government, including public lands. This 
database should include the ownership, area, and use of all federally 
managed lands. (H.R. 1520, the Federal Land Asset Inventory Reform Act 
of 2009)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    4.  The National Land Parcel Coordinator should develop and oversee 
a land parcel data business plan for the nation. This plan should serve 
as the basis for evaluation of the program and as a model for state and 
local governments. Metrics should be based on the FGDC Parcel 
Management Program Business Plan Template.
    5.  The Office of the Special Trustee for Tribal lands should 
establish an Indian Lands Parcel Coordinator who would manage a program 
to coordinate and fund the development and maintenance of a 
geographically referenced database for Indian trust parcels. The data 
should then be made available to the National Land Parcel Coordinator 
to be integrated with national land parcel data.
    6.  Congress and the Bureau of the Census should explore potential 
policy options, including modifications to Title 13, that would allow 
its digital data on building addresses and their geographical 
coordinates to be placed in the public domain while also maintaining 
important privacy protections. If publicly available, these street 
addresses and coordinates could be used to assist in the development of 
parcel data in areas where parcel data sets do not exist.
    7.  The National Land Parcel Coordinator should embrace the Fifty 
States Initiative and require that every state formally establish a 
state parcel coordinator. State coordinators should develop a parcel 
data business plan and manage the relationships among all levels of 
government involved in parcel production. The plan and program should 
achieve comprehensive border-to-border parcel coverage for all public 
and privately owned property within the state. The state parcel 
coordinator should either work with the state office responsible for 
the Census Bureau's Boundary and Annexation program or with local 
government offices if a statewide program does not exist.
    8.  The National Land Parcel Coordinator should develop a plan for 
a sustainable and equitable intergovernmental funding program for the 
development and maintenance of parcel data. The plan must provide 
financial incentives to local governments that will produce and 
maintain the majority of the parcel data. Many of the funds for this 
program should come from existing federal programs that require parcel 
data; however, new funding will be required to establish an initial 
baseline, integrate the data, and make them available through a web 
interface.
    9.  To participate in federal geospatial programs such as federal 
collection and dissemination of orthoimagery, a local or state 
government should be required to make the parcel geometry and limited 
set of attributes needed for the national land parcel data system 
available in the public domain. Further, in order to be eligible to 
receive federal funds that are directly associated with property, such 
as for disaster relief or community development assistance, digital 
land parcel data necessary to effectively administer the program should 
be made available by local and state governments.
    Of these nine recommendations, only recommendation number three has 
pending legislation. On March 16th, 2009 Representatives Kind (D-WI) 
and Bishop (R-UT) introduced H.R. 1520, the Federal Land Asset 
Inventory Reform (FLAIR) Act of 2009. This legislation called for the 
federal government to act on the recommendations by the Government 
Accountability Office and the National Research Council to create an 
inventory of all federally owned properties. The current status of 
existing inventories of federal properties is known to be unacceptable. 
They are incomplete, outdated, and inaccurate thus resulting in excess 
and underutilized property, deteriorating buildings, and the 
continuation of costly accounting and leasing errors. The FLAIR Act 
will only impact the current status of the federal government's effort 
to properly inventory property if government agencies agree to 
coordinate geospatial data management efforts.
    If the government decides to coordinate efforts and complete the 
NSDI, the available data and potential combinations of data would 
provide numerous opportunities for research, strategic planning, and 
ongoing data accuracy efforts and utilization initiatives. For example, 
the following results were identified as potential benefits of a 
national parcel layer to the federal government in the 1983 and 2007 
National Research Council studies:
    <bullet>  Provides a flow of standardized data for updating federal 
maps and statistics, e.g., for the federal censuses
    <bullet>  Provides a database for monitoring objects of national 
concern, e.g., agricultural land use and foreign ownership of U.S. real 
estate
    <bullet>  Provides a reliable record of the locations of federal 
ownerships or other interests in land
    <bullet>  Provides standardized records for managing federal 
assistance to local programs such as housing, community development, 
and historic preservation
    In addition to benefitting the federal government, a completed 
national parcel layer would provide long reaching benefits to other 
jurisdictions and stakeholders.
Potential Benefits to Local Governments
    <bullet>  Assures that the best available data are used in each 
public transaction
    <bullet>  Avoids conflicts among land records of different public 
offices
    <bullet>  Improves accuracy of real-property assessments
    <bullet>  Provides base maps for local planning and preliminary 
engineering studies
    <bullet>  Provides a standardized data base for neighborhood, 
municipal, county, or regional development plans
    <bullet>  Avoids costs of maintaining separate map systems and 
land-data files
    <bullet>  Encourages coordination among separate map systems 
affecting land
    <bullet>  Improves public attitudes toward administration of local 
government programs
Potential Benefits to State Governments
    <bullet>  Provides accurate inventories of natural assets
    <bullet>  Provides accurate locational references for 
administration of state regulations such as pollution controls
    <bullet>  Accurately locates state ownership or other interests in 
land
    <bullet>  Provides a standardized database for management of public 
lands
    <bullet>  Provides large-scale base maps for siting studies
    <bullet>  Simplifies coordination among state and local offices
Potential Benefits to Private Firms
    <bullet>  Produces accurate inventories of land parcels, available 
as a public record
    <bullet>  Produces standard, large-scale maps that can be used for 
planning, engineering, or routing studies
    <bullet>  Speeds administration of public regulations
Potential Benefits to Individuals
    <bullet>  Provides faster access to records affecting individual 
rights, especially land title
    <bullet>  Clarifies the boundaries of areas restricted by zoning, 
wetland restrictions, pollution controls, or other user controls
    <bullet>  Produces accurate maps that can be used for resolving 
private interests in the land
    <bullet>  Reduces costs of public utilities by replacing present 
duplicative base-mapping programs
    <bullet>  Improves efficiency of tax-supported government services 
as described earlier in this table
    Currently, there exist numerous reports, analyses, and studies that 
endorse coordination at a national level. Of particular note are the 
following studies:
    The Need for a Multipurpose Cadastre (1980) recommended a 
nationwide land parcel system with strong coordination from the federal 
government.
    Toward a Coordinated Spatial Data Infrastructure for the Nation 
(1993) helped define the National Spatial Data Infrastructure (NSDI) 
which identified the parcel layer as one of seven critical layers.
    National Land Parcel Data: A Vision for the future (2007) conducted 
by the National Research Council reviewed the 1980 report as well as 
the current status parcel data in the United States, concluding that a 
national property database is necessary, feasible, and affordable.
    Land Parcel Data for the Mortgage Crisis: Results of the 
Stakeholders Meeting (2009) concluded that there are three key 
recommendations that could improve the ability to track and monitor the 
status and progress of mortgage and property value conditions in the 
U.S.: 1. Add the local Parcel ID to the Home Mortgage Disclosure Act 
(HMDA) data, 2. Develop a Parcel Early Warning System, 3. Complete the 
standardization and availability of parcel data nationwide.
    Mr. Chairman, 30 years of reports and research have called for the 
parcel layer yet it remains unfunded and incomplete. The problem is not 
technical, it is political and institutional. While FedEx can track the 
location of millions of packages per day moving around the world, the 
federal government does not track the location of land, and it is 
stationary. The ability and privilege of land ownership is an important 
characteristic of any free and democratic society; it's why we refer to 
it as the American Dream. The current mortgage crisis leaves no doubt 
that land ownership and the associated rights, interests, and value of 
property is foundational to our entire socioeconomic system. While the 
federal government has identified numerous needs for parcel data such 
as efficient emergency preparedness and response, disease tracking, 
agricultural management and land use, community development and zoning, 
energy and resource development, there still is only sporadic use due 
to the lack of availability and accessibility of usable parcel related 
data as a result of failed coordination between local, state, federal, 
and tribal agencies. I urge Congress to accept the research and enact 
legislation to provide funding and agency coordination to complete the 
parcel layer and all other NSDI framework layers.
                                 ______
                                 

      Response to questions submitted for the record by Ms. Marlow

Questions from Chairman Jim Costa from the State of California
1.  Ms. Marlow, what can be done to more clearly identify the component 
        pieces of the National Spatial Data Infrastructure so that 
        goals can be identified and so that we can effectively measure 
        progress towards its completion?
    There are seven framework layers in the NSDI. Each one of these 
layers may have different uses requiring different levels of accuracy 
for various agencies. In order to measure the progress of the NSDI, I 
believe we need to identify what accuracy levels are needed for each 
framework layer and then make all layers accessible through the 
National Map and Geospatial One-Stop.
2.  Ms. Marlow, how useful are the National Map and Geospatial One-Stop 
        to non-Federal stakeholders?
    The National Map and the Geospatial One-stop are not widely adopted 
or used by non-federal stakeholders.
3.  Ms. Marlow, how much would it cost to fund the national parcel data 
        layer that you described in your testimony?
    According to the National Academy of Sciences study Land Parcel 
Databases; A National Vision, the cost to complete is $294.6 million.
4.  Ms. Marlow, please describe your thoughts on how a parcel-based 
        national system could have provided an early warning system of 
        the mortgage crisis.
    If property information was accessible, organized, and current 
regardless of jurisdictional or political boundaries, land property 
data (including but is not limited to value, loan type, loan status, 
and interests of real property) would be searchable, accessible and 
analyzable across the Nation.
    The accessibility of property data would have allowed the federal 
government to:
    <bullet>  Run automated analyses to track and investigate negative 
market movements before trends emerge, such as:
      <all>  Foreclosures.
      <all>  Loan/Tax defaults.
      <all>  Land devaluation and inflation or deflation.
    <bullet>  Create visual representations of movements and trends on 
maps providing an early warning system.
    <bullet>  Manage property foreclosure inventory.
    This type of system would have also allowed the government to 
monitor the value of homes against a known trend line like the GNP 
gross national product and alert the nation when the trends begin to 
diverge.
5.  Ms. Marlow, can you provide any examples of where implementation of 
        parcel systems, digital tax mapping systems, or other GIS has 
        provided a favorable, quantifiable return on investment to a 
        states or units of local government?
    The Los Angeles County Assessors Office has reduced their yearly 
overtime hours from 1200 to zero. The cost and staff saving have been 
generated by a more automated assessor map creation and reproduction 
methodology with GIS.
    The state of Wyoming used its GIS to audit the mass appraisal 
process and found that approximately 250,000 parcels were not on the 
tax rolls.
    The Metropolitan Sewer District (Cincinnati, OH) used GIS to find 
parcels with sewer connections which were not being billed. The 
District generated thousands of dollars of missing revenue that more 
than covered the cost of their GIS.
    Santa Clara County, CA conducted a study to determine the possible 
cost savings that could be achieved by implementing a multi-participant 
GIS system it was discovered that if data were exchanged electronically 
the County estimated that staff time would be reduced by 75 percent, 
resulting in an annual savings of $720,000. In addition, it was 
estimated that if all agencies and departments used the same base map 
and map updates were coordinated to eliminate duplication of effort 
approximately $684,000 in map maintenance costs could be saved 
annually.
    St. Paul, MN participated in the Local Update of Census Addresses 
(LUCA) program. This program allows communities to ensure that the 
Census Bureau has accurate information. The City used GIS and 
identified 1,099 housing units that the Census Bureau had not accounted 
for. The 2,900 people residing in the additional housing will result in 
the City receiving an additional estimated $5 million in federal 
funding over a ten-year period.
    Baltimore County conducted a thorough cost benefit analysis of 
their GIS system and discovered that they saved 119,377 man hours every 
year which results in a net benefit of $1,944,845.
6.  Ms. Marlow, are there any incentives for state and local 
        governments to share their data with each other, and with the 
        federal government, and are there any particular incentives 
        that you would suggest to improve the situation?
    Almost all sharing of parcel data by local, state, and federal 
government is on an ad-hoc basis and is totally voluntary. This usually 
works in times of disaster but the problem is that the data from one 
local jurisdiction to another is not necessarily in a standard and 
usable format. It is like trying to put two puzzle pieces together that 
don't quite line up. Most parcel data is created at a local level and 
local governments don't have any incentive to create or modify the data 
to a national standard.
    One suggestion would be to enact a provision calling for the 
establishment of an integrated, inter-governmental land information 
system based on compliance with a set of national land data standards.
7.  Ms. Marlow, you discussed your concerns with the federal government 
        competing with private industry when it comes to collecting 
        geospatial data. However, you also discussed the usefulness of 
        federal data because it is ``authoritative'' data. Also, 
        privately collected data is typically proprietary, requiring 
        the purchase of licenses in order to use the data, while 
        federal data is typically in the public domain. How should the 
        federal government determine when it is in the public interest 
        to collect data itself, so as to be an authoritative, freely-
        available source that can be accessed by many users, and when 
        it is better to allow private companies to collect the data?
    I certainly believe the federal government should collect the data 
from an authoritative source and make it publically available. However, 
I also believe the federal government should not use government 
employees to create the data. I believe the federal government should 
contract with the private sector mapping professionals to create the 
data for the local state and federal governments.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  Does the Federal government have the necessary national geospatial 
        data to provide an early warning system for the mortgage crisis 
        or to manage the vast mortgage portfolio it now owns?
    No. The federal government needs a national property database to 
monitor the mortgage industry and the valuation of property.
2.  What challenges in securing contracts with from the government does 
        your company face as a result of the lack of coordination and 
        oversight?
    The federal government is so big and geospatial contracting is in 
so many departments it is a challenge for small company to be able to 
afford to spend the time and money to visit so many agencies and visit 
with so many departments.
3.  Is government competition with your company real and what 
        challenges does it create?
    Government competition is very real and it is very hard if not 
impossible to compete with the government.
Questions from Congressman Gregorio KWH Camacho Sablan from the 
        Commonwealth of the Northern Mariana Islands
1.  What is the status of geospatial issues in the insular areas? Do we 
        get the same sort of coverage that the rest of the states get?
    It varies depending on what procedures and systems are in place in 
these areas.
2.  When we speak about programs like ``The National Map'' or ``Imagery 
        for the Nation'' are you including the Commonwealth of the 
        Northern Mariana Islands in those programs?
    I don't believe so.
                                 ______
                                 
    Mr. Sablan. Thank you. Thank you very much, Ms. Marlow. 
Thank you, all of you, for your testimony.
    I am going to reserve the Chairman's time for his 
questions, but for now I would like to recognize the Ranking 
Member, Mr. Lamborn of Colorado, for his own questions.
    Mr. Lamborn. Thank you, Mr. Chairman. I will just jump 
right in and we will get going here. Mr. Palatiello?
    Mr. Palatiello. That is fine, but you can call me John.
    Mr. Lamborn. OK, John. What would you recommend that 
Congress do to improve Federal geospatial data management?
    Mr. Palatiello. You know, we have thought long and hard 
about this, Mr. Lamborn, and, quite frankly, over the years a 
number of studies have been done. I brought a couple of them 
with me today.
    This is a 1973 OMB report that called for the creation of a 
Federal Survey and Mapping Administration. This is a 1998 
National Academy of Public Administration report that called 
for the creation of a National Spatial Data Council.
    I think we have come to the conclusion, as at least my 
colleagues to the left and right indicated in their testimony, 
that while the very well-placed intentions of a lot of good 
folks in the Federal government are there, the current 
structure doesn't work, and we need to elevate the coordination 
of spatial data out of the Department of the Interior and into 
someplace like the Executive Office of the President.
    Someone who has carrots and has sticks and has the 
authority to make sure that there is coordination and that we 
avoid duplication and that we are making those investments in 
as strategic a manner a possible. So I think legislation would 
be necessary or a reorganization plan from the President.
    Mr. Lamborn. OK. Thank you.
    Now, Ms. Siderelis, you have heard some of those comments 
and you have heard discussion of the stovepipes and so on. What 
would be your perspective, and how do you think we could make 
the sharing between Federal agencies work better?
    Ms. Siderelis. Thank you for the question. I think the 
comments I provided earlier in my testimony with respect to 
what the Administration intends to do are the things that I 
think would make our situation better.
    And those include, and if I could repeat those, but maybe 
elucidate on them slightly, is that I think that we need to 
encourage innovation. As you well know, this Administration is 
very much about bringing technological innovation and 
innovation to our business processes and so I think that we 
have to look at the NSDI anew, in a different way, and be 
flexible and innovative in our approaches.
    I think we also need to continue our efforts toward 
ensuring broad and effective collaboration with our non-Federal 
partners in state and local government, and I think that is 
absolutely key to the success of the NSDI.
    We also need to leverage innovation and developments that 
have occurred both with our state partners and local government 
partners and with industry. We need to look at the NSDI as a 
National Spatial Data Infrastructure and work to leverage 
progress in all sectors.
    And, last, I would like to say that we think that focusing 
on performance is going to be a key to the success of the NSDI. 
As you are aware, the Senate just confirmed Jeffrey Zients as 
the government's first Chief Performance Officer and Deputy 
Director in the Office of Management and Budget. Mr. Zients 
will work with the Chief Information Officer in OMB, Vivek 
Kundra, and the Chief Technology Officer in OSTP, Aneesh 
Chopra, to improve the performance of the Federal government.
    As I said, this is our first CPO for the government and so 
we would look for these three individuals to work effectively 
with the FGDC to help improve the agency's performance.
    And there are many tools and mechanisms that we might use 
to manage government performance. I am going to share with you 
today that we intend to deploy a geospatial dashboard for 
making geospatial performance transparent to the public.
    It would be similar to the recently launched IT dashboard 
that provides the public an on-line window into Federal 
investments, and we are hoping to do a rapid deployment of a 
similar dashboard for monitoring and managing performance as 
well.
    Mr. Lamborn. OK. Thank you.
    Now, Mr. Byrne, with your experience with the State of 
California. Within California, what carrots and sticks do you 
have that maybe we could learn lessons from at the Federal 
level to prevent duplication and ensure the maximum efficiency 
of resources in taxpayer dollars?
    Mr. Byrne. Yes. Well, as I mentioned in testimony, my 
position is in the Office of the State Chief Information 
Officer, and the Office of the State Chief Information Officer 
has the authority over directing IT investments in the state, 
so clearly geospatial information has a very significant 
information technology component.
    We have a process called the feasibility study report 
process, and that process, aligned with our capital IT 
improvement plans, requires all departments to illustrate for 
us, the CIO, where they are going to invest capital 
improvements in IT.
    So we have authority over approving those plans, and those 
plans often incorporate data management issues like geospatial 
data. That is where our biggest carrot and stick opportunity 
come into play.
    Mr. Lamborn. OK. And, John, do you think that the stimulus 
bill is going to be wasting taxpayers' dollars because of 
duplicative mapping?
    Mr. Palatiello. Well, I can think of at least one instance, 
a couple of instances.
    Number one, we have a very deep concern about several 
procurements that we have seen in the last couple of days and, 
I guess, rumors at this point of further procurements where 
stimulus money is going to be used by Federal agencies to buy 
mapping equipment.
    That is going to increase unemployment because you have 
private companies that have already made the investment in that 
equipment struggling to keep people employed, and if the work 
for services, contracts for services, isn't coming out of the 
government to keep people employed or to create jobs in the 
services sector then those equipment purchases are actually 
going to have the opposite than desired effect.
    The second point with regard to stimulus that Ms. Marlow 
referenced, as well as I, in our statement is the broadband 
mapping.
    Mr. Lamborn. John, I see that my time is up. If there is 
going to be a second round, I would be happy to wait.
    Mr. Palatiello. OK. I understand.
    Mr. Lamborn. Yes. Since there is a good likelihood that we 
will have a second round of questioning, I will reserve the 
follow up and your follow up to that time. Thank you.
    Mr. Sablan. Thank you. Thank you, Mr. Lamborn. I will leave 
that decision to Mr. Costa. Chairman Costa will be here.
    I would like to recognize Ms. Tsongas of Massachusetts at 
this time.
    Ms. Tongas. Thank you all for your testimony, and I think 
my question would probably be directed to all of you.
    I have to say, much of what you are discussing is new to 
me, but we do have the example of a company like Google that 
all of us have come to depend on and use with great frequency, 
and I am curious as to your thoughts as to why--I have heard 
some indication, but why the Federal government has lagged so 
far behind.
    But, more importantly, is it even worth it for the Federal 
government to try to catch up or should we simply look to the 
resources and the expertise of private sector companies like 
Google?
    I don't know if you want to start.
    Mr. Byrne. I will go first. We refer to a company like 
Google as offering a presentation layer. It presents 
information to us. However, it is built mostly on government 
collected and managed data.
    So the National Spatial Data Infrastructure is an intent to 
build nationally recognized and integrated data. That includes 
several components. It requires a data component, the actual 
collection of the data, and government does that spectacularly 
well.
    It requires an IT component. It requires a human component. 
People actually have to be there managing information, 
understand how that information is developed and produced, and 
it requires a standards component. We have to have government 
developed standards.
    A company like Google and others have been able to be very 
successful because they can be elegant in presentation. They 
can take lots of that information and make it available to us 
in a very simple and easy-to-use form.
    It is not, however, a geographic information system. It 
doesn't provide the full analytical capability that we really 
need to develop policy decisions before they are made like the 
ones I quoted in my testimony.
    Mr. Palatiello. Ms. Tsongas, first of all I want to 
reiterate a point that Mr. Byrne made so that everyone on the 
Subcommittee understands.
    A lot of the imagery in Google is from the government. My 
organization is a great advocate of privatization. However, 
this is not really a question of do we just leave this to the 
private sector or do we leave this to the government. There has 
to be a partnership. There is a role for both, so it is not an 
either/or question.
    I think the great question is should government be the 
demand for geospatial data or should government be the supply 
of geospatial data, and we come down on the side of it ought to 
be part of the demand.
    It has real problems, whether it is the mortgage crisis or 
land management or climate change or health care services or 
building roads. The government needs the data, but when the 
government gets on the supply side of the data I think that is 
where it runs into difficulties.
    So I think there is a very strong difference between Google 
and the government. As Mr. Byrne indicated, I think Google 
serves a very important function as a visualization tool. I 
believe Google is moving toward on-line GIS, and I think they 
will do a lot of that integration.
    A lot of those data layers in the sandwich I think you are 
ultimately going to get from Google, and there is a certain 
level of GIS analysis that anyone will be able to do right on 
the web. I think we will see that in the next two to three 
years.
    I hope that helps answer your question.
    Ms. Tongas. Thank you.
    Ms. Marlow. One of the things that I would refer to that 
Michael referred to. In the community again we have a lot of 
nomenclature and a lot of our very specific verbiage, but one 
of the things that we refer to as the government data is 
authoritative data.
    So data that is created for decision making purposes for 
the government should be authoritative data, not necessarily 
the presentation data that Google or someone like Google has 
presented to the general public.
    So quite often the data that the government needs to make 
decisions is not the data that is available on Google because 
you really don't know where all those sources came from, so you 
really need authoritative data to make decisions on that at a 
government level.
    Ms. Tongas. Thank you all.
    Ms. Siderelis. I might just add in response to the question 
is it worth it for the government to try to catch up, and I 
would say that the government doesn't intend to catch up or 
compete, but leverage what we have learned from Google and the 
advancements that they have actually contributed to our Nation 
and take advantage of those advancements and the literacy that 
they have actually brought to our society by their success.
    Mr. Costa [presiding]. All right. Thank you very much.
    Why don't we begin with Mr. Sarbanes? We saw you earlier on 
the video. You did an excellent job.
    Mr. Sarbanes. Thank you.
    Mr. Costa. I didn't realize we were going to give you a 
cameo role, but now you actually have five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Well, as you 
gathered from my cameo in that thing, I am a map fiend, and any 
member of my staff will attest to that. I think I drive them 
crazy sometimes because I am trying to get every little piece 
of information that affects my life onto a map one way or the 
other.
    I have spent a lot of time focusing on these issues, and it 
is fascinating to hear where some of the issues are in terms of 
coordination so I am going to ask just a bunch of random 
questions here.
    First of all, you have alluded, a number of you, to the new 
Administration and its focus on technology and taking that to 
the next level. I am just curious. How optimistic are you that 
there will be a focus on this issue of geospatial mapping and 
analysis and so forth that will be new and different from what 
you have seen up to now and I gather has been frustrating to 
you?
    Maybe a quick answer on that would be good because I have 
some other ones.
    Mr. Byrne. Very. I point to in particular The Changing 
Landscape paper by the National Geospatial Advisory Committee, 
which at the end of it concludes for us to move forward we have 
to be innovative, and I think we are at that tipping point.
    Mr. Sarbanes. OK.
    Mr. Palatiello. I don't know if I am yet at the point of 
optimistic, but I am certainly at the point of hopeful.
    Ms. Marlow. Well, the wheels of government typically move 
very slowly, so maybe I am less optimistic probably as a small 
business owner.
    Even today, while we are very hopeful of seeing some of the 
effects of the stimulus, it is still a little bit slow in 
coming. I mean, I am definitely guardedly optimistic.
    Mr. Sarbanes. OK. There is a discussion in our Committee 
memo about a GAO finding that, despite the Circular, there were 
only 4 out of 17 agencies fully complying with the A-16 
Circular and that there were not sufficient incentives in place 
for agencies to do that.
    I was curious. Are there certain agencies that you regard 
as candidates to be as it were the lead agency or first among 
equals in terms of making sure this gets pushed forward? I 
would imagine, for example, like the Census Bureau and things 
like that would be ones that you would want to be on the 
forefront.
    Are there certain agencies that have kind of shown 
themselves to be leaders in this? If not, are there ones that 
you would give that responsibility to as a way of trying to 
help with this coordination effort?
    Again, anybody? Why don't we start there?
    Mr. Palatiello. I think the difficulty is, number one, that 
the current process is that first and foremost for any agency 
is its mission. That is what the employees were hired to do. 
That is what they are paid to do.
    Anything with regard to coordination under A-16 is 
secondary and it is pretty much voluntary so it becomes an 
afterthought, and that is why we have had these stovepipes 
created. So putting it in an operational agency, whether it is 
in USGS or in Census, I think doesn't work because of those 
biases and those priorities.
    I think that is what Mr. Byrne's experience is in 
California, and that is why his job is in the Office of the 
Chief Information Officer, which is part of the Executive 
Office of the Governor.
    Mr. Sarbanes. So this clearinghouse, this structure, this 
kind of super structure needs to be set up kind of next to or 
outside of, but connected to, the kind of agency configuration?
    Mr. Palatiello. That would be our view, sir. Yes, sir.
    Mr. Byrne. The coordination for sure.
    Mr. Sarbanes. Right.
    Mr. Byrne. There are specific departments that have 
business operations in framework data that make sense.
    Mr. Sarbanes. Right.
    Mr. Byrne. Like U.S. EPA clearly has jurisdiction from 
Clean Water Act over waterways, and they have done a 
spectacular job on the National Hydrography Dataset.
    Mr. Sarbanes. Let me ask you another quick question because 
my time is going to run out.
    There has been some discussion at Google, which is 
obviously a fascinating visioning tool for this geospatial 
presentation and so forth, but do you advocate partnerships 
between the government and entities like Google to speed up the 
goals that you have set forth here? If so, how does that work?
    Mr. Byrne. Yes, we do advocate partnerships, and in 
particular those partnerships in my mind have to be driven 
through local and regional and state government first, but 
there is clearly a role for private-sector partnerships in a 
number of things.
    We have developed some in California around particular 
mapping efforts, broadband in particular is one, but there 
clearly has to be partnerships amongst several opportunities, 
not just the private sector.
    Mr. Sarbanes. Thank you.
    Mr. Costa. Thank you, Mr. Sarbanes. I, too, have had a 
long-time interest in mapping, both historical mapping and 
present day mapping, so we share that.
    Mr. Lamborn for some comments or questions and then around 
to Mr. Holt and myself.
    Mr. Lamborn. Thank you, Mr. Chairman.
    John, we were talking when my time ran out earlier, so I 
appreciate this opportunity for another round. To clarify, 
first of all, you were about to make a second major point. If 
you could briefly make that, and then I will continue on.
    Mr. Palatiello. Thank you, Mr. Lamborn. The point is that 
the Congress provided $350 million for broadband mapping in the 
stimulus bill. One of the datasets that is going to need to be 
collected for that is address data, virtually address data on 
every American.
    The Census Bureau already has that data. They have 
collected that in something called MAF/TIGER. It is their 
database for the 2010 census. Census' position is that Title 
XIII--it is actually Section 9 of Title XIII--of the U.S. Code 
is the provision that assures the confidentiality of the Census 
data.
    But if you read that provision, that talks about the 
specific response that you or I or any citizen put on the 
Census form or give to the enumerator. The address data, and 
there is point data--there is what is called a centroid that is 
a location point on that address. It doesn't tell anything 
about you or me--or any other American-- other than a piece of 
property.
    So Census is withholding that address data from any other 
entity. You can't get it. I can't get it. Mr. Byrne can't get 
that data on the State of California. The USGS can't get it. So 
when the broadband program is implemented, they are not going 
to be able to access that Census data. They are going to spend 
money to collect it again.
    Mr. Lamborn. OK. Now, when we talk about the amount of 
money that the stimulus package--or I say the so-called 
stimulus--will be potentially wasting are we talking about 
millions, hundreds of millions or even into the billions?
    Mr. Palatiello. I think it is difficult to put a number on 
it, but I think there is certainly going to be tens of millions 
of dollars that will be spent under broadband mapping that will 
duplicate something that we already have.
    I think the examples that I gave before about agencies 
buying equipment to perform mapping activities in-house when 
there are private companies that already have that equipment 
and provide that capability in the marketplace, if you can 
quantify how much of that actually goes on by the agencies that 
is going to be in the millions of dollars as well, so we do 
have a concern in that area.
    Mr. Lamborn. OK. Thank you.
    Ms. Siderelis, I would like to ask you the question OMB and 
GAO were asked in the last congressional oversight hearing on 
geospatial activities in 2004. How much does the Federal 
government spend on geospatial activities?
    Ms. Siderelis. Yes, sir. I would like to answer that 
question, if I might, in three ways. First, as I said earlier, 
the Administration intends to focus on performance, and our 
metrics will be attentive to outcomes, not simply expenditures, 
so just one point.
    Second, we feel that as we saw in the video today that if 
the NSDI will be considered a success it will be when 
geospatial information and technology are really thoroughly 
embedded in the business practices of agencies and 
organizations and in some way access to the data is transparent 
and an assumed commodity.
    And so if you think about in our personal lives, we don't 
necessarily account for all of our expenditures, some that the 
Chairman described this morning that go into geospatial data. 
We use Google Maps and paper road maps to plan trips. We use 
navigation systems in our cars. We use globes and atlases to 
help our children with school projects. And so perhaps it is 
the same in the government that we would like to see geospatial 
part of the business of the government.
    But the last point I want to make is that we do know 
through analysis of some recent data calls, one through an OMB 
passback request, that for specific datasets that we have 
queried the Federal agencies in reporting requests that the 
Federal government planned to invest, directly or indirectly, 
through the period of 2007 to 2009, this three year period, 
about $1.89 billion in spatial data and services.
    This was not a complete reporting, but it is more 
information than we have known in the past, and then further 
analysis of these recent data calls actually was starting to 
show, based on the results of the data calls, that there is not 
as high a degree of redundant data investment. It was not 
readily apparent that there was as high a degree of redundancy 
as perhaps we might have imagined.
    Mr. Lamborn. OK. Thank you.
    Mr. Costa. OK. The gentleman from Colorado and I obviously 
have a different perspective on the stimulus package, but we do 
I think share a similar concern that the money be used and that 
we not be redundant.
    I am pleased to note that Earl Devaney, who served as the 
Auditor General in the previous Administration, has been 
selected by President Obama as the Chairman of the new Recovery 
Act Transparency and Accountability Board, so the Transparency 
and Accountability Board that will now be chaired by Earl 
Devaney, who I think has been respected on a bipartisan level, 
will try to ensure, and we will probably need to follow up with 
him on a letter to the issue of the redundancy and that monies, 
whether you supported the Stimulus Act or you didn't, 
nonetheless that those monies are spent to the most cost 
effective way possible.
    I will now recognize the gentleman from New Jersey, our 
colleague, Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and let me just add a 
comment. I think the issue here is not whether the Recovery Act 
is good or bad, but whether redundancy has existed in this 
program for years and years and whether the various agencies 
are actually working together under some sort of leadership to 
avoid redundancy.
    Let me ask a couple of questions, the first one having to 
do with the flow of data to and from state and local 
governments. There is some expertise and some data that are out 
in the states. How does that get to the Federal government? 
Does it get to the Federal government? Is it done in a useful 
way? Would the Federal government use those data if they got 
them?
    I am not sure who is best able to answer that question, so 
let me throw it open and ask you to choose among yourselves who 
should answer it.
    Mr. Byrne. Yes. So I will take a first cut at it. We do 
consume and produce data both ways. Probably the most current 
example of producing data from state to Federal that I am aware 
of and involved in is the HSIP program in the U.S. Department 
of Homeland Security.
    It was an effort to collect critical infrastructure data, 
and state government worked collaboratively with local 
government--in California we did anyway--to really define some 
of the key critical infrastructure locations, the locations of 
all the schools, all the hospitals, all of those key locations 
that we knew about that was provided to the Federal government 
and produced through a contractor so that Homeland Security 
would have an accurate picture nationwide of all that data.
    On the consumption side----
    Mr. Holt. I mean, did they say that it came in the right 
format? Did they have appropriate guidelines to give to you and 
to other states about----
    Mr. Byrne. I believe so.
    Mr. Holt.--what they could use and in what format it should 
be provided?
    Mr. Byrne. Yes. I am under the impression that that was a 
successful operation.
    On the consumption side, again we consume lots of the 
framework data. Probably the best one that we are involved with 
from Federal production to local includes the National 
Hydrography Dataset that I mentioned earlier as a program out 
of EPA.
    We have invested time in our own organization, the 
Department of Water Resources, to help steward that data so 
that it works both ways. We say we are the most knowledgeable 
about stream locations and stream flow in California, and there 
is a potential to make that transformation work both ways. It 
is working reasonably well.
    Mr. Holt. Would others care to add to that?
    Ms. Siderelis. I might add just one other example if I 
might and just to preface my example by saying that Michael 
Byrne referenced earlier the paper that was developed by the 
National Geospatial Advisory Committee entitled The Changing 
Landscape.
    And in that document and part of the testimony today we 
find that there really has been a dramatic shift over the last 
few years from the Federal government being the primary 
producer of data to much of the data being produced at 
different levels of the government and the Federal government 
becoming more of a consumer of data than provider.
    And so given that shift, it is incredibly important that we 
be able to take data from the state and local governments and 
use it in the Federal system as much as going the other way, 
and I would just like to give one example, one recent example, 
because I think it is partially a success story, and that is 
with the national wetland data layer that is overseen by the 
Fish and Wildlife Service and the Department of the Interior.
    They will make the point that only about a third of the 
data that has been added to that national dataset over the 
recent years has been from the Federal agency itself; that two-
thirds of the information is actually provided by state and 
local government.
    So that is a success in that we are working together to 
create a national dataset, and I think it is partly a testament 
to the benefits of standards that we have worked through in the 
Federal Geographic Data Committee that we have a standard that 
enables that data sharing.
    Mr. Holt. Let me get another question in--that they may 
have a short answer. Does the Geospatial Advisory Committee 
that you referenced and you have talked about today have broad 
enough representation?
    There were some comments in the past about whether the 
Federal Geographic Data Committee had enough representation 
from the private sector, from local governments and so forth. 
Has that been addressed? If it is not a short answer, maybe we 
will have to take that for the record.
    Mr. Palatiello. I think I can do it quickly. The NGAC and 
the FGDC are two entirely different entities. The FGDC is 
Federal only. The NGAC has two Federal members, but the rest is 
state, local, private, academia.
    I think it has a very good--I am a member, Mr. Byrne is a 
member--cross section of representation of non-Federal 
stakeholders, but we are only advisory, and FGDC is who makes 
the policy, and that is Federal only.
    Ms. Marlow. I would like to say something on behalf of 
state and local government because that is a lot of my client 
base.
    One of the issues at the state and local government is that 
if they don't get some type of carrot from the Federal 
government then they don't really want to have to roll up their 
data or create a standard that the feds may have created for 
them.
    And so especially as it relates to the property 
information, a lot of local governments, they are maintaining 
that data. They feel like that they are the ones who have made 
the investment in it and so there is a big divide in the parcel 
community about whether the data is free and publicly available 
or whether you should pay me for it because I collected it at a 
local level.
    Mr. Holt. Thank you.
    Mr. Costa. They view it as proprietary information.
    Ms. Marlow. Yes. They feel like they had----
    Mr. Costa. Even if it is a local public agency.
    Mr. Palatiello. Mr. Chairman, can I add something to that 
in response to Mr. Holt's question?
    Mr. Costa. If it is brief.
    Mr. Palatiello. First of all, there are 50 different 
answers to that question because there are 50 different states.
    Mr. Costa. That is not brief.
    [Laughter.]
    Mr. Costa. How about one of the 50 answers?
    Mr. Palatiello. Well, the point that I was making is that 
in some state law that data is permitted to be treated as 
proprietary by a state or a county, and they either have a cost 
recovery requirement so they have to charge for it, or in some 
states it is free, or in some states they actually copyright it 
and license it so it does vary.
    Mr. Costa. Thus 50 answers. It is obvious. Why didn't I 
think of that?
    Anyway, we have been joined by the Congresswoman from 
Wyoming, Congresswoman Lummis, and it is your turn for 
questions. Five minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Mr. Palatiello, can I ask you to clarify an earlier 
statement? It seems to me that when we talk about the stimulus 
bill and the Federal government buying mapping technology 
aren't we really talking about the government hiring employees 
that will then subsequently drive private small businesses out 
of business?
    Mr. Palatiello. That is our concern, and there has been a 
long history of that in the government. There is a lack of 
definition of roles and responsibilities.
    I have never heard a government employee say we intend to 
compete with the private sector. That is never their intent, 
but that is often the outcome of the way the Federal government 
tries to exercise what it perceives as its role is that it ends 
up competing with and duplicating the private sector.
    Mrs. Lummis. At one point I was the Director of State Lands 
in Wyoming, and inventory, Mr. Chairman, was always an issue 
that we spent time on too.
    Mr. Costa. Would the gentlewoman yield as a follow up to 
your point?
    Mrs. Lummis. I will yield.
    Mr. Costa. Mr. Palatiello, could you provide an example 
where the Federal government has duplicated work that the 
private sector has done and some cases where it would make 
sense to provide some framework in terms of public/private 
partnerships?
    Mr. Palatiello. Well, I will give you two examples to 
illustrate two different types of ways in which the government 
competes with the private sector.
    One is a company either in or certainly has employees 
living in Mr. Lamborn's district in our membership that is 
flying elevation data of the entire United States. They were 
contracted by the insurance industry in the U.K. and flew the 
entirety of the U.K. and then sold a license to that data. They 
are now trying to replicate that with a project they call 
NEXTMap. It is a company called Intermap Technologies just 
south of Denver.
    They are selling a license to the data, and the government 
has been very reluctant to buy that and therefore going out and 
collecting its own simply because Intermap is selling a license 
to their data and not just willing to turn it over to the 
government for unlimited reproduction or distribution.
    Mr. Costa. But this is proprietary information that this 
company has developed? They haven't taken information that the 
government had paid for?
    Mr. Palatiello. That is correct. That is correct. They are 
doing it on their own.
    Mr. Costa. I will yield back. I am sorry, but I thought it 
would be nice to have an example.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I also have a question for Ms. Marlow. As I was saying, I 
had been Director of State Lands in Wyoming. We have 3.8 
million acres of surface, and even we were struggling with the 
costs of doing an inventory of state lands that are 
intermingled among Federal lands and private lands.
    My question is this. Is a single, current, accurate 
inventory of the land owned by the Department of the Interior 
or land owned by the Federal government feasible from a 
technology standpoint?
    Ms. Marlow. Absolutely from a technology standpoint it is 
feasible. I think that we have proved that in many, many 
instances.
    The State of Tennessee is an obvious example of that--the 
entire state is mapped to one single standard--so it is 
definitely feasible technically.
    Mrs. Lummis. OK. Mr. Chairman, those are the only questions 
I have. Thank you.
    Mr. Costa. I thank the gentlewoman, and it is good to have 
you here.
    I am going to, since I really didn't get a chance to ask 
any questions, try to hit on a few here, and then we will go to 
the next panel and have our colleague, Congresswoman Herseth 
Sandlin, talk about her bill and we will go from there.
    Quickly here, Mr. Byrne, you recommended that Congress lift 
Title XIII restrictions on the Census Bureau giving out its 
address data. Do you think if that happens that we are still 
going to be able to protect the issue of privacy?
    Mr. Byrne. I do indeed. You know, what I recommended in my 
written testimony is that the address data and the XY location, 
the actual doorstop or centroid as Mr. Palatiello recommended, 
be released.
    And in no way does that infringe on the full other set of 
records or fields identified in Title XIII, the tomography and 
economics that are collected there, so just the address and the 
location would be very useful to a whole suite of other data 
and wouldn't infringe on privacy.
    Mr. Costa. All right. I love the whole technology and the 
gathering that has come, but I think part of the issue of 
redundancy and trying to figure out what the appropriate roles 
are between the private sector and the public sector, whether 
we are talking about at the Federal level or at the state level 
or local, is what a completed National Spatial Data 
Infrastructure looks like.
    I mean, all in your heads, and we had the nice video and 
stuff, but what would a national data infrastructure for 
spatial data--can any of you describe it to me so that we can 
make maybe some distinctions what is the appropriate role of 
the public sector and what is the appropriate role of the 
entrepreneur, the private sector?
    Who wants to take a first crack at that?
    Mr. Palatiello. First of all, an NSDI would not be a static 
thing. It would be something very dynamic over time.
    The landscape of the Nation changes virtually every day. 
Every time a new house is built, every time a subdivision is 
created, every time a road is built the map changes, so it is 
not do it once and then check the box and move on to something 
else.
    Mr. Costa. Every time a flood changes the course of a 
river?
    Mr. Palatiello. Absolutely. Absolutely.
    Mr. Costa. A forest fire.
    Mr. Palatiello. So when we have a dataset that is current, 
however you define currency--in terms of temporal resolution, 
in terms of accessibility--then we will have a National Spatial 
Data Infrastructure.
    Mr. Costa. Does anyone else want to----
    Mr. Byrne. I agree with John.
    Mr. Costa.--describe what success would look like?
    Mr. Byrne. I agree with John. I think there are again I 
mentioned four components--data, IT, people and standards.
    And where I see it being successful is when my son, who is 
seven, is in my position or your position. He has a laptop open 
and has the ability to dynamically query all that data prior to 
the policy decision. That is when I think we have an NSDI.
    Mr. Costa. Ms. Siderelis?
    Ms. Siderelis. Well, I share the opinions of my colleagues 
here, but I also think that we will be successful when the 
geospatial information is an assumed commodity. It is just 
built into the way we make our decisions, the way we run our 
agencies, and in some ways it is just totally transparent, that 
there is a whole back end of professionals and standards and 
infrastructure supporting the NSDI and a research agenda.
    And so I think it really will be beyond where we are today 
in terms of an operational capacity. The data will be there at 
our fingertips. It can be assumed to be of high quality and 
relevant to a whole range of decisions that need to be made.
    Mr. Costa. A follow up on that again dealing with the issue 
of the redundancy.
    There are a lot of different Federal mapping programs that 
we are aware of that are out there. Often times the difference 
between them is not very clear. How does the Imagery for the 
Nation differ from the National Map, and how do they both 
differ from the National Agricultural Imagery Program that we 
support with USDA?
    If we map the whole Nation, doesn't that also include 
imagery? This is a layperson asking. And would it automatically 
cover agricultural areas?
    Ms. Siderelis. I will take a shot at that if I might. So if 
we think about how it all fits together, at the broadest level 
we are talking about the National Spatial Data Infrastructure, 
so the overarching framework for building out spatial data for 
the country.
    As Mr. Byrne said, there are different elements of the 
NSDI. Part of that is data. Part of it is technology. Part of 
it is process and standards. But if we focus just on the data 
of the National Spatial Data Infrastructure there are a number 
of different data layers that we saw in the graphics and in the 
video that are pulled together for the National Spatial Data 
Infrastructure, and part of those are basic foundational 
datasets that underpin all of the other data--framework data.
    The National Map is an effort to pull together for the 
country that basic framework data in a unified and integrated 
kind of way, and the National Map, this base data, includes 
just basic datasets such as the streams and water bodies, the 
transportation networks, imagery and political boundaries and 
other basic framework datasets. So that would be the National 
Map. As I said, imagery is a part. It is one of those layers in 
the National Map.
    We have several programs across the country that are 
contributing imagery into this basic National Spatial Data 
Infrastructure. We could talk for hours about imagery alone and 
the whole portfolio of imagery assets that the Nation has, but 
two of our programs in the Federal government that are geared 
toward high resolution imagery so that we could see a 
resolution of about a foot or a meter on the ground are being 
bundled together in what we call Imagery for the Nation.
    And the goal of Imagery for the Nation is to create a 
program of imagery, high resolution imagery that we develop on 
an ongoing cyclical basis so that in Wyoming you can predict 
that in this period of time you would refresh your data and 
that we would do this in collaboration across the Federal 
agencies.
    IFTN is being built on, is being formed around and 
combining the efforts of the National Agricultural Imagery 
Program, the NAIP program.
    Mr. Costa. So you would be collaborating with the USDA in 
that instance?
    Ms. Siderelis. The idea would be that we would be working 
together from Agriculture and Interior programs, working with 
the other Federal agencies to build out a sustainable, 
predictable program of high resolution imagery for the country, 
so it would be across the----
    Mr. Costa. That is a good idea, but to what degree is the 
collaboration taking place?
    Ms. Siderelis. Well, I think, Mr. Chairman, on Imagery for 
the Nation that is probably the one thing that there is the 
most consensus on in our community that it is technologically 
feasible that you had asked, that there is a common 
understanding of the need.
    We worked on a draft plan for how we host that data, the 
technical plan of how we put together what areas of the country 
we might cover at what resolutions. We have worked on 
mechanisms for contracting and so forth, so I think that it is 
a feasible plan that we are putting a lot of effort into at the 
moment.
    Mr. Costa. More to follow?
    Ms. Siderelis. I hope so if we can help it.
    Mr. Costa. Yes. I want to thank all the members of the 
panel here. There are I think probably a number of questions 
certainly that I have, maybe other Members have, that we will 
submit to the panel folks.
    We would like you to respond as expeditiously as you can. 
Ten working days is what we usually allow for timely response 
back to those questions that we weren't able to ask this 
morning.
    And now let us begin moving to our next panel. This is the 
two-fer where we will have a legislative hearing on H.R. 2489, 
otherwise known as AmericaView, the Geospatial Imagery Mapping 
Program Act.
    The Subcommittee will now recess.
    [Whereupon, at 11:41 a.m. the Subcommittee proceeded to 
other business.]

                                 <all>
                                     



  LEGISLATIVE HEARING ON H.R. 2489, ``AMERICAVIEW GEOSPATIAL IMAGERY 
                       MAPPING   PROGRAM   ACT.''

                              ----------                              


                        Thursday, July 23, 2009

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:41 a.m. in 
Room 1324, Longworth House Office Building, Hon. Jim Costa 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Costa, Lamborn, Holt, Sablan, 
Sarbanes, Tsongas and Lummis.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. The Subcommittee on Energy and Mineral Resources 
will now come to order for the purpose of hearing H.R. 2489.
    We are joined by our colleague, the Congresswoman from 
South Dakota, Stephanie Herseth Sandlin, who does an excellent 
job in so many areas. This is an issue that she has had a keen 
interest in for some time now, and we are pleased that she has 
joined us.
    H.R. 2489, as the members of the new panel are coming 
before us, this is a bill that would authorize the AmericaView 
program for the U.S. Geological Survey specifically. We have 
just heard about the need for special coordination on Federal 
geospatial data activities in general. This measure, H.R. 2489, 
lets us examine one specific way in which the Federal agency is 
expanding the use of some of the geospatial information data it 
collects.
    AmericaView is a program that the U.S. Geological Survey 
has been involved in for decades. It is a core program of the 
U.S. Geological Survey in maintaining the vast archive of 
satellite imagery that has been developed by USGS.
    Through AmericaView, it provides that data about the earth. 
It also provides information that allows state partnerships, 
typically with colleges and universities. There is a specific 
example that I know that our colleague, Stephanie Herseth 
Sandlin, will describe to us at an appropriate time.
    The state partners, in turn, provide training and 
technology to help all sorts of people, from farmers to 
resource managers, to use remote sensing information to answer 
policy and management questions. For example, what fields 
should be irrigated? What can images and maps determine based 
upon soil, moisture, and composition?
    And so I am looking forward to hearing more about H.R. 
2489, which in a nutshell, as we like to say, cuts to the 
bottom line, directs the Secretary of the Interior to advance 
the availability and distribution of this geospatial imagery 
through the AmericaView program.
    So I am sure that the witnesses that we have here that hail 
from three different states that are partners with the 
AmericaView program can tell us about the impact of this 
legislation within their state, and I want to thank the 
witnesses for being here.
    I will recognize the Ranking Member, the gentleman from 
Colorado, for an opening statement.
    [The prepared statement of Mr. Costa on H.R 2489 follows:]

            Statement of The Honorable Jim Costa, Chairman, 
       Subcommittee on Energy and Mineral Resources, on H.R. 2489

    We will turn now to H.R. 2489. This bill would authorize the 
AmericaView Program at the U.S. Geological Survey. We have just heard 
about the need for better coordination on federal geospatial data 
activities in general. H.R. 2489 lets us examine one specific way in 
which a federal agency is expanding the use of some of the geospatial 
information it collects.
    AmericaView is a program that USGS has been involved in for about a 
decade. A core program of the USGS is maintaining a vast archive of 
satellite imagery. Through AmericaView, USGS provides that satellite 
data about the earth, along with grants, to state partners--typically 
colleges or universities. Those state partners, in turn, provide 
training and technology to help all sorts of people, from farmers to 
resource managers, use that ``remote sensing'' information to answer 
policy and management questions. For example, what fields should be 
irrigated? What can the images and maps tell an agency about how to 
plan for wildfires?
    The program also helps students of all ages learn how to work with 
mapping technologies and satellite images. For example, in California, 
state partners in AmericaView are developing a remote sensing 
certificate program to enable community colleges to certify geospatial 
mapping technicians. As an added bonus, this certificate program can be 
used by AmericaView partners in all states.
    I look forward to learning more about H.R. 2489, which--in a 
nutshell--directs the Secretary of the Interior to advance the 
availability, distribution, and use of geospatial imagery through its 
AmericaView Program. I am sure the USGS, and the witnesses who hail 
from three different state ``partner'' programs with AmericaView, can 
tell us what impact this legislation could have on the ground.
                                 ______
                                 

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for holding 
this important hearing.
    Today we are going to hear about the AmericaView Geospatial 
Imagery Mapping Program Act, H.R. 2489, introduced by our 
colleague from South Dakota, Representative Stephanie Herseth 
Sandlin. I appreciate the chance to learn more about the 
AmericaView program and the legislation before us.
    While I won't reiterate the history of the AmericaView 
program, I would point out that we are examining a program that 
was started by the Appropriations Committee through an earmark. 
Since its inception without authorizing legislation, the 
program has received more than $30 million.
    Regardless of how worthy a program may be, I believe that 
the authorizing committee of jurisdiction should be responsible 
for establishing Federal programs, not the Appropriations 
Committee, and that is one reason I am happy that we are here 
today to discuss the long overdue authorization of this 
program.
    There are a number of questions I will have about it and 
the legislation we are considering, and I am looking forward to 
hearing from the witnesses.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Laamborn on H.R 2489 
follows:]

     Statement of The Honorable Doug Lamborn, Ranking Republican, 
       Subcommittee on Energy and Mineral Resources, on H.R. 2489

    Thank you, Mr. Chairman, for holding this important hearing. Today 
we are going to examine the AmericaView Geospatial Imagery Mapping 
Program Act (H.R. 2489) introduced by our colleague from South Dakota. 
I appreciate this hearing and the chance to examine the AmericaView 
program and the legislation before us.
    While I won't reiterate the history of the AmericaView program, I 
would point out that we are here examining a program started by the 
Appropriations Committee through an earmark. Since its inception 
without Authorization the program has received more than $30 million 
dollars. Regardless of how worthy a program may be, I believe that the 
Authorization committee should have a strong oversight role over 
federal programs and that is one reason why I am happy that we are here 
today to address the long overdue authorization of this program.
    There are a number of questions I will have about this program and 
the legislation we are considering and I am looking forward to hearing 
from the witnesses.

                                 # # #

    As we hear the witnesses' testimony, I hope they will address what 
the actual cost of this legislation may be, since it authorizes ``such 
sums'' are we approving $10 million, $50 million, $100 million or more 
annually for this program?
    Does this program require a cost share from the state partners and 
if so should we require those cost sharing provisions in the 
legislation?
                                 ______
                                 
    Mr. Costa. Thank you, my friend and colleague from 
Colorado.
    I would now like to recognize our colleague who has 
introduced this legislation from South Dakota, Stephanie 
Herseth Sandlin, who we are very appreciative can be here this 
morning to give us a description as to why this legislation is 
important.

 STATEMENT OF HON. STEPHANIE HERSETH SANDLIN, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth Sandlin. Well, thank you, Mr. Chairman. I thank 
you and the Ranking Member for holding today's hearing on 
Federal geospatial data management and today's legislative 
hearing on my bill, H.R. 2489, the AmericaView Geospatial 
Imagery Mapping Program Act.
    As you heard from the first portion of today's hearing, the 
Federal government has invested billions of taxpayer dollars to 
collect vast amounts of geospatial data. My bill would 
facilitate the ability for the private and public sectors to 
more fully utilize geospatial imagery resources.
    The purpose of the AmericaView program is to advance the 
availability, the distribution and the widespread use of 
geospatial imagery for education, research and monitoring. 
Since its inception nearly a decade ago, the AmericaView 
Consortium has partnered with the USGS to increase the 
accessibility of remote sensing data by the public and private 
sectors within each member state. H.R. 2489 would authorize the 
AmericaView program for five years.
    As it is designed, the StateViews that belong to the 
AmericaView Consortium have the flexibility to offer 
educational programs and other resources designed to meet the 
needs of stakeholders in their state. At the same time, because 
the AmericaView Consortium is a nationwide program, the 
Consortium is able to facilitate the sharing of ideas among 
StateViews.
    H.R. 2489 is important because AmericaView serves a unique 
role in ensuring that geospatial imagery and related resources 
are available to educators. There has been an effort to expand 
resources in South Dakota through K-16 educators, to local, 
state and tribal governments--in South Dakota there are nine 
sovereign Sioux tribes--to researchers and to other possible 
stakeholders. So, by authorizing this partnership, we would 
recognize and strengthen the important function that 
AmericaView provides to communities throughout the country.
    I also would like to take a moment to welcome one of my 
constituents, Mary O'Neill, the Principal Investigator for 
South Dakota View. Ms. O'Neill has been involved in a variety 
of applied research, development and outreach programs for the 
past 37 years.
    In addition to her role as Principal Investigator for South 
Dakota View, she is the Manager of the Office of Remote Sensing 
within the Engineering Resource Center at South Dakota State 
University.
    I am confident that Ms. O'Neill's testimony, based on her 
years of involvement with the AmericaView Consortium, coupled 
with the wide array of activities she has spearheaded as the 
Principal Investigator for South Dakota View, will contribute 
significantly to today's hearing.
    Again, thank you, Mr. Chairman, for holding today's 
hearing. I appreciate your interest in Federal geospatial data 
management and H.R. 2489, and I look forward to working with 
you and all of our colleagues here on the Subcommittee to 
secure passage in the House on this important legislation.
    Thank you.
    Mr. Costa. Thank you, and thank you for your excellent 
testimony and all the good work that you do.
    We welcome all of the panel members, including the 
constituent of yours who is obviously going to provide 
testimony now.
    I have been informed that we are going to have votes here 
within the next 15 minutes, so let us try to see how quickly we 
can get through our panel members here. There are four to five 
votes that are being advertised, so we will use that to allow 
our panel members to have an opportunity to have a little lunch 
break because once we go for that series of votes it will be 
probably about 45 minutes before we are able to return.
    So with that said, we have Ms. Suzette Kimball, Acting 
Director for the U.S. Geological Survey; Ms. Rebecca Dodge, the 
Associate Professor of the Department of Geosciences from 
Midwestern State University; Ms. Mary O'Neill, who has already 
been introduced, who is the Principal Investigator for South 
Dakota View and Manager of the Office of Remote Sensing for 
South Dakota State University; and Mr. Sam Batzli--is that 
right, Batzli--the WisconsinView Director and Geospatial 
Information Scientist at the Space Science Center for the 
Engineering School of the University of Wisconsin, Madison. 
That is important. I didn't want to leave that out.
    Anyhow, let us begin with Ms. Kimball, Acting Director for 
U.S. Geological Survey. You know the rules I think. It is five 
minutes. The green light is on for four. Yellow means you have 
a minute left, and the red light means you are in trouble if 
you are still speaking.
    So thank you very much. Ms. Kimball.

    STATEMENT OF SUZETTE M. KIMBALL, ACTING DIRECTOR, U.S. 
                       GEOLOGICAL SURVEY

    Ms. Kimball. Good morning, Mr. Chairman and Members of the 
Subcommittee. My name is Suzette Kimball. I am the Acting 
Director of the U.S. Geological Survey.
    Mr. Costa. A little closer into the mic? There you go.
    Ms. Kimball. Yes, sir.
    Mr. Costa. We want to hear you.
    Ms. Kimball. All right. Thank you very much for providing 
me with this opportunity to speak to H.R. 2489, the AmericaView 
Geospatial Imagery Mapping Program Act.
    The Department of the Interior supports the goals of the 
AmericaView program, although it does not believe as a 
Department that further legislative authority is necessary to 
meet these goals and objectives. However, if legislation is 
discussed, we would very much appreciate the opportunity to 
consult with the Committee on appropriate language.
    In this testimony I will provide a brief overview of 
AmericaView from the Federal government's perspective. Then I 
will address the role that AmericaView plays in advancing the 
Department of the Interior and Federal government goals.
    In 1998, the U.S. Geological Survey received appropriated 
funds to demonstrate the technology and capability for high 
speed processing and delivery of satellite data among academia 
and public agencies in the State of Ohio.
    This OhioView prototype, a university-led consortium in the 
State of Ohio consisting of 10 research universities 
distributed across the state, was intended to facilitate and 
expand the use of Landsat satellite data and imagery from other 
earth observing satellites, including NASA satellites.
    The OhioView Consortium in turn established computer 
systems and network infrastructure to redistribute the 
satellite data to member institutions and to also make it 
available to Ohio citizens. The goal of the USGS was to 
establish this prototype as a pilot for a nationwide program.
    The prototype with OhioView created a rapid data delivery 
infrastructure at the USGS Earth Resources Observation and 
Science Center, known as EROS, that was capable of near real-
time data distribution of satellite data. It also reduced the 
cost of acquiring imagery to the OhioView Consortium members, 
in turn facilitating access to USGS data products and 
encouraging their widespread use.
    It developed a multi-sensor reception capability at the 
EROS Center. Perhaps most important, it grew the OhioView 
Consortium to include additional university participants, 
including several minority participants, thereby expanding the 
research and education community that was able to access 
remotely sensed data, in turn facilitating the development of a 
broad-based user constituency.
    In 2000, Congress determined that the single state 
prototype was well positioned to begin fulfilling the vision 
for a nationwide program. Accordingly, in Fiscal Year 2000 
appropriations language for the Department of the Interior, 
Congress instructed the USGS to pursue a national concept, 
initially entitled Gateway to the Earth, based on the ongoing 
OhioView prototype.
    In 2001, Gateway to Earth, renamed AmericaView, remained a 
fairly loose concept in which informal gatherings of interested 
parties briefed each other on local developments. Initiatives 
were then established in other states, such as South Dakota, 
Alaska and Texas.
    Since 2002, AmericaView has continued to emerge from its 
status as a USGS prototype project. Its members have worked 
intensively with the USGS to develop AmericaView into an 
independent organization capable of partnering with not only 
the USGS, but other Federal agencies in support of mutually 
beneficial goals and objectives.
    Today there are more than 35 states with hundreds of 
members actively participating in a national program dedicated 
to expanding access to and uses of our nation's earth 
observation satellite assets for education, research, hazards 
monitoring and natural resources management. Other Federal 
agencies have also benefitted from this investment in 
AmericaView.
    Some of the benefits that AmericaView has provided to USGS 
and the Federal government include a partnership supporting our 
USGS mission to serve the Nation by providing reliable 
scientific information to describe and understand the earth; 
minimize loss of life and property from natural disasters; 
manage water, biological, energy and mineral resources; and 
enhance and protect our quality of life.
    The AmericaView Consortium also supports the National 
Research Council's recommendation from its 2007 report, which 
stated that the USGS should pursue innovative approaches to 
educate and train scientists and users of earth observations 
and applications.
    It has provided that network of state partners to enhance 
the science of remote sensing and data sharing, accomplished 
needed research in the earth sciences and supplemented the USGS 
capability to deliver data to a growing user community.
    Based in part on the suggestions that we received from the 
AmericaView members, the USGS has improved its computer systems 
and network infrastructure and its ability to meet our 
customers' needs. These enhancements have facilitated the web 
enabling of the entire Landsat archive.
    The USGS and the Nation have benefitted from the research 
that has been performed by the AmericaView members and from the 
students that have been educated by AmericaView not just in the 
field of remote sensing, but in science and engineering fields 
as well. It has been a highly successful partnership from which 
the USGS, AmericaView members and the American public have all 
benefitted.
    This concludes my statement this morning, Mr. Chairman. I 
will be happy to answer any questions as the testimony 
proceeds. Thank you.
    [The prepared statement of Ms. Kimball follows:]

   Statement of Suzette M. Kimball, Acting Director, U.S. Geological 
                Survey, U.S. Department of the Interior

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Suzette Kimball, and I am the Acting Director of the U.S. Geological 
Survey. Thank you for providing me the opportunity to testify on H.R. 
2489, the AmericaView Geospatial Imagery Mapping Program Act. The 
Department supports the goals of the AmericaView program, but does not 
believe further legislative authority is necessary to meet these goals 
and objectives. If further legislation is discussed, we would like the 
opportunity to consult with the committee on appropriate legislation.
    I will provide a brief history of AmericaView from the Federal 
Government's perspective. Then I will address the role that AmericaView 
plays in advancing the Department of the Interior and the Federal 
Government goals. Finally, I will provide a few comments on the Act 
itself.
    In 1998, the U.S. Geological Survey (USGS) received appropriated 
funds to demonstrate the technology and capability for high speed 
processing and delivery of satellite data among academia and public 
agencies in the State of Ohio. This ``OhioView'' prototype, a 
University-led consortium in the State of Ohio consisting of 10 
research universities distributed across the state, was intended to 
facilitate and expand the use of Landsat satellite data and imagery 
from other earth observing satellites, including NASA satellites. The 
OhioView Consortium, in turn, established computer systems and network 
infrastructure to redistribute the satellite data to member 
institutions and also make it available to Ohio citizens. The goal of 
the USGS was to establish the prototype as a pilot for a nationwide 
program.
    This prototype with OhioView created a rapid data delivery 
infrastructure at the USGS Earth Resources Observation and Science 
(EROS) Center, capable of near real-time data distribution of satellite 
data and it reduced the costs of acquiring imagery to the OhioView 
Consortium members, in turn facilitating access to USGS data products 
and encouraging their widespread use. It developed a multi-sensor 
reception capability at the EROS Center. Perhaps most important, it 
grew the OhioView Consortium to include additional university 
participants, including several minority participants, thereby 
expanding the research and education community able to access remotely 
sensed data and in turn facilitating the development of a broad-based 
user constituency within the State of Ohio.
    In 2000, Congress determined that the single-state prototype was 
well positioned to begin fulfilling the vision for a nationwide 
program. Accordingly, in FY 2000 appropriations language for the 
Department of the Interior, Congress instructed the USGS to pursue a 
national concept initially entitled ``Gateway to Earth,'' based on the 
ongoing OhioView prototype. In 2001, ``Gateway to Earth''--renamed 
``AmericaView''--remained a fairly loose concept in which informal 
gatherings of interested parties briefed each other on local 
developments that utilized the OhioView model. Initiatives were 
established in other states, such as South Dakota, Alaska and Texas.
    Since 2002, AmericaView has continued to emerge from its status as 
a USGS prototype project. Its members have worked intensively with the 
USGS to develop AmericaView into an independent organization capable of 
partnering with the USGS and other Federal agencies in support of 
mutually beneficial goals and objectives. Today, there are more than 35 
states with hundreds of members actively participating in a national 
program dedicated to expanding access to and uses of our Nation's Earth 
observation satellite assets for education, research, hazards 
monitoring, and natural resources management. Other Federal agencies, 
such as the Bureau of Land Management and the U.S. Forest Service, as 
well as state agencies have benefited from the investment in 
AmericaView.
    Now I will address some of the benefits that AmericaView has 
provided to the USGS and the Federal Government. The USGS-AmericaView 
partnership supports the USGS mission to serve the Nation by providing 
reliable scientific information to describe and understand the Earth; 
minimize loss of life and property from natural disasters; manage 
water, biological, energy, and mineral resources; and enhance and 
protect our quality of life. The AmericaView Consortium also supports 
the National Research Council's recommendation from its 2007 report 
entitled ``Earth Science and Applications from Space: National 
Imperatives for the Next Decade and Beyond'' that the USGS should 
``...pursue innovative approaches to educate and train scientists and 
users of Earth observations and applications.'' It has provided a 
network of State partners for enhancing the science of remote sensing 
and data sharing, accomplished needed research in the Earth sciences, 
and supplemented the USGS capability to deliver data to a growing user 
community.
    Based in part on the suggestions the USGS received from the 
AmericaView members, the USGS has improved its computer systems and 
network infrastructure and its ability to meet our customers' needs. 
These enhancements facilitated the web enabling of the entire Landsat 
archive. The USGS and the Nation have benefited from the research that 
has been performed by the AmericaView members and from the students 
that have been educated by the AmericaView members, not just in the 
field of remote sensing but in the science and engineering fields as 
well. It has been a highly successful partnership from which the USGS, 
AmericaView members, and the American public have all benefited.
    The USGS Fiscal Year 2009 budget included $1 million for 
competitive grants awarded to AmericaView members. The USGS Fiscal Year 
2010 budget justification for Land Remote Sensing maintains the funding 
level of $1 million to continue these competitive grants for national 
education outreach and research activity.
    The USGS Science Strategy emphasizes societal benefits--namely, 
better understanding of the role of the environment on human health, 
understanding ecosystems and the effects of ecosystem change, 
quantifying and forecasting the Nation's freshwater resources, and risk 
assessment due to natural hazards. AmericaView achieves this goal 
across the Nation by educating large sectors of the population across 
States and territories and leveraging assets for research issues that 
affect pressing issues on our society. The USGS is continually 
increasing the breadth and volume of geospatial imagery available to 
the public for education, research, assessment, and monitoring at the 
State level. It is essential that our future workforce has a firm 
foundation in the Earth sciences and the role that historic and present 
day remote sensing data and technology has on effective decision-
making.
    This concludes my statement, Mr. Chairman. I will be happy to 
answer any questions you and other members may have. I appreciate this 
opportunity to testify before you and this Subcommittee.
                                 ______
                                 

     Response to questions submitted for the record by Ms. Kimball

Questions from Chairman Jim Costa from the State of California
1.  Please provide details on AmericaView's funding by year since the 
        program's inception. Also, please provide an estimate of the 
        amount and percentage of annual funding which USGS passes on to 
        StateView programs.
    Answer: The historical funding of today's USGS AmericaView (AV) 
program began as an earmark included in the USGS FY 1998 appropriation 
of $3 million for an OhioView initiative to develop a capability to 
process and deliver Landsat 7 data in near real-time to the State. 
Funding for the OhioView project continued through FY 2000 at the $3 
million level. In FY 2001, funds were specifically earmarked for the 
Texas Natural Resources Information System ($0.2 million), the 
Mississippi Space Commerce Initiative ($0.15 million), the California 
Land Science Information Partnership ($0.2 million), and the National 
Interagency Fire Center ($0.2 million) in an effort to transition from 
a pilot project into a national program. In FY 2002, USGS awarded 
competitive grants to 10 individual State educational institutions/
organizations to continue efforts in delivering satellite data to meet 
State needs. The FY 2003 appropriation again earmarked funds for the 
USGS AmericaView project.
    The table shows the USGS funds appropriated for the AmericaView 
program by fiscal year, the amount available to AmericaView, the number 
of StateViews receiving AV funds, and the amount each StateView 
received. Prior to FY 2007, a portion of these funds were used to 
support infrastructure augmentation at EROS to improve data delivery 
and provide customer support to StateViews for products and services.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

2.  H.R. 2489 refers to an ``AmericaView Program'' as well as the 
        ``AmericaView Project'' and once simply to ``AmericaView.'' Can 
        you help clarify the definitions of each of these entities, and 
        which entity, particularly the Department of the Interior, is 
        responsible for what activities?
    Answer: H.R. 2489 sets forth a framework that reflects the 
management of the AmericaView program in existence today.
    AmericaView is a 501(c)(3) non-profit corporation established under 
the laws of the Commonwealth of Virginia. AmericaView, Inc. manages a 
national consortium of universities located in the States that possess 
communications networks, facilities, and capabilities for acquiring and 
sharing remotely sensed data with users and among themselves. The 
AmericaView Consortium, as it is known, works to ``help the university, 
secondary-education, and public sectors in each State identify, 
develop, and distribute the kinds of applications each State needs 
most.'' (See http://www.americaview.org/about.htm.) AmericaView 
Consortium universities are grouped into StateView affiliates of 
AmericaView, Inc.
    The USGS AmericaView program as described in H.R. 2489 refers to a 
federal satellite imagery program activity within the Discipline of 
Geography at the USGS. The program is dedicated to working with 
AmericaView, Inc. to fulfill the objectives of the Department of the 
Interior in promoting the use of land imagery to better achieve the 
goals of the Department in land and natural resource management. This 
program is managed in concert with the USGS operation of the Landsat 
satellites and their archival records. Under P.L. 102-555 Land Remote 
Sensing Policy Act of 1992, the USGS is charged with archiving and 
distributing Landsat data to all ``civilian, national security, 
commercial, and international'' users. The Department of the Interior 
funds the program as part of the program management responsibilities 
assigned to the Department under P.L. 102-555 and PDD/NSTC-3 Amendment 
to Landsat Remote Sensing Strategy, 2000.
    The USGS AmericaView project as described in H.R. 2489 is the USGS 
image processing and distribution, science, and data archive activity 
managed by the Center for Earth Resources Observation and Science 
(EROS). EROS provides technical coordination and support for the 
implementation of the AmericaView program.
    Under H.R. 2489, these roles would continue, although the USGS may 
award multiple grants to AmericaView affiliates rather than a single 
grant as is performed today.
3.  H.R. 2489 proposes an extensive list of activities for the 
        Secretary of the Interior to undertake ``acting through the 
        AmericaView Program.'' The list includes expanding the number 
        of mapping courses, expanding mapping research, building 
        partnerships, and developing mapping standards. How do the 
        specific responsibilities proposed for USGS in H.R. 2489 
        compare to the kinds of activities USGS currently undertakes 
        through AmericaView? Is the USGS already undertaking these 
        activities, or would some be new? If so, which? Do you have any 
        concerns or comments about this list of proposed activities and 
        how it might challenge USGS' capacities?
    Answer: AmericaView, Inc. plays an essential role in support of the 
Secretary, consistent with P.L. 102-555 and PDD/NSTC-3 as amended. 
Historically, the Secretary, working through the USGS, has assigned 
authorities to AmericaView related to acquiring, managing, and 
distributing imagery to the States as is expressed in section 4(b).
    Because educational institutions play a vital role in service to 
communities, the Secretary sponsors the AmericaView, Inc. activities 
cited in section 4(c). However, the Department does not view the 
activities cited in section 4(c) as exclusive activities--since there 
are many organizations throughout the States that carry out these roles 
both on behalf of the Secretary and independently of the Department. 
Therefore, we do not believe that section 4(c) should be linked to the 
purposes the Secretary carries out through this legislation.
    One change that we would propose in the draft bill would relate to 
setting standards for geospatial applications of imagery. We propose 
that AmericaView, Inc. affiliates should ``promote the use of 
nationally consistent standards'' but should not be assigned 
authorities or activities to develop standards in each State. While we 
do not think that development of such standards should be a 
responsibility assigned to AmericaView, Inc. we do believe that 
educational institutions participating in the AmericaView Consortium 
will be a useful resource to State and Federal agencies in developing 
such standards.
    Many of the activities identified in H.R. 2489 are already being 
undertaken by the USGS. The USGS is working to identify new 
requirements for geospatial imagery, developing new applications of 
geospatial imagery, expanding the knowledge and use of geospatial 
imagery, promoting the use of standards, and educating users on 
geospatial imagery. The proposed bill would expand these activities to 
include more State, local and tribal involvement, as well as increasing 
the scope of these activities, such as more research into geospatial 
imagery applications focused on tribal issues. The proposed bill would 
also include some new activities, such as transferring geospatial 
imagery and applications back to the USGS. Although these represent new 
activities for the AmericaView program, they support the mission of the 
USGS.
4.  H.R. 2489 directs the Secretary of the Interior to cooperate with 
        the AmericaView Project ``to develop nationally consistent 
        standards for geospatial imagery mapping in each state.'' 
        However, the development of standards for mapping seems like 
        the kind of activity that should involve more stakeholders than 
        the Department of the Interior and AmericaView. Could you 
        clarify the role you think would be appropriate for AmericaView 
        in the development of standards for mapping? Would 
        AmericaView's focus be more appropriately described as 
        development of standards for the distribution of images, 
        information, and technology, rather than for mapping?
    Answer: Please see the response to question #3.
5.  This bill would expand AmericaView to all 50 states. Is that 
        realistic? Why is it important for this program to be in all 50 
        states and territories?
    Answer: The Department has no opinion as to whether AmericaView, 
Inc. should be established in all 50 States as it is conceivable that 
some States could acquire AmericaView services from multi-state 
consortia or through sharing provisions that exist among educational 
institutions in different States. However, it is important that the 
land and natural resource management expertise unique to each region of 
the United States be adequately reflected by the location of the 
AmericaView affiliates and that each State find itself adequately 
represented by AmericaView, Inc.
6.  How do you see AmericaView interacting with ongoing image-
        collection initiatives like Imagery for the Nation and USDA's 
        NAIP aerial photography program? Please explain the differences 
        between the Imagery for the Nation Initiative and the NAIP 
        Program and the activities that will be authorized through H.R. 
        2489.
    Answer: The Imagery for the Nation (IFTN) initiative was proposed 
by the National States Geographic Information Council (NSGIC) and 
endorsed by the multi-agency National Digital Orthoimagery Program 
(NDOP) as a comprehensive program to acquire high-resolution imagery of 
1-meter resolution and higher for the entire nation, including Alaska, 
Hawaii and the territories, on a cyclical basis.
    The Federal Geographic Data Committee (FGDC) is currently 
developing a phase 1 plan to implement IFTN by building upon and 
enhancing two existing programs, USDA's National Agriculture Imagery 
Program (NAIP) and the USGS-NGA Urban Area Imagery Partnership (UAIP). 
Under IFTN, the FGDC would provide governance and ensure overall 
coordination, USDA will manage the 1-meter, leaf-on component, and USGS 
will manage the 1-foot and higher, leaf-off component.
    In comparison, the AmericaView program is not a data collection 
program, per se, and has not been used by the Department to distribute 
high- and very high-resolution data to the States nor to perform other 
services related to these data. AmericaView distributes satellite data 
whereas IFTN and NAIP focus primarily on distributing aerial data. 
AmericaView is dedicated to distributing satellite data through the 
nation's educational community whereas IFTN and NAIP provide imagery 
directly to government users.
    State and local governments are experienced users of high- and very 
high-resolution aerial imagery, and therefore have well established and 
standard approaches to handling this type of data. Satellite imagery is 
not standardized and is more complex, requiring formatting, processing, 
interpretation and analysis steps that are largely unfamiliar to State 
and local governments. Thus AmericaView serves an important role in 
acting as a bridge between the academic community and government users 
of satellite imagery.
    For these reasons, we recommend that the definition of imagery in 
H.R. 2489 be restricted to data acquired by satellite since this is the 
primary purpose for which the Department would rely on AmericaView, 
Inc.. This is not to restrict AmericaView, Inc. affiliates from 
otherwise performing distribution of aerial data independently or in 
support of other Department and Federal Government objectives, but it 
is to indicate that the distribution of aerial data is not the 
exclusive and intended purpose of the federal satellite imagery program 
proposed in H.R. 2489.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  The National Cooperative Geologic Mapping Program has a state match 
        funding requirement. Do you believe that you could continue to 
        operate this program with a similar requirement for the America 
        View Geospatial Imagery Mapping Program
    Answer: State governments indirectly provide matching funds by 
providing facility space, salaries, and communication services to 
Stateview programs. The Department would pursue additional matching 
fund arrangements in its review of competitive grant proposals under 
this Act.
Questions from Congressman Gregorio Kilili Camacho Sablan from the 
        Commonwealth of the Northern Mariana Islands
1.  How are the territories involved in AmericaView?
    Answer: U.S. territories have not been involved in AmericaView, 
Inc., to date.
2.  Is there going to be a ``Territory View'' or other program relevant 
        to the Commonwealth of the Northern Mariana Islands?
    Answer: The Commonwealth of the Northern Mariana Islands is 
included in the definition of ``State'' in the proposed legislation, so 
a StateView program could be formed to provide AmericaView program 
services to a territory under this Act.
                                 ______
                                 
    Mr. Costa. We will look forward to that. You exceeded your 
time by a little bit, but we will forgive that.
    Our next witness is Ms. Rebecca Dodge, the Associate 
Professor in the Department of Geosciences at Midwestern State 
University. Rebecca, please.

STATEMENT OF REBECCA L. DODGE, Ph.D., ASSOCIATE PROFESSOR, THE 
     DEPARTMENT OF GEOSCIENCES, MIDWESTERN STATE UNIVERSITY

    Dr. Dodge. Thank you. I would like to thank you and Ranking 
Member Lamborn for having us here today and for giving me this 
opportunity to testify, and I would also like to thank 
Committee Member Lummis for her support, as well as 
Representative Herseth Sandlin.
    I would like to first comment a little bit about 
AmericaView's growth and then to explain how the activities to 
be supported by this bill will sustain and expand the benefits 
provided by AmericaView.
    As the pilot for a nationwide program, OhioView was 
designed to prove the concept that a statewide network of 
universities and their partners could develop new scientific 
and educational applications for geospatial data that would 
improve the lives of citizens of their states.
    OhioView provided a very solid proof of this concept. 
Within two years, OhioView's successes led to planning for the 
national AmericaView Consortium. The AmericaView Consortium 
incorporated as an educational nonprofit in 2003 with 10 
founding members. Since officially going national, steady 
growth of new StateViews each year has increased the membership 
to 36.
    With this steady growth across the country, the time has 
come for this bill to be passed. Thanks to the leadership of 
Representatives Regula and Herseth Sandlin in the previous 
Congress, as well as Herseth Sandlin and LaTourette in this 
Congress, H.R. 2489 was introduced in the House in May. A 
companion bill was introduced in the Senate by Senators Johnson 
and Voinovich.
    The bill is designated to authorize a comprehensive 
national program and a set of activities that will promote the 
application of geospatial imagery for a broad range of 
applications and purposes through education, workforce 
development and training and applied research.
    Within the proposed legislation there is listed a set of 
activities that are the heart of the legislation. These are 
keyed to the existing strengths, activities and contributions 
of AmericaView. A subset of these activities is going on in 
each member state now. H.R. 2489 will ensure that the impact 
will improve in each state.
    In a few moments you will hear more about these activities, 
such as the development of applications, education and training 
infrastructure in each state spanning K-12 education through 
professional development. You will also hear examples of 
activities that address expanding geospatial imagery mapping 
courses that are being taught at the university level.
    CaliforniaView in particular is leading several StateViews 
in a project focused on the community and tribal college level. 
StateViews continue to expand geospatial imagery mapping 
research at educational institutions beginning at the 
undergraduate level.
    StateViews are expanding the use of geospatial imagery 
through outreach programs to groups ranging from private 
industry to Federal and state emergency response employees, 
natural resource management personnel and K-12 teachers. 
AmericaView is also promoting the sharing of techniques and 
tools among and within participating states.
    H.R. 2489 will enable AmericaView to expand such activities 
within each state and to all 50 states and the U.S. 
territories. It will also ensure a workforce prepared to apply 
the geospatial imagery being made available by the USGS toward 
effective decision making.
    In fact, the AmericaView program is built on the precept 
that there are remote sensing needs that are best understood 
and addressed at the state level, and these are well handled by 
a workforce that has acquired local knowledge and skills to 
select and apply that appropriate data and technology.
    As Acting Director Kimball pointed out, the National 
Research Council recommended that the USGS should pursue 
innovative approaches to educate and train scientists and users 
of earth observations and applications. At that time, the USGS 
had already been involved in developing and expanding the 
AmericaView program for over 10 years.
    I would like to thank the USGS for their foresight and to 
echo Acting Director Kimball's sentiments that ours has been a 
successful partnership. The cooperation with each state has 
benefitted the American public, as has the cooperation among 
states and between both the government and nonprofit sides of 
the AmericaView program.
    We look forward to welcoming the remaining states and 
territories into our family. H.R. 2489 will help make that 
happen.
    Thank you for your consideration. I would be glad to answer 
any questions.
    [The prepared statement of Dr. Dodge follows:]

Statement of Rebecca L. Dodge, PhD, Outreach Director for AmericaView, 
                              on H.R. 2489

    I would like to thank Chairman Costa and the committee members for 
giving me the opportunity to testify with respect to the AmericaView 
Geospatial Imagery Mapping Program Act. My name is Rebecca L. Dodge and 
I teach Geology and Environmental Science at Midwestern State 
University in Wichita Falls, Texas. I have been actively involved in 
the development and leadership of AmericaView for the past seven years.
    Today I would like to add a few remarks to Acting Director 
Kimball's comments about AmericaView's history, from the AmericaView 
members' perspective, and then to explain how the activities to be 
supported by H.R. 2489 will sustain and expand the benefits provided by 
AmericaView.
    As described earlier, OhioView was the pilot for a planned 
nationwide program, designed to prove the concept that a statewide 
network of universities and their partners involved in applied research 
could develop new scientific, educational, and practical applications 
for geospatial data to improve the lives of citizens of their state. 
OhioView, comprised of 10 Ohio Universities in partnership with the 
U.S. Geological Survey, provided very solid proof of this concept.
    This pilot focused on education and on applied research emphasizing 
solutions to state needs. To date, OhioView partners have educated 
thousands of students at both the university and K-12 levels, while 
also providing training for hundreds of K-12 teachers and university 
faculty. OhioView's applied research concerning natural resource 
management has set the standard for new StateView efforts across the 
nation, providing new ways to solve problems in forestry, agriculture, 
city planning, and water quality. Within two years OhioView's successes 
led to planning for the national AmericaView Program; recruitment was 
(and still is) facilitated by the focus on addressing individual state 
needs.
    The AmericaView consortium has been in development since 2000, 
incorporating as a 501c3 non-profit educational organization in 2003 
with 10 founding members (OH, SD, AK, KS, TX, AR, MS, GA, WV, and WY). 
Since officially ``going national'' in 2003, steady growth of new 
StateViews each year has brought membership to the current level of 36 
StateViews.
    With this organic growth across the country, the time has come for 
H.R. 2489. Thanks to the leadership of Representatives Regula and 
Herseth Sandlin in the previous Congress as well as Representatives 
Herseth Sandlin and LaTourette in this Congress, H.R. 2489 was 
introduced in the House in May; a companion bill, S 1078 was introduced 
in the Senate by Senators Johnson and Voinovich. The bill is designed 
to authorize a comprehensive national program and set of activities 
that will promote the application of geospatial imagery for a broad 
range of mapping purposes, through education, workforce training and 
development, and applied research. AmericaView is already engaged in 
activities prescribed in H.R. 2489 in 36 states, and this Act will 
ensure the program's activities and impact will spread within each 
member state and to all 50 states and the Territories.
    As you read the legislation you saw this set of activities listed. 
These activities are the heart of this legislation and they are keyed 
to the existing strengths and contributions of AmericaView; at least 
several of these activities are going on in each state now. H.R. 2489 
activities that are designed to promote imagery mapping applications 
begin with 1) the development of geospatial mapping applications, 
education and training infrastructure in each state. Applications and 
education and training infrastructure development have gone hand in 
hand, as new applications technologies and tools that are developed for 
applied research are transformed into classroom and laboratory teaching 
instruments and then become available for training the existing 
workforce to apply the new tools and technologies.
    CaliforniaView's applications-oriented Remote Sensing Certificate 
Program, under development with support from GeorgiaView, VirginiaView, 
IowaView, and TexasView, will serve not only undergraduates at the 
University and College level, but also returning students and others 
already in the workforce. AlaskaView makes its training infrastructure 
available to private companies that train the Alaskan workforce. Peter 
Hickman, CEO and Principal GIS/GPS Consultant for GeoApps, Inc. stated 
that
        Providing training has been fundamental to the success of 
        GeoApps as a startup small business. In the past year alone, 83 
        students from across the academic, government, and private 
        sectors in and around Fairbanks have successfully completed our 
        ESRI Authorized training in the GINA RS Lab. The continued use 
        of the GINA RS Lab for instruction is an integral part of 
        accomplishing our goals. (2007)
    The addition of geospatial student internships as part of the 
educational infrastructure in many states has created positive effects, 
as indicated by Dawn Liverman, undergraduate Geosciences major at the 
University of West Georgia. She participated in a GeorgiaView 
internship for rural Carroll County, Georgia and studied the impact of 
historical tree canopy changes to establish baseline maps prior to 
extensive proposed residential development.
        This internship has given me a new way of looking at the 
        environment, invaluable experience with geospatial software, 
        self-confidence in speaking publicly about the findings of my 
        research, and professional skills that will be a definite help 
        in my future professional life. This experience will be very 
        important to me when looking for employment after graduation 
        when so many companies want an employee with previous 
        experience in the geospatial field. (2006)
    Existing educational infrastructure has benefitted from South 
DakotaView's efforts according to MaryJo Benton Lee, Diversity 
Coordinator for South Dakota State University College of Engineering, 
who complements them for reaching 200 American Indian high school 
students participating in a college preparatory program in a 2007 SDSU-
Flandreau Indian School Success Academy students.
        Your presentations were hands-on, interactive, and highly 
        successful in interesting and exciting freshman high school 
        students in your discipline. I especially appreciate the many 
        ways you made your workshop culturally relevant, starting with 
        the title ``Technology and Tradition: New and Old Ways of 
        Viewing Mother Earth''. Also I commend you for employing two of 
        our Native SDSU engineering students to assist you....these 
        Native American college students were strong positive role 
        models of American Indian professionals. Your excellent 
        workshops are truly models for all of us who try through our 
        work to attract minority students to science, math, engineering 
        and technology disciplines. (2007)
    K-12 teacher training infrastructure is broadly enhanced and 
supported by StateViews. Todd Ensign from the NASA IV&V Facility 
Educator Resource Center (ERC) complements West VirginiaView for its 
support, saying that
        the ERC has received assistance in downloading and using geo-
        referenced imagery, developing and delivering teacher 
        workshops, producing educational podcasts, and in the 
        successful bid for educational grants to expand the program. 
        The ERC greatly appreciates the services of West VirginiaView 
        and hopes to continue our strong partnership into the future. 
        (2006)
    West VirginiaView also received kudos for its support of K-12 pre-
service education. According to Dr. James A. Rye, West Virginia 
University Interim Associate Dean for Research and Technology:
        We have begun to integrate global positioning (GPS), geographic 
        information systems (GIS), and remote sensing into our 
        undergraduate and graduate science methods course for pre-
        service and in-service teachers. West ViginaView has provided 
        an invaluable expert resource...they have also developed and 
        provided an extended RS/GPS/GIS experience that integrated a 
        project GLOBE hydrology application in our undergraduate 
        science methods course. Geospatial science and technology are 
        integral with such 21st Century content as ``global awareness'' 
        and the skill area of ``information and communication 
        technology'' literacy. Dr. Landenberger's assistance and 
        associated West VirginiaView projects are critical to 
        integrating into our methods courses experiences that prepare 
        teachers to facilitate 21st Century learning in their future 
        and current classrooms.
    Dave Varner, an Extension Educator with the University of Nebraska-
Lincoln Extension Service, reported that 4-H youth and leaders at the 
2006 National 4-H Science and Technology Conference presentation were 
impressed with NebraskaView's presentation
        regarding capabilities and exploration into future applications 
        of remote sensing technologies that took this session to a 
        whole new level. Participants were impressed with both the 
        technology and applications discussed. Your Google Earth 
        demonstration provided participants more hands-on experience 
        using imagery collected via remote sensing technologies. The 
        group connected well with this topic and will certainly share 
        their experiences with their communities which represent 
        approximately 20 states. We appreciated NebraskaView helping 
        enhance the knowledge and skills of the outstanding 4-H 
        audience that UNL had the opportunity to host in July. (2007)
    AmericaView members have all benefitted as new applications as well 
as training programs for K-12 teachers, University faculty, youth 
groups, state and local government employees, and private industry are 
developed, refined, and shared among our membership. We are also 
expanding geospatial imagery mapping courses and provide training, 
remote sensing data, and teaching tools to educators. Expanding courses 
and curriculum has been the goal of John C. Kostelnick, GIS Instructor 
in the Department of Natural and Social Sciences at Haskell Indian 
Nations University who states that
        This letter comes in support of the KansasView Program. Haskell 
        Indian Nations University (HINU), a four year university that 
        serves students from federally recognized Indian Tribes in the 
        United States, is among the many institutions that have 
        benefited greatly from the services and data sources provided 
        by KansasView. In recent years, HINU has worked to develop a 
        program in Geographic Information Systems (GIS) and related 
        remote sensing applications to support the environmental 
        science curriculum as well as in response to the growing need 
        for geospatial technology in tribal lands. The KansasView 
        Program has provided numerous benefits to this endeavor by 
        providing HINU students with internship opportunities and 
        allowing HINU faculty to collaborate with faculty and staff at 
        the Kansas Applied Remote Sensing (KARS) Program at the 
        University of Kansas. The continued involvement of HINU in 
        programs such as KansasView is key to ensuring that HINU is 
        successful in its efforts to sustain and to expand the existing 
        GIS program. (2006)
    StateViews are all working to expand geospatial imagery mapping 
research at research educational institutions. Dr. Sylvio Mannel, GIS/
Remote Sensing Manager at Oglala Lakota College, recognized South 
DakotaView's provision of Landsat imagery that
        enabled us to map possible Mountain Lion habitat on the Pine 
        Ridge Reservation. In addition, the Landsat imagery archive is 
        a very user friendly source of data. Before it became available 
        we had to contact other researchers and other institutions to 
        ask for any data they might have available. This was not very 
        efficient and often unsuccessful. I hope the Landsat depository 
        will be available in the future to conduct Remote Sensing 
        education and research at Oglala Lakota in an efficient way. 
        (2006)
    Russ Brinsfield, Executive Director of the Harry R. Hughes Center 
for Agro-Ecology at the University of Maryland, praises MarylandView's 
assistance
        in developing geospatial approaches to a more accurate 
        understanding of agriculture and its environmental implications 
        and for providing a more precise agricultural cropland data 
        layer for our area and for assisting us in researching 
        innovative geospatial methods for cropping practices, nutrient 
        applications, pesticide usages and other significant 
        agricultural characteristics of interest to our program. (2009)
    Gregory S. Vandeberg, Assistant Professor of Geography at 
University of North Dakota reports that he is
        currently overseeing a grant from the North DakotaView program: 
        Geographic Variables Affecting Bald Eagle Nest Locations in the 
        Red River Valley of ND and MN. This grant has provided the 
        funding for Josh Johnston, MS Candidate in geography, to 
        investigate the distribution of bald eagle nests. The grant 
        covers both his graduate research assistantship as well as 
        costs for an aerial survey of the northern part of the Red 
        River Valley. The information gathered in his study will be 
        very useful to federal, state and local conservation officials, 
        as well as for the completion of his thesis. This project would 
        have been severely limited without the North DakotaView grant. 
        I strongly urge the managers of the AmericaView Program to 
        continue funding to state programs such as North DakotaView. 
        (2006)
    AmericaView is also expanding the knowledge and use of geospatial 
imagery map products through outreach programs to diverse groups 
ranging from USDA extension agents to the National Forest and National 
Park Services, and including emergency management and natural resource 
management personnel as well as State and National Guard troops. 
MinnesotaView's outreach to natural resource managers has provided new 
data and tools for lake clarity analysis, as reported by Bruce Wilson, 
the program manager at the Minnesota Pollution Control Agency:
        We have used every trick of the trade, with a large body of 
        volunteers and lab tests, but the truth is we can only monitor 
        about 1,200 lakes a year. And now, out of the sky--literally--
        has come this opportunity to help provide the information we 
        are asked for thousands of times a year by citizens, business 
        owners, and local units of government. (2009)
    AlabamaView has been coordinating statewide conferences as part of 
its outreach effort. H. Craig Seaver, U.S. Geological Survey Liaison to 
Alabama, thanks them for their
        efforts in organizing training and presentations at the 3rd 
        annual GIS meetings at Auburn this year....Based on my 
        observations, the participation level was significant, with 
        representation from federal, state/local and private sector 
        entities....The wide scope of geospatial topics presented 
        allowed one to choose both professionally related training and 
        presentations and intriguing new ones as well. I look forward 
        to getting involved with AlabamaView and promoting it within 
        the state with USGS partners. (2006).
    WyomingView's outreach presentations at workshops for farmers and 
ranchers have expanded applications across the state. Chuck Duncan, an 
Agriculturist for Wyoming Sugar Company who councils growers about how 
to raise a better crop, attended a workshop put on by WyomingView in 
cooperation with the University of Wyoming County Agent and with 
farmers and scientists from North Dakota. There he was introduced to 
the remote sensing technology and its applications for agriculture. He 
indicates that
        I was pleased that they brought to this workshop some sugar 
        beet farmers from ND who have used this technology. They 
        actually did most of the training and were able to answer 
        questions from their own experiences. I believe that this 
        technology could be useful in managing farm land through out my 
        district. I believe that the activities of WyomingView 
        (workshops and image distribution) are the wave of the future 
        in farming and therefore should be used the best we can. They 
        can assist growers to do a better job on their own farms and 
        increase production, therefore keeping their viability in 
        coming years. (2006)
    Another private sector client impacted by WyomingView's outreach 
effort, Chris Jesson, P.G., Geologist/GIS Analyst with States West 
Water Resources Corporation, states that
        I would like to express my support for the services provided by 
        WyomingView. It has been extremely beneficial to our efforts to 
        serve our clients (with oftentimes much needed efficiency) with 
        readily available satellite imagery. We have used WyomingView 
        Services to assist a number of irrigation districts in Wyoming, 
        the State of Wyoming, and many individual land owners with 
        documentation of historical irrigation. Access to this 
        information serves to dispel much doubt from proceedings that 
        may otherwise lead to burdensome, expensive legal ventures for 
        Wyoming and its citizens. It is my belief that this provision 
        of taxpayer-funded information enables simple evenhandedness in 
        the face of litigious issues. Moreover, it speaks to 
        responsible and efficient utilization of taxpayer resources to 
        serve information that provides for a basis of truth (that has 
        already been funded by taxpayers) for the equal benefit of all 
        citizens. States West endorses continued funding for Wyoming 
        View Services.
    StateViews are building partnerships with governments to carry out 
pilot mapping projects concerning coastal erosion, invasive species, 
wildfire prevention, volcanic hazards, drought extent and impact, to 
name a few. John F. Fry, the National Park Service's Chief of Resources 
Management the Cumberland Island National Seashore in Georgia, reported 
on a pilot project supported by GeorgiaView and performed by University 
of Georgia graduate student C.J. Jackson:
        Back-barrier shoreline erosion is a highly critical issue on 
        Cumberland Island, as it threatens significant natural and 
        cultural resources. C.J.'s final report, maps, and graphics 
        provide exactly the sort of information the park staff needs in 
        addressing the erosion problem. His research indicates the 
        scope of the problem over the entire expanse of the Cumberland 
        Island back-barrier, where critical hot spots are, how the 
        issue has developed over an extensive (145 year) period, and 
        what potential agents are for the erosion. C.J. went well above 
        and beyond what was anticipated. He has provided us with an 
        extremely valuable tool that is remarkably thorough and 
        technically sound. The Park Service is most fortunate to have 
        had C.J. working on this project''. In my twelve years of NPS 
        Science and Resource Management experience I cannot recall 
        being more impressed with the quality and thoroughness of a 
        research project than what C.J. has completed for the park. 
        (2006)
    C.J. Jackson won the Georgia URISA Thomas Mettille Student 
Achievement Award, for this work on the ``Assessment of Back-Barrier 
Shoreline Erosion for Resource Management: Cumberland Island National 
Seashore, Georgia''. This technique has wide applications for barrier 
islands managed by both Federal and State agencies. While mapping 
applications development has focused on addressing each state's unique 
needs, applied researchers have found solutions that cross borders to 
meet regional and national needs.
    The national AmericaView leadership, in concert with working groups 
composed of StateView members, is promoting cooperation and sharing of 
data, expertise, techniques, and tools regarding geospatial imagery 
among and within participating States. Individual StateViews are 
sharing data among diverse users. Sandy M. Ebersole, a geologist with 
the Mapping and Hazards Section of the Geological Survey of Alabama, 
informed the AlabamaView Director that
        We currently have a number of Landsat scenes and will likely be 
        acquiring MODIS and other satellite data in the near future for 
        some of our research here at the survey. AlabamaView is a very 
        impressive website, and a wonderful tool for researchers. I was 
        wondering if you would accept other satellite imagery to be 
        posted to your site as well so that it can also be shared with 
        others. The data we have was not purchased through the 
        AlabamaView project, but we would like to make it available for 
        download for public use. (2009)
    Dr. A. Kim Ludeke, Texas Parks and Wildlife Department GIS Lab 
Manager expressed strong support for TexasView as a
        valuable source of statewide datasets at no cost to the Texas 
        Parks and Wildlife Department (TPWD) and the Texas Natural 
        Resources Information System (TNRIS). Moreover, this updated 
        imagery has allowed TPWD scientists and planners to document 
        change in the natural and cultural environment of Texas. In 
        addition, the TPWD game wardens have found these products to be 
        invaluable, whether in investigations of environmental crimes, 
        in prosecuting game and fish law violations, or in planning and 
        executing Homeland Security exercises along the border with 
        Mexico. This includes both training and real-life situations. 
        Finally, the TexasView scientists have always been available 
        for technical assistance and advice. It would be a major loss 
        to Texas to lose the services of TexasView. This imagery 
        provides a very important base for work on TPWD properties as 
        well as with private landowners with whom TPWD field biologists 
        are developing Wildlife Management Plans. These plans benefit 
        private land owners as well as the natural resources of Texas 
        for all Texans.
    Consortium members in each StateView are active in state-level 
geospatial planning activities to promote cooperation and sharing, 
establishing strong contacts with State agency personnel. John Ellison, 
Agency Technology Officer for the California Resources Agency, 
commented in 2007 that the CRA
        looks to projects such as CaliforniaView to provide outreach 
        and educational materials to ensure that geospatial data are 
        utilized to their fullest extent. We also look to 
        CaliforniaView to provide expertise and support in 
        incorporating these data into a working environment. (2007)
    Steve Bauserman, Chair of the Northern Shenandoah Valley Regional 
Commission whose responsibilities span the Virginia/West Virginia 
border, reports the approval of a cross-border cooperative study in 
which VirginiaView and West VirginiaView will
        prepare a pilot project for the Shenandoah Valley, VA-WV which 
        is an historical land cover/land use view of the Shenandoah 
        Valley footprint. A compilation of 1930 USDA aerials, more 
        recent photography or Landsat imagery, would give a base from 
        which to analyze land cover and land use change over the last 
        75 years for the region, counties and municipalities. This 
        would serve as a base for future monitoring for drought onset, 
        water quality, movement of pollutants in the air, comparison of 
        small watersheds for runoff after rain, and other analysis. 
        (2006)
    James P. Verdin, Manager of the U.S. Geological Survey Early 
Warning and Environmental Monitoring team, wrote that
        As the lead of the Early Warning and Environmental Monitoring 
        team at the U.S. Geological Survey's Center for Earth Resources 
        and Science, I would like to express our appreciation to the 
        Kansas Applied Remote Sensing (KARS) Program and KansasView in 
        this letter....During the last six months, KARS provided a 
        valuable remote sensing data set to us and to our collaborators 
        at the National Drought Mitigation Center. This data consisted 
        of preprocessed (mosaicked and projected) MODIS Vegetation 
        Index data covering the entire North American Continent. The 
        work performed by KARS...probably saved our organization 
        approximately 120 person hours of labor...we look forward to 
        investigating the future potential to partner further in remote 
        sensing research and applications with KARS. (2007)
    H.R. 2489, the AmericaView Geospatial Imagery Mapping Program Act, 
would enable AmericaView to expand activities such as these to all 50 
states and the U.S. Territories, addressing each state's unique needs 
by educating and training educators and professionals who will perform 
applied Earth observations. StateViews will also be instrumental in 
developing key applications that serve educators and transferring the 
technologies and tools developed to a wide range of state and federal 
agencies, private industry, and the general public.
    As Acting Director Kimball has pointed out, the USGS is continually 
increasing the breadth and volume of geospatial imagery available to 
the public for education, research, assessment and monitoring at the 
State level. H.R. 2489 will ensure that the workforce is provided with 
the ability to apply remote sensing data and technology towards 
effective decision making in each state. In fact, the AmericaView 
Program is built on the precept that there are remote sensing needs 
that are best understood and addressed at the state level, while other 
aspects are best addressed at the national level. Operating satellites 
and maintaining centralized global data archives are critical national 
priorities well handled by USGS. Education, emergency response, and 
support of local natural resource managers are local issues that are 
well handled by a workforce that has acquired local knowledge and the 
skills to select and apply the appropriate data and technology.
    The National Research Council's Strategy for Earth Science 
Applications from Space (2007) recognized that a robust program to 
train users on the use of these observations will result in a wide 
range of societal benefits ranging from improved weather forecasts to 
more effective emergency management to better land-use planning. The 
report recommended that the USGS should pursue innovative approaches to 
educate and train scientists and users of Earth observations and 
applications. At the time of these recommendations, the USGS had 
already been involved in developing and expanding the AmericaView 
program for over 10 years. I would like to echo Acting Director 
Kimball's sentiments that ours is a great partnership. The cooperation 
within each state has benefitted the American public, as has the 
cooperation among states and between both the government and non-profit 
sides of the AmericaView Program. We look forward to welcoming the 
remaining states and territories into the family.
    Thank you again for your consideration and attention, Mr. Chairman 
and Committee members. My Outreach Committee members and I will be 
happy to answer any questions you and other members may have.

    [The StateView Consortia Summaries submitted for the record by Dr. 
Dodge follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     STATEVIEW CONSORTIA SUMMARIES
    The AlabamaView vision is to benefit the economic development of 
the state through the use of satellite and aircraft remote sensing 
information and technologies and their application to pressing issues 
in the state. AlabamaView is working with state agencies on to save 
dollars and insure homogeneous airborne coverage of all areas of the 
state with full high resolution coverage of the state every four years. 
It is also working with the Alabama Cooperative Extension Service in 
training Extension agents together with farmers in the use of 
geospatial technologies in general and remote sensing in particular. It 
is supporting workforce development through scholarships for 
undergraduate students at the partner universities and colleges. It is 
supporting K-12 learning experiences in collaboration with the Alabama 
Science in Motion (ASIM) program and begun development of a program 
that will utilize satellite imagery in modules developed for ASIM. It 
is posting surface temperature and biomass information from MODIS 
updated weekly on its website, and developing products from RS data 
such as an improved drought index based on surface temperature. 
AlabamaView also recently partnered with a private firm named Galileo 
in a pilot research study to map invasive species utilizing 
hyperspectral imagery.
    AlaskaView is the leading source of satellite imagery and 
geographic data for Alaska. Implemented through the University of 
Alaska's Geographic Information Network of Alaska AlaskaView captures 
and distributes real-time satellite imagery to emergency responders, 
operational agencies, and the general public. A key element is an 
ongoing collaboration with USGS EROS to receive Landsat 5 data at 
FCDAS. This data will populate the National archive, covering currently 
unserved areas of Alaska. This data will also be available in less than 
24 hours for emergency response, including wildfire and volcano hazard 
management. AlaskaView also houses the most comprehensive collection of 
high-resolution imagery for Alaska and is the top distribution site for 
the state. Frequent users include wildfire fighters tracking smoke and 
hot spots, meteorologists forecasting weather, flooding, and sea ice, 
and marine operators transiting the sea ice. AlaskaView also plays an 
important role supporting the training needs of Alaskan users by 
hosting of university and professional training courses in our training 
facility.
    The ArkansasView consortium includes universities, the EAST 
initiative, state and federal agencies, and non-profit organizations 
that continue to build Arkansas' remote sensing community. We 1) 
develop and distribute online satellite and airborne remote sensor data 
products of significance to Arkansans; 2) transfer remote sensing 
technology to education, government, and the private sectors; 3) create 
and maintain remote sensing-related public outreach; and 4) build 
Arkansas' capacity for near real-time remote sensor data products and 
autonomous online remote sensor data processing. In the long term the 
ArkansasView consortium seeks to encourage cooperation and 
collaboration among its state members and across borders to other 
``StateView'' programs. Our members cooperate regularly on educational 
and outreach activities such as sponsoring informational seminars, 
developing appropriate curricula for K-12 education, and offering 
professional short courses on user-recommended remote sensing topics. 
Our members collaborate on identifying and obtaining funding and 
publication opportunities. Through cooperation, collaboration, and the 
effective leveraging of existing resources within and between 
``Stateview'' programs, we will best accomplish AmericaView's mission 
to build a stronger and more viable remote sensing community in 
Arkansas and America.
    The main emphasis of CaliforniaView is on higher education, 
workforce development and outreach in the field of remote sensing. We 
are currently developing a remote sensing certificate program to become 
the online intersection of education and internships for remote sensing 
career development in California. CalView is supported by partnerships 
with the Space Grant Consortium, University of Berkeley, the California 
Community College and Economic Workforce Development (CCCEWD) as well 
as the California Community Colleges Geospatial Information Support 
(C3GIS). The Baseline Remote Sensing Certificate is offered at no cost 
to each AmericaView State Member. Additionally CalView is developing 
certificates at the intermediate and advanced levels to enhance 
workforce retraining.
    ColoradoView recently attained status as a full member of the 
AmericaView consortium of states and is excited to join the mission of 
individually, and collectively, promoting remote sensing and GIS. 
Colorado is a hot-bed of geospatial science and technology, and boasts 
many world class academic, governmental, and private entities. We will 
draw upon this expertise to incrementally build a vibrant and useful 
resource for all Coloradoans involved with remote sensing and GIS. Our 
first goal is to leverage expertise and resources provided by 
AmericaView to develop a web portal that will facilitate the 
dissemination and exchange of Colorado-specific remote sensing and GIS 
data, information, and educational materials.
    The GeorgiaView consortium has played very important roles in 
serving the citizens of Georgia since 2003, by 1) setting up the 
framework of sharing mid-resolution satellite imagery, 2) preparing 
Georgians for the geospatial information technology careers, and 3) by 
applications focused on local and regional issues. Projects have 
included Georgia 2007 wildfire mapping and analysis, urban sprawl, land 
cover change impacts on drinking water reservoirs, and Georgia 
shoreline changes. We have constantly supported and promoted 
internships for students, workshops for faculty in K-12 and higher 
education, and top-level satellite image data sharing mechanisms. 
GeorgiaView will continue to help more Georgians prepare their careers 
in the geospatial technology fields and to research Georgia's 
environmental issues with satellite and other remotely-sensed images. 
Finally, one of GeorgiaView's goals is to help disaster responses (ex. 
wildfire, hurricane, flooding, etc.) in Georgia using timely satellite 
imagery.
    HawaiiView's activities continue to focus on educational outreach, 
training, and research. Learning more about the local environment, 
including the link between the terrestrial and coastal ocean systems, 
is of great interest to Hawaii's middle and high school students. 
HawaiiView engages in numerous activities as conduits for introducing 
and connecting local students to remote sensing technologies and 
science. The PI will present a workshop activity at the School of 
Ocean, Earth Science, and Technology's bi-annual Open House event (16-
17 October 2009). The workshop will use the PI's FLIR thermal imaging 
camera to demonstrate thermal imaging applications of remote sensing. 
In January 2009 the PI has been invited to teach on the subject 
``Thermal remote sensing of volcanoes'' at an NSF funded workshop in 
Costa Rica, which will focus on training students and professionals 
from North, South, and Central America in the use of remote sensing for 
hazard mitigation. We will also continue to make remote sensing data 
available via the HawaiiView website.
    IdahoView's goals establish IdahoView as the primary coordinating 
entity for remote sensing data management, training, and applications 
for Idaho. The AmericaView and IdahoView programs have stimulated 
active communication in the state of Idaho as well as coordination that 
has already led to significant success in building the cyber 
infrastructure critical for remote sensing data management in the 
state. Other activities include enabling both national participation as 
well as state participation across our diverse geographic regions that 
encompass a wide variety of biophysical settings, land management 
entities, and environmental monitoring needs. A strong focus will 
remain on establishing communication and coordination of activities 
being funded from a variety of sources. IdahoView will develop 
coordinator tasks and means for leveraging in-state initiatives with 
those underway across the AmericaView program. A final goal for the 
coming year will be to become more active in service to the national 
AmericaView program through attendance at the meetings, outreach, and 
participation in AV working committees. IdahoView is committed to the 
collective vision of the AmericaView program and active participation.
    IndianaView is a state-wide consortium of 14 universities and 
institutions in Indiana. IndianaView facilitates and promotes the 
sharing and use of public domain remotely sensed image data (from both 
aerial and satellite platforms) by Indiana universities, four-year 
colleges, community colleges, K-12 institutions, libraries, museums, 
government agencies and the private sector through tutorials and 
training. IndianaView provides mini-grants to support research and 
technology education to member institutions and provides free access to 
near real-time satellite images to the community. We also promote the 
use of remote sensing data to monitor statewide issues such as crop 
development, water quality, urban development, and flooding.
    IowaView is presently working with several federal, state, local 
and tribal agencies in Iowa on remote sensing related research, 
education and outreach activities. The main goal is to continue to 
build partnerships and infrastructure to conduct remote sensing 
education, research, and outreach activities in the State of Iowa with 
the following goals and objectives: 1) continue to develop advanced 
remote sensing education and training programs that are tailored to the 
needs of academic staff, local and state government agencies and 
private sectors, 2) to promote and support collaborative remote sensing 
application research effort, develop techniques and tools for local as 
well as state government agencies, 3) to transfer remote sensing data 
to educational institutions, local and state agencies, and the private 
sector in Iowa, 4) to provide remote sensing research opportunities for 
students, and finally 5) to establish a synergistic relationship with 
other AmericaView states on educational and research activities.
    The overarching goal of KansasView is to advance the availability, 
timely distribution, and widespread use of remotely sensed data and 
geospatial technologies to support the needs of the state's public 
agencies, research and education communities, tribal colleges, private 
enterprise, and the general public. KansasView has helped create and 
maintain several key imagery databases, and has customized all imagery 
data sets to correspond with other geospatial databases; data sets are 
available without charge. KansasView also continues to support the 
training and education of undergraduate and graduate students, 
consistently funding graduate students and providing data to numerous 
research projects. We have reached out to K-12 educators by working 
cooperatively with programs that bring together networks of teachers in 
both science and geography that have allowed us to capitalize on their 
interest in introducing new technology to their students.
    The primary focus of KentuckyView is on the use of images collected 
from satellites and aircraft, as well as other geospatial technologies, 
to support K-16 education, public outreach, applied research, and data 
distribution. The KentuckyView consortium currently comprises six 
universities and two state agencies in Kentucky. Via its mini-grant 
program for students and faculty at member universities, KentuckyView 
strives to bring remote sensing materials to formal and informal 
educational curricula at all levels through workshops and student 
projects; reaches out to the public via presentations and our website; 
and distributes and applies remote sensing data and technology to help 
solve pressing environmental (e.g., forest health) and societal (e.g., 
water quality) issues in the Commonwealth. Particular emphasis is 
placed on providing students (the future workforce) with training and 
research opportunities.
    LouisianaView is a state consortium of geospatial science, 
education, and natural resource management organizations that work 
together to advance remote sensing and related geospatial technologies 
in ways that leverage federal and private investment in remote sensing 
instruments and data. Louisiana View activities are designed to: 1) 
strengthen a Louisiana consortium of data users, 2) actively build an 
archive of multi-sensor satellite imagery, aerial photography, etc. and 
a user-friendly dissemination mechanism, 3) provide continuing 
education opportunities at the University of Louisiana at Lafayette for 
end users, 4) collaborate in remote sensing research, and 5) provide 
technological support and technology transfer to data users. 
LouisianaView serves Louisiana by working in Natural Disaster Response 
and Training. We also work to develop and apply Imagery and Geospatial 
technologies with the USGS-National Wetlands Research Center, the 
Louisiana National Guard, the Governors Office of Homeland Security, 
FEMA, the State of Texas, and many of our local Parish Governments.
    The mission of the MarylandView Consortium is to ensure that 
educational institutions, government agencies, non-government 
organizations, and businesses in Maryland make the fullest use of 
remotely sensed imagery and other digital geospatial data and 
technologies. The goals of the MarylandView Consortium are to 1) serve 
as a Consortium of users and suppliers of remotely sensed data in the 
State of Maryland; 2) serve as a remote sensing education and outreach 
program for the State of Maryland; 3) make appropriate data, software, 
and pedagogical materials on remote sensing and digital image 
processing available for use by K-16 teachers; 4) serve as a conduit 
for research into new applications of remotely sensed data in academia, 
government, and business; 5) develop pilot projects in cooperation with 
the U.S. Geological Survey and other end users to demonstrate the 
application and benefits of remotely sensed data; and 6) facilitate the 
use of remote sensing data to monitor statewide issues such as urban 
sprawl and forest fragmentation.
    MichiganView seeks to provide needed resources for building a 
workforce that is more skilled in science and technology. The purpose 
of MichiganView is to promote the use of remote sensing technology in 
Michigan by supporting research, education, workforce development, and 
technology transfer. The consortium consists of academic, non-profit, 
and government organizations that are involved in remote sensing and 
are interested in the public sharing of educational resources, research 
activities, and dataset sharing. Activities for the MichiganView 
consortium that will further promote the use of remote sensing 
technologies in Michigan include 1) expanding the membership of 
MichiganView to other organizations within Michigan, 2) provide IT 
infrastructure to enable collaboration among members within Michigan, 
and support collaboration among AmericaView members, 3) maintain a no-
cost publicly accessible data archive of remote sensing data for 
Michigan, focusing on providing easy to user data formats and access 
protocols, and 4) developing web-based tutorials for processing and 
distributing remote sensing data.
    MinnesotaView was approved for funding by AmericaView for 2008. Its 
vision is to work with state agencies and universities in Minnesota to 
advance remote sensing research, education and outreach. The 
consortium, led by the University of Minnesota, includes the Minnesota 
Land Management Information Center, Minnesota Department of Natural 
Resources, and Minnesota State University--Mankato. Its goals include 
1) Increased access to and application of remote sensing data and 
imagery by agencies, schools and colleges, and citizens, 2) Enhanced 
understanding of the characteristics and uses of remote sensing data 
with information on its website, 3) linking potential users to remote 
sensing specialists so that sensors and data are well matched to user 
needs and applications, 4) development of improved linkages between 
remote sensing and GIS to make the best use of geospatial data, 5) 
promotion of collaboration among agencies for development and 
application of remote sensing, and 6) participation in and support 
AmericaView activities and program.
    MississippiView, in combination with other Mississippi educational 
institutions, provides support and resources to further remote sensing 
and GIS activities throughout the state. MississippiView works with 
partners in Mississippi to support a high school outreach project in 
which partner educational institutions work with local high schools to 
introduce students to remote sensing and geospatial concepts and to 
complete geospatial projects of benefit to the local community. Through 
this program, MississippiView and its partners have introduced more 
than 100 high school students to potential careers in the geospatial 
industry. MississippiView provides support across all aspects of the 
geospatial community in Mississippi by supporting training courses, 
summer camps, after school programs, and other activities.
    MontanaView is a state-wide consortium of 9 universities, non-
profit organizations and government agencies working within Montana to 
advance the availability and timely distribution of remotely sensed 
data. MontanaView works with farmers and ranchers on applying sight-
specific agriculture techniques to reduce environmental impacts and 
economic outputs. We support wildfire management by aplying innovative 
science and technology to on-the-ground natural resource incidents. 
MontanaView is also establishing a network of geospatial professionals 
and resources to respond during emergency disasters. Working with our 
partners, we support geospatial education and workforce development 
including training and geospatial resources for K-12 school teachers, 
agencies, and other professionals as well as support to tribal collages 
in meeting their geospatial needs and course offerings.
    NebraskaView works to ensure that Nebraskans make full use of 
satellite imagery, geospatial data and technologies such as geographic 
information systems (GIS) and remote sensing for mapping, monitoring 
and managing our cities and rural lands, and protecting our natural 
resources. NebraskaView collaborates with the Nebraska GIS Council and 
the Nebraska GIS/LIS Association to coordinate the implementation of 
geospatial technologies by state and local governments in Nebraska. We 
also promote the use of geospatial technologies to the general public 
through community outreach activities and museum displays. We work with 
our partners at all of Nebraska's state colleges and universities to 
support geospatial education and workforce development. Our educational 
activities have included training and geospatial resources for K-16 
school teachers, Nebraska 4H educators, and the state's Science 
Olympiad.
    NevadaView will ensure ongoing, readily available, access to a 
growing amount of remote sensing and other geospatial data sets. 
Educational outreach programs in remote sensing and geospatial analysis 
will increase as will the variety of web enabled remote sensing tools 
that will become available to the States data users. NevadaView will 
allow us to bring more remote sensing resources online, continue the 
growth and development of the Keck state geospatial data set repository 
web site, allow for remote sensing outreach workshops for a variety of 
government and public entities, and help support teaching and research 
labs by insuring access to up-to-date image processing and GIS 
software. These goals, implemented together, will increase the 
availability and use of remote sensing data and technology throughout 
Nevada to an ever growing list of users and applications. In 
accomplishing these goals NevadaView will be implementing the its 
mission to provide to all levels of government and the private sector 
increased access to training, remote sensing data, and imagery 
applications. This will allow greater integration of the geospatial 
data and technology into everyday decision making.
    New Hampshire View provides a means to bring many groups that use 
remotely sensed imagery and other geospatial data together in a formal 
way to aid communication and sharing of resources. In addition, the 
consortium provides a single point of access for anyone in the state 
needing imagery or wishing to learn more about geospatial technology 
resources within New Hampshire. For its members, the consortium 
provides networking and collaboration infrastructure, educational 
support and outreach. The ongoing goal of New Hampshire View is to 
continue to develop and expand activities that will increase awareness 
among and collaboration between users of remotely sensed and other 
geospatial information in New Hampshire. We will continue to document 
and demonstrate the benefits of remote sensing education, outreach, and 
research activities throughout the state. We propose to achieve the 
following outcomes: (1) bring together all those in New Hampshire 
interested in using remotely sensed data to solve real problems, (2) 
develop a collaborative relationship between all academic institutions 
in the state that can then benefit state and local agencies, the 
private sector, and the public, (3) increase awareness and foster 
opportunities to work together among all remotely sensed data 
stakeholders in New Hampshire, and (4) expose those who may not know 
about the uses of remote sensing and other geospatial technologies to 
their many benefits and possibilities.
    New Mexico View, a consortium of 11 institutions including 
universities and public agencies, is committed to expanding the 
knowledge and use of remote sensing data and technologies through 
outreach programs. These programs are designed to facilitate the 
training of the existing and future high tech workforce of New Mexico. 
Our sponsored workshops and online tutorials are designed to educate 
and train a wide variety of users in remote sensing and geospatial 
concepts, data use, and applications of advanced technologies. In the 3 
years since New Mexico view was established, we have successfully 
conducted educational training events to communities, public agencies, 
and students throughout the state. New Mexico View mini-grant funds 
have allowed member institutions to develop educational materials and 
demonstrations on a range of geospatial concepts that support 
technology careers within the state.
    New YorkView joined in our AmericaView consortium in 2009. New 
YorkView focuses on two major activities: 1) establishing strong 
research groups in diverse applications of remote sensing particularly 
focusing on urban landscape and terrestrial ecology, and 2) promoting 
the use of remote sensing in academia and user communities by 
facilitating education as well as access to remote sensing data and 
products. New YorkView also plans to provide education and training 
opportunities to non-professionals and K-12 students. These activities 
will provide great benefit to various levels of the remote sensing user 
communities by improving remote sensing infrastructure of the state and 
nurturing good quality remote sensing scientists of the future.
    The objective for the North Carolina View consortium is to remove 
barriers between willing cooperating providers and users, to promote 
and expand the further development of applied remote sensing for local 
issues and problems, to cooperatively nurture the intellectual and 
technical capacity of users through higher education and outreach, and 
to engage with and educate the public about remote sensing through 
outreach and educational activities. North Carolina View's 
participation as a full member in the national AmericaView will enable 
remote sensing data users in North Carolina to 1) utilize a more 
efficient and effective means to locate, access, and retrieve existing 
and future remotely sensed data and applications statewide, 2) develop 
and enhance collaborative relationships of academic, federal, state, 
county, city, and public and private sector users, and 3) further the 
use of remote sensing in North Carolina to address critical issues the 
State faces, with emphasis on land use and land cover type change, and 
environmental and coastal resources.
    The North DakotaView consortium continues to focus on work with 
geospatial technology educators at tribal colleges serving American 
Indian groups with land holdings in North Dakota. In 2008, for example, 
we received an NSF Advanced Technology Education grant to work with 
educators at Turtle Mountain Community College that will ramp up 
geospatial technology education at that school. We continue to work to 
raise awareness about remote sensing and geospatial technologies among 
the general citizenry of North Dakota through various outreach and 
training efforts. In 2008 we awarded four $500 scholarships to students 
using geospatial technologies in their research. Many of those students 
completed their work successfully and presented results at regional 
and/or national conferences (duly acknowledging their funding from 
AmericaView). North DakotaView purchased an ERDAS Imagine HEAK license 
that will be shared among consortium members involved in higher 
education. In Fall 2009, North DakotaView will co-sponsor the North 
Dakota GIS Users' Conference in Grand Forks. We have seen an increased 
demand in the state for people trained in geospatial technologies and 
spatial reasoning, and we are pleased that AV funding helps us to fill 
that need.
    The goals of PennsylvaniaView are to 1) build partnerships within 
the Commonwealth to support interests in satellite remotely sensed 
data, 2) create resources for K-12 teachers to utilize in their 
classrooms to educate students about satellite imagery, 3) promote the 
sharing of data through connections with existing resources and 
acquisition of new data resources, 4) promote the annual Pennsylvania 
Workshop on Remote Sensing, and 5) work with undergraduate educators 
and institutions through the Commonwealth to enhance access to 
satellite data and encourage its use in their courses. The current 
economic situation has precluded many organizations from moving forward 
in their development and deployment of educational and training 
resources. The strong history of California University of 
Pennsylvania's role in such activities will allow CUP as the principal 
organization to provide leadership in this area. In addition, members 
of the PennsylvaniaView team have also led the way in developing and 
providing access to LIDAR data for Pennsylvania.
    In Ohio, OhioView is contributing to economic development and 
redevelopment of the economy through remote sensing and geospatial 
technology. Ohio's manufacturing base has shrunk considerably and Ohio 
is one of the hardest hit states due to the recession. Training of 
workers, teachers and students is an important step in preparing 
workers for the new economy. In Ohio, OhioView is also contributing to 
detection of water contamination through algal bloom detection in 
drinking water supplies and farmland/urban analysis. OhioView is 
contributing to disaster preparedness from oil spills on Lake Erie to 
installation security.
    The strength that has emerged from the South Dakota View program is 
its education, training and outreach activities. South DakotaView 
annually sponsors a Geospatial Technology for Educators workshop for K-
12 teachers, hosted at the USGS Center for Earth Observation and 
Science (EROS). At this workshop, and at other similar training and 
outreach events, educators learn how to incorporate remote sensing and 
related geospatial technologies into their classroom curriculum. South 
DakotaView's educational efforts also extend to the university 
classroom and to various user communities such as extension educators 
and agricultural producers. The extensive archive of remotely sensed 
imagery maintained by South DakotaView is utilized by a wide variety of 
users in South Dakota and beyond, including students, researchers, 
farmers and ranchers, and natural resource managers.
    As a founding member of the AmericaView Consortium, TexasView has a 
long and well established record of leadership and accomplishment. 
TexasView is patterned after the OhioView model. It is a consortium of 
universities, federal, state and local entities, dedicated to promoting 
remote sensing through a comprehensive program of research, education 
and outreach activities. This mission is closely aligned with the 
mission of TexasView host institution, the Columbia Regional Geospatial 
Service Center System, housed at Stephen F. Austin State University. 
TexasView is the remote sensing arm of the Columbia Center System. 
TexasView now includes 14 university members as well as an assortment 
of state and local agency affiliates. TexasView provides a remote 
sensing voice for the strong GIS community in Texas. TexasView provides 
strong support for state, regional and local agencies through data 
buys, archiving and distribution services. An on-going program of 
education and outreach is helping prepare a new generation of 
technologically savvy leaders. Finally, TexasView supports research by 
providing seed grants to member institutions.
    UtahView has developed Virtual Utah (http://earth.gis.usu.edu/utah/
), which was designed so that the public could appreciate changes in 
the Utah landscape through multi-temporal digital aerial photography. 
The map server provides users with aerial imagery (photography) for 
most of the state from 1993/97, 2003, 2004 and 2006. In addition it 
provides an easy-to-use interface for other forms of satellite imagery 
for the state, such as MODIS and Landsat. The Intermountain Region 
Digital Image Archive Center (IRDIAC; http://earth.gis.usu.edu/) is a 
user-friendly website designed to assist research, land management and 
educational institutions with the development of tools and decision 
support systems for natural resource management using remote sensing. 
The archive also stores, processes, and disseminates, through the 
Internet, remotely sensed information to state and federal 
collaborators and the public within the Intermountain Region.
    Although VermontView has not been funded yet our AmericaView 
consortium has been actively involved in insuring a return on 
investment on the high resolution imagery and LiDAR datasets that exist 
by 1) making them publically accessible and 2) generating usable 
products such as high resolution land cover. With funding we would 
really like to become more involved in disaster response. There is no 
agency in the state that has robust image exploitation capabilities. As 
a result imagery has not been used extensively for disaster response in 
the past.
    VirginiaView's goals are to distribute Landsat and related 
geospatial data to a broad spectrum of users; cultivate the user 
community through informational programs, workshops, development of 
educational resources and Landsat-related products; and strengthen and 
enlarge the coalition of VirginiaView partners through sharing of 
goals, mutual support, and close communication. Current topics for 
Virginia include applications of geospatial data to (a) improve 
understanding environmental implications of the karst landscapes of the 
Shenandoah Valley and neighboring West Virginia, (b) work with the 
Virginia Department of Health to investigate relationships between 
landscapes and occurrence of Lyme Disease, and (c) develop applications 
of night-time imagery to improve safety and community planning. Current 
activities are focused on delivering materials that support educational 
activities in K-12 classrooms and Virginia's Community Colleges. These 
activities are designed to exploit developments that permit data 
streaming in precollege educational institutions and the capabilities 
of Enterprise GIS capabilities to greatly increase the availability of 
these resources to middle and high school educators, among others.
    WashingtonView is the most recent affiliate member consortium of 
AmericaView. While a young program, WashingtonView has been active in 
developing educational materials for K-12 education and in linking 
remote sensing professionals and services throughout the state of 
Washington. We plan to provide quality materials to educators 
throughout the state by collaborating with school districts and 
educational non-profit groups. WashingtonView also functions as a 
networking community to connect researchers for the purpose of 
developing grants of all sizes related to regional remote sensing 
applications.
    West Virginia View's emphasis has been on supporting and 
strengthening K-12 and higher education throughout the state. Over the 
past five years, working with five academic institutions and numerous 
K-12 science teachers, West Virginia View has supported the development 
of new college courses, leveraged lab resources and software licenses, 
supported dozens of graduate students in remote sensing, and trained 
over 100 K-12 science teachers in geospatial science and technology. We 
are currently developing a new two-course sequence at West Virginia 
University for pre-service science teachers, focusing on geospatial 
technology and Earth system science applications. Our emphasis on 
science and technology education is paying dividends in schools, 
colleges, and in the state's technology workforce.
    The overall vision of WisconsinView has been to build and grow a 
remote sensing community in Wisconsin. WisconsinView adds remote 
sensing imagery to our online archive on a daily basis with the near 
real-time MODIS acquisitions that we clip and process to conform to our 
standard state projection. WisconsinView continues to develop and 
distribute GIS/RS instructions for educators that can be used in 
curricula to teach at the K-12 level. We have developed ``How-To'' 
instructions to accompany MODIS imagery available through WisconsinView 
and companion websites. Three of WisconsinView's best success stories 
involve 1) technology transfer that has resulted in the operational use 
of remote sensing by our Wisconsin DNR, 2) facilitating growth in the 
applications of RS data by making remote sensing data and imagery 
available for free download, and 3) support of Wisconsin emergency 
management for the flooding of 2008 that demonstrated the value of 
AmericaView and WisconsinView and the application of remote sensing 
data.
    WyomingView promotes the use of remote sensing technology for 
mapping and monitoring Wyoming's wildlands, rangelands, croplands and 
water resources. WyomingView also collaborates with federal, state, and 
tribal (Wind River Environmental Quality Commission) government 
agencies, with participation from the University of Wyoming (UW) 
students, for incorporating satellite images for natural resource 
management issues. Every year UW students receive internships to work 
on Wyoming's natural resource monitoring and mapping issues that are of 
interest to federal and state government agencies. Since 2003, more 
than 15 UW undergraduate and graduate students have been trained in the 
use of satellite images for natural resource management issues. 
WyomingView continues to provide technical support to governmental 
agencies, private companies and UW students and faculty in the use of 
remote sensing technology.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

  Response to questions submitted for the record by Dr. Dodge on H.R. 
                                  2489

Questions from Chairman Jim Costa from the State of California
1.  How much annual funding does a StateView typically receive?
    Beginning with the AmericaView incorporation as a 501c3 non-profit 
in 2003, StateViews received $89,500 each for three years, as 
membership expanded from 10 to 18. As AV funded new members, funding 
dropped to $84,000, then to $51,000. For the last two years, as we have 
grown to fund over 30 StateViews, the funding levels have dropped to 
$24,000 and now to $23,000 for this funding year.
 Also, please provide information on any contribution, including in-
        kind support, that the state or lead institution in your 
        StateView Program provides.
    While I was Director of GeorgiaView (until 1 year ago), my 
University allowed me to direct the 9-member consortium out of my 
office, rent free. Computer, phone, and all other utility services were 
also provided free, including free long distance and conference call 
services. Since I was still a University employee, I had access to 
state-provided health, dental, and retirement programs, instead of 
having to find those independently. I had access to the software and 
hardware needed for pilot applied research projects, for free. I had 
access to University laboratory facilities for offering workshops to 
State and private industry employees, rent free. The University also 
waived overhead charges on the grant by accepting the AV overhead limit 
of 15% (vs. standard rate of 48%); for several years, I asked for and 
got a complete waiver (0% overhead) because the funding rate had 
dropped to the point that I could not support StateView activities 
effectively. I believe that the overall value of these services and 
waivers is approximately equivalent to a 25% match.
2.  Expanding AmericaView to additional states and activities would 
        seem to require more funding. Have you considered soliciting 
        non-federal sources of support for AmericaView? Why or why not?
    We have considered seeking funding from private foundations that 
support science, technology, engineering and math education. As our 
funding levels have continually dropped, the actual existence of 
AmericaView has come into question over the past several years, and 
that has made it a bit difficult to argue for the sustainability of our 
organization as a future player in STEM education. We have turned that 
attitude around and are actively working now towards this goal of 
funding for our education activities. Since the rest of our work really 
involves helping a federal agency to meet its strategic plan goals in 
our states, private support for those activities is less likely.
 Some StateViews assist the private sector with geospatial analysis and 
        technology. Would it be possible for AmericaView to solicit 
        support from private sector beneficiaries of the program, or 
        create some form of public private partnership for AmericaView? 
        Why or why not?
    We have had, in several StateViews, partnerships that involve 
internships for students who perform pilot projects using geospatial 
technologies. This is an avenue that might be implemented very 
successfully with private industry. Both the students and the private 
sector host organizations would benefit. This can be pursued StateView-
by-StateView, or among StateViews with similar applications needs 
(range management; forestry management, coastal zone management).
    We do have partnership MOUs with private corporations that supply 
data and software that we use for teaching and for applied research. 
These relationships give us discounted prices for data, software, and 
training. All of these partnership activities with private industry 
better enable StateViews to perform their primary task, which is using 
our education, training, and outreach capabilities to support local, 
state, and federal agencies by transferring technology.
3.  AmericaView has existed for about 10 years. Why does H.R. 2489 need 
        to be passed by Congress for AmericaView to continue?
    The USGS AmericaView Program has existed since 1998. The 
AmericaView academic consortium has existed, with focused funding, 
since 2003. Funding levels have dropped continuously, and are now 25% 
of what they were in 2003. The consortium has more than tripled in size 
during the same period.
    The Authorization Bill will not only make us accountable to 
Congress in the appropriate way, but it will also ensure that a 
realistic analysis of the funding needs for the program described in 
the ``AmericaView Geospatial Imagery Mapping Program Act'' will be 
developed by Congress. Without the Authorization process, the levels of 
activity that can be achieved in each StateView Program have been 
restricted and funding has dropped to unsustainable levels. Although 
the StateViews do a lot with very little, as shown by the remaining 
activities that are going on at current funding levels, meeting all of 
the needs for bringing federally-funded satellite data and technology 
to bear on state problems is not possible at current funding levels.
    In my opinion, as a former StateView Director, the fact that 
passage of the Act has instigated an analysis is at multiple levels of 
what is meant by ``such sums as are necessary to carry out this Act'' 
is an important step in prioritizing what levels and ranges of activity 
are expected of the StateViews. Due to low levels of funding, 
StateViews have not been active in all of the areas listed in the Act. 
Funding at levels that allow StateViews to engage fully in 4 to 6 of 
the activities listed would ensure a very high impact in every State 
(requiring $15 - $25 million/year to be distributed among 50 states 
and territories). This is not to say that high levels of impact in some 
activity areas have not been achieved at lower levels of funding, just 
to say that wider impact in ongoing activities and expansion into new 
activities is possible as funding increases. Bringing funding back to 
levels to the ``original'' levels received by StateViews (\$85,000/
StateView/year) available during the first three of years of the 
program (requiring $5 million/year to be distributed among 50 states 
and territories) would result in high impacts in 2 to 3 areas. Passage 
of the Act will result in the cooperative clarification of expectations 
about activity levels, and enable StateView programs to meet them. 
Assessment strategies can be developed and implemented effectively, 
which will expand and sustain state-focused efforts in each StateView.
4.  H.R. 2489 directs the Secretary of the Interior to cooperate with 
        the AmericaView Project ``to develop nationally consistent 
        standards for geospatial imagery mapping in each state.'' 
        However, the development of standards for mapping seems like 
        the kind of activity that should involve more stakeholders than 
        the Department of the Interior and AmericaView. Could you 
        clarify the role you think would be appropriate for AmericaView 
        in the development of standards for mapping? Would 
        AmericaView's focus be more appropriately described as 
        development of standards for the distribution of images, 
        information, and technology, rather than for mapping?
    It would be more appropriate for AmericaView's focus to be on 
helping to investigate existing standards and needs for the 
distribution of data, on advising during the formulation of new 
standards. It is also appropriate for AmericaView to focus mainly on 
promoting the new standards through various outreach, training, and 
education efforts. Finally, we believe that it is appropriate to limit 
this direction to apply to remotely sensed data, rather than mapping in 
general. We understand that this was raised as an issue by the USGS as 
well, and believe that it is being clarified in subsequent language.
5.  This bill would expand AmericaView to all 50 states. Is that 
        realistic? Why is it important for this program to be in all 50 
        states and territories?
    The expansion of AmericaView to all 50 states is very realistic. 
Currently, 36 states are members of the AmericaView Consortium (we are 
only able to fund 33 states at this time) and our Executive Director is 
engaged in discussions with an additional four states regarding their 
potential membership. One significant drawback to recruiting new 
StateViews at this time is the limited funding available to support 
AmericaView activities.
    A major focus of the AmericaView consortium has been helping to 
meet the goals of the USGS Strategic Plan, in each member state. 
Furthermore, we StateViews work synergistically, and are beginning to 
address multiple-state projects and issues that are not confined to 
state boundaries (drought, floods, fires, hurricanes). As a federally-
supported effort to bring federal resources of imagery, applications 
and technology into the member states while at the same time developing 
new applications, it's important to include all the states (and 
territories, as per the definitions section of the Act). It's also true 
that with each state we add, we gain new expertise, teaching resources, 
and methodologies that can be disseminated among all the members.
6.  How do you see AmericaView interacting with ongoing image-
        collection initiatives like Imagery for the Nation and USDA's 
        NAIP aerial photography program? Please explain the differences 
        between the Imagery for the Nation Initiative and the NAIP 
        Program and the activities that will be authorized through H.R. 
        2489.
    The primary distinction is that Imagery for the Nation and NAIP 
emphasize collection and archive of data at the national level while 
AmericaView emphasizes education, outreach, and application of that 
data at the state level. Collection and archive within AmericaView is 
limited to meeting specific local needs. The programs are, therefore, 
highly complementary.
    The Imagery for the Nation initiative has great potential to bring 
about the kinds and levels of coverage that states need to solve many 
problems. AmericaView enthusiastically supports the goals of this 
initiative. We stand ready to ensure that the data delivery, 
applications development, training, outreach, and education 
infrastructure we have developed and are continuing to develop is 
available to support this initiative. Many StateViews already deliver 
NAIP imagery across their states through StateView websites. For 
example, WisconsinView's consortium member, USDA - Wisconsin Farm 
Service Agency, will be providing 1-meter statewide 2008 NAIP GeoTIFF 
imagery by the end of 2009. WisconsinView will put that data online in 
early 2010.
    Just as with other federally-funded imagery, AmericaView is the 
bridge between the NAIP and IFTN imagery and the end user. We identify 
needs, educate and train the end user, and develop and demonstrate new 
applications of all kinds of imagery. Our function is complementary to 
these two programs, and in no way competitive.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  The National Cooperative Geologic Mapping Program has a state match 
        funding requirement. Would you support a similar requirement 
        for the America View Geospatial Imagery Mapping Program? Would 
        you support a 25% federal/75% state share requirement? Would 
        you support a 50/50 cost share requirement?
    Effectively, the StateView host Universities, already make an in-
kind match at the 25% level. While I was Director of GeorgiaView (until 
1 year ago), my University allowed me to direct the 9-member consortium 
out of my office with no direct cost to GeorgiaView. Computer, phone, 
and all other utility services were paid for by the University, again 
at no cost to GeorgiaView, including no direct-cost long distance and 
conference call services. I had access to the software and hardware 
needed for pilot applied research projects, at no direct cost. I had 
access to University laboratory, computer, instrument, and audiovisual 
facilities for offering workshops to County, State Federal, and private 
industry employees. The University also waived overhead charges on the 
grant by accepting the AV overhead limit of 15% (vs. standard rate of 
48%); for several years, I asked for and got a complete waiver (0% 
overhead) because the funding rate had dropped to the point that I 
could not support StateView activities effectively. I believe that the 
overall value of these services and waivers is approximately equivalent 
to a 25% match.
    Often, when the lead institution gives grants to other member 
institutions, they require that the 15% overhead rate be adhered to by 
the institution receiving the grants (putting even more funds to 
applied rather than administrative use). StateViews actually husband 
our limited resources quite well, and I think it might be difficult to 
squeeze more match out of our already-budget-challenged institutions.
2.  What other sources of funding do the States receive for this 
        program? Do you receive grants from other federal agencies?
    There is ``a whole lotta leveraging'' going on in each StateView, 
and in each StateView's member institutions. Training programs, 
scholarship programs, pilot projects, outreach events--all these and 
other efforts are pursued in cooperation with private industry, other 
funded groups such as NASA Space Grant, state and federal agencies 
needing pilot project, and users groups. This leveraging effectively 
extends our funding for specific applications and events. StateView 
Directors, where such a position still exists, are typically funded 
more than 50% by grant funds from non-AmericaView/USGS sources. Of 
course they have the attached responsibilities for that ``outside'' 
funding, diminishing their focus on AmericaView goals and activities.
3.  Would you support a sunset provision in the authorizing legislation 
        to allow Congress to review this program again in 10 years? 20 
        years?
    We believe that it is appropriate for the program to be reviewed on 
a regular basis, although the annual review provided by the USGS as 
part of the competitive grant provision of the Act provides an 
excellent mechanism for federal oversight. In addition, we are reviewed 
annually by our peers from the other StateViews, prior to approval for 
another round of annual funding.
    The needs in the states are going to change over time, and such 
reviews should be required. The Act actually authorizes AmericaView for 
5 years, although with the time required to bring all states and 
territories into the program and fully operational suggests that the 
suggested 10-20 years might be more appropriate.
Questions from Congressman Gregorio Kilili Camacho Sablan from the 
        Commonwealth of the Northern Mariana Islands
 Is there going to be a ``Territory View'' or other program relevant to 
        the Commonwealth of the Northern Mariana Islands?
    Yes, this should be the case. The predicted changes in coastal 
management issues could impact our Territories profoundly; it's not 
just lower 48, Hawaii, and Alaska coastlines undergoing retreat. 
Coastal wetlands, mangroves, coral reefs, salt marshes, and estuaries--
these are all national resources that must be monitored and protected 
across the entire nation. Citizens in the Territories need education, 
training, and applied research efforts in order to accomplish these 
goals.
    The term State, as defined in the Act, includes:
    (A)  each of the several States of the United States;
    (B)  the District of Columbia;
    (C)  the Commonwealth of Puerto Rico;
    (D)  Guam;
    (E)  American Samoa;
    (F)  the Commonwealth of the Northern Mariana Islands; and
    (G)  the United States Virgin Islands.
    I assume that applies to the ``State'' in ``StateView''.
AmericaView is one key USGS effort that engages stakeholders through
        1.  outreach
        2.  education
        3.  applied research
        4.  data distribution
USGS strategic plan goals that AmericaView addresses in each state:
    1.  Understanding ecosystems and predicting ecosystem change
    2.  Climate variability and change
    3.  National hazards, risk, and resilience assessment
    4.  The role of the environment in wildlife and human health
    5.  A water census of the U.S.--quantifying, forecasting, and 
securing freshwater for America's future
    6.  ``New methods of Investigation and discovery''
         1.  Planning for long-term data management and dissemination 
        into multidisciplinary science practices
         2.  Developing a sustainable data-hosting infrastructure to 
        support retention, archiving, and dissemination of valuable 
        USGS data sets in accordance with open standards
         3.  Identifying and leveraging national and international 
        efforts to promote comprehensive data information management 
        and foster sharing of knowledge and expertise
         4.  Enhancing workforce expertise in evolving technologies
         5.  Identifying and establishing external partnerships with 
        scientists and technologists
         6.  Developing ``communities of practice'' that share 
        resources and actively seek to deploy evolving technologies
         7.  Accelerating the introduction and piloting of new 
        technologies
                                 ______
                                 
    Mr. Costa. Thank you. You were within the time allotted, so 
you get extra points. We will look forward to the questions.
    Ms. Mary O'Neill, Principal Investigator for South Dakota 
View, Manager for the Office of Remote Sensing at South Dakota 
State University. This is now your third introduction, so we 
are looking forward to your testimony.

   STATEMENT OF MARY O'NEILL, SOUTH DAKOTA VIEW DIRECTOR AND 
     MANAGER, OFFICE OF REMOTE SENSING, SOUTH DAKOTA STATE 
                           UNIVERSITY

    Ms. O'Neill. Thank you and good morning.
    Mr. Costa. Good morning. It is almost afternoon now.
    Ms. O'Neill. It is. Thank you, Chairman Costa and Ranking 
Member Lamborn, for inviting me here today to testify, and 
thanks also to my South Dakota Congresswoman, Stephanie Herseth 
Sandlin, for her introduction this morning and for her 
longstanding support of the AmericaView program and her 
sponsorship of the AmericaView legislation that is our focus 
here today.
    AmericaView is a program that is a model of the way our 
country should be utilizing its investment in earth observation 
aircraft and satellites and the data they acquire. Remotely 
sensed imagery is no longer esoteric, something used 
exclusively by gray-bearded university researchers. Rather, it 
is a tool that contributes to the quality and safety of each of 
our lives on a daily basis.
    Like many new technologies, potential users need to be 
educated on the value of the technology and how it can help 
them do their jobs more effectively, economically and 
sustainably. That is the role of AmericaView--to be the conduit 
of remote sensing technology transfer.
    The shape and size of that conduit varies from state to 
state. The conduit for South Dakota will look different than 
the conduit for Maryland because our populations and landscapes 
are very different. Our national coordination, however, means 
that we can share ideas, experiences and data that benefit one 
another.
    The mission of AmericaView, according to its charter, is to 
advance the availability, timely distribution and widespread 
use of remote sensing data and technology through education, 
research, outreach and sustainable technology transfer to the 
public and private sectors. It is the education and outreach 
portion of the AmericaView mission that I would like to focus 
on this morning.
    Each of the 36 current AmericaView states engages in 
education and outreach activities. The pie chart that you see 
on the screen shows the various categories of educational 
activities proposed by AmericaView member states for the coming 
year. The list of past, current and proposed educational 
activities in the AmericaView member states is long and diverse 
and includes:
    Collaboratively developing an on-line remote sensing 
tutorial, offering workshops such as the Hurricane Season 
Imagery Workshop in Louisiana, demonstrating to state and 
Federal agency personnel the use of an unmanned airborne system 
for rangeland assessments, providing geospatial training to the 
Texas National Guard and State Guard, training tribal 
government personnel from the Wind River Indian Reservation, 
providing a hands-on geospatial activity for students 
participating in a 4-H camp and offering summer training for K-
12 students and teachers.
    AmericaView's education services are provided to several 
different groups of current and future users of geospatial 
technologies. K-12 teachers comprise one of these groups. 
Training the next generation of scientists and citizens is one 
of the awesome tasks required of K-12 teachers. It is 
imperative, therefore, that the teachers themselves are 
adequately prepared.
    Another user group we work with is students. We are often 
invited into K-12 classrooms to make presentations and do 
hands-on activities such as GPS treasure hunts or geocaching, 
and we also work with students in organizations such as 4-H and 
the Boy Scouts. We of course also work with postsecondary 
students in community colleges, tribal colleges and our 
universities.
    The current workforce is another group that is served by 
AmericaView. This group includes farmers, ranchers, state and 
Federal agency personnel, school district administrators, local 
and tribal government officials, disaster response teams, 
natural resource managers, military personnel and extension 
educators.
    Passage of H.R. 2489 will make it possible to enhance the 
quantity and quality of our AmericaView education efforts, 
including extending the AmericaView program to all 50 states 
and territories, expanding the number of courses taught in 
universities and colleges, providing additional geospatial 
tools for educators, allowing greater access to imagery and 
building training partnerships with all levels of government.
    As we look at the challenges that our children and 
grandchildren will face in the future--energy supply, climate 
change, natural resource availability and distribution and 
national security--we know that the role of geospatial 
technology will become more important.
    AmericaView is proud of the role it has played thus far in 
training the current and future workforce. We look forward to 
Congress' continued and expanded support of our country's 
critical geospatial education needs.
    Thank you, Mr. Chairman, for this opportunity to testify 
today.
    [The prepared statement of Ms. O'Neill follows:]

 Statement of Mary O'Neill, Principal Investigator, South Dakota View, 
  and Manager, Office of Remote Sensing, South Dakota State University

    Good morning. My name is Mary O'Neill. I currently serve as the 
manager of the Office of Remote Sensing at South Dakota State 
University and as the principal investigator of the South Dakota View 
consortium. I would like to thank Chairman Costa for inviting me to 
testify at today's hearing on H.R. 2489, the AmericaView Geospatial 
Imagery Mapping Program Act. I would also like to thank my South Dakota 
Congresswoman, Stephanie Herseth Sandlin, for her long-standing support 
of the AmericaView program and her sponsorship of the AmericaView 
legislation that is our focus today.
    AmericaView is a program that is near and dear to me. More 
importantly, however, it is a program that is a model of the way our 
country should be utilizing the investment it has made in earth 
observation aircraft and satellites and the data they acquire. Remotely 
sensed imagery is no longer esoteric, something used exclusively by 
gray-bearded university researchers. Rather, it is a tool that 
contributes to the quality and safety of each of our lives on a daily 
basis. As with many new technologies, potential users need to be 
educated on the value of the technology and how it can help them do 
their jobs more effectively, more efficiently, more economically, and 
more sustainably. That is the role of AmericaView--to be the conduit of 
remote sensing technology transfer. The shape and size of that conduit 
varies from state to state. That is the beauty of AmericaView. As our 
charter proclaims, we are locally controlled and nationally 
coordinated. The conduit for South Dakota will look different than the 
conduit for Maryland because our populations and landscapes are very 
different. Our national coordination, however, means that we get 
together to share ideas, experiences and data that will benefit one 
another--the synergistic nature of the AmericaView organization.
The Education Component of AmericaView
    The mission of AmericaView, according to its Charter, is ``...to 
advance the availability, timely distribution, and widespread use of 
remote sensing data and technology...through education, research, 
outreach and sustainable technology transfer to the public and private 
sectors.'' It is the education and outreach portion of the AmericaView 
mission that I would like to focus on this morning. As I mentioned 
earlier, education is a vital part of the technology transfer process. 
Each of the 36 current AmericaView states engages in education and 
outreach activities. The pie chart in Figure 1 shows the various 
categories of educational activities proposed by AmericaView member 
states for the program year starting in September 2009 along with the 
percentage breakdown of these activities.
    The list of educational past, current and proposed educational 
activities in the AmericaView member states is long and diverse. Here 
is a sampling of those activities:
    <bullet>  CaliforniaView, IowaView, and GeorgiaView have worked 
collaboratively to develop an on-line remote sensing tutorial as part 
of a remote sensing certification program
    <bullet>  MarylandView and PennsylvaniaView are working together to 
update and revise the Mid-Atlantic from Space lessons developed earlier 
by MarylandView
    <bullet>  PennsylvaniaView is creating university lessons in 
conjunction with a private-sector software vendor
    <bullet>  LouisianaView, along with the USGS National Wetlands 
Research Center, annually offers a data mining workshop entitled 
``Louisiana Hurricane Season National and Local Geospatial Imagery Data 
Availability''
    <bullet>  NewMexicoView, in its next program year, plans to 
demonstrate to state and federal agency personnel the acquisition of 
digital remote sensing images and video for rangeland assessment and 
monitoring using an Unmanned Airborne System (UAS)
    <bullet>  TexasView, in the summer and fall of 2010, will provide a 
comprehensive Level III geospatial training program to the Texas State 
Guard, focusing on geospatial technology for command and control
    <bullet>  WyomingView plans to train tribal government personnel 
from the Wind River Indian Reservation on image processing techniques
    <bullet>  The AmericaView Education Working Group, comprised of 
members from several states, is currently planning activities for Earth 
Observation Day in the spring of 2010
    <bullet>  New Mexico, Kentucky, Colorado, North Dakota and Hawaii 
will be using Google Earth technology to assist teachers, students and 
the general public in understanding remote sensing applications
    <bullet>  HawaiiView will conduct remote sensing workshops at Na 
Pua Noevau Super Saturday Events, in collaboration with the Native 
Hawaiian Science and Engineering Mentorship
    <bullet>  NebraskaView plans to provide a hands-on geospatial 
activity for 60-80 students who will be participating in the 4-H Big 
Red Summer Camp
    <bullet>  OhioView, which has been offering its summer SATELLITES 
(Students and Teachers Exploring Local Landscapes to Interpret the 
Earth from Space) institute for the past nine years, will expand the 
institute to the states of Pennsylvania and Maryland
    <bullet>  SouthDakotaView recently offered its eleventh annual 
Geospatial Technology for Educators workshop. This four-day workshop, 
held at the USGS Center for EROS, exposed K-12 teachers to remote 
sensing and other geospatial technologies and how they can be 
integrated into their classroom curriculum
    <bullet>  SouthDakotaView will, during its next program year, 
prepare a presentation suitable for service clubs that will create 
awareness of AmericaView and SDView and the general public services 
they provide.
Who Benefits from AmericaView's Education Efforts?
    As you can see from the list above, our services are provided to 
several different groups of current and future users of geospatial 
imagery and associated technologies. K-12 teachers comprise one of 
those groups. Training the next generation of scientists, 
technologists, engineers and mathematicians--the STEM disciplines--is 
one of the awesome tasks required of K-12 teachers. It is imperative, 
therefore, that the teachers themselves have adequate and state-of-the-
art knowledge in these disciplines along with the tools and enthusiasm 
required to engage their students. Workshops, such as the Geospatial 
Technology for Educators workshop shown in Figure 2, are offered by 
many of the AmericaView states to give teachers the opportunity to 
learn about geospatial technologies such as remote sensing, geographic 
information systems (GIS), and global positioning systems (GPS). At the 
workshops they also learn how to incorporate these technologies into 
their curriculum, i.e., how to use the technologies to enhance what 
they are required to teach. Our vision is that one day the use of 
geospatial technologies in the classroom will be as common as the 
present-day use of word processing, spreadsheets, and PowerPoint--
technologies that as recent as 10 years ago were also new to teachers.
    The current popularity of GPS and Google Earth among the general 
public is a hook that can be used to further the geospatial knowledge 
of both teachers and their students. Many AmericaView workshops 
demonstrate to teachers how these commonly available geospatial tools 
can be effectively used in their classrooms. Many workshops also 
require that the teachers create lesson plans that use one or more 
geospatial technologies in their discipline area. These disciplines 
include physical science, Earth science, chemistry, geography, 
mathematics, and even the social sciences, music and art. These lesson 
plans are then shared with other teachers at the workshop and in their 
school districts; thus the technology transfer continues.
    Another user group we work with is students. K-12 teachers will 
often ask us to come to their school to tell their students about 
geospatial technology and/or do hands-on activities such as GPS 
treasure hunts or geocaching with their students. We also often do 
hands-on activities with students who are a part of organizations such 
as 4-H and the Boy Scouts. We, of course, also work with post-secondary 
students in community colleges, tribal colleges, and our universities. 
Interaction with these students may be in the classroom, in a research 
lab, or as an advisor. AmericaView is of benefit to these students in 
many ways. Some of them are able to do classroom and research projects 
because of the data that are freely available to them in the 
AmericaView image archives. Some of them find their classroom lectures 
more interesting and relevant because of the real-world experience of 
their AmericaView-associated professors or guest lecturers. Some of 
them have received assistantships, internships or mini-grants from 
AmericaView. Some of them will benefit from the software licenses that 
another university within their state consortium was able to share with 
them. And some of them will find jobs because of the connection their 
instructor or advisor has to the AmericaView network. Figure 3 shows 
some of the students we have recently worked with in South Dakota.
    The current workforce is another group that benefits from 
AmericaView's education efforts. This group includes farmers, ranchers, 
state and federal agency personnel, school district administrators, 
local government personnel, tribal government officials, disaster 
response teams, natural resource managers, military personnel, and 
extension educators. An example of the latter is the two-day training 
session sponsored by South Dakota View at the USGS Center for EROS near 
Sioux Falls in 2007. Approximately 16 extension educators from the 
South Dakota Cooperative Extension Service attended this workshop and 
learned about the role of geospatial technologies in precision 
agriculture. These educators in turn transferred their new-found 
knowledge to the thousands of constituents they serve in the state. An 
example that involves a combination of military and disaster response 
officials is the training delivered by TexasView for the Texas National 
Guard and Texas State Guard. Three levels of training enable the 
Guardsmen to become proficient in using geospatial technologies in 
their unit facilities and in the field in response to natural or man-
caused disasters in order to safeguard human life and restore critical 
services such as electrical power and clean water.
    The general public can be thought of as yet another education 
group. This group learns about geospatial technologies by viewing 
displays in museums and other public places, by attending events that 
provide hands-on experience, and by viewing AmericaView member state 
websites. The value of this type of learning is documented in a study 
recently published by the National Academy of Sciences entitled 
``Learning Science in Informal Settings: People, Places, Pursuits.'' 
This study found evidence that informal education programs involving 
exhibits, new media, and hands-on experiences--such as public 
participation in research--increase interest in science, technology, 
engineering and mathematics and related careers for both children and 
adults.
The AmericaView Geospatial Image Mapping Program Act
    Although the list of current and planned educational activities is 
already impressive, passage of the AmericaView Geospatial Image Mapping 
Program Act will make it possible to enhance the quantity and quality 
of AmericaView's education, training and outreach efforts. These 
enhancements include:
    <bullet>  Extending the AmericaView program to all 50 states and 
territories, thus making it possible for many more students, teachers 
and workforce personnel to learn about geospatial data and technologies
    <bullet>  Expanding the number of remote sensing and other 
geospatial technology courses taught at universities, community 
colleges, historically black colleges and universities, and tribal 
colleges
    <bullet>  Providing additional and easy-to-use geospatial tools for 
educators
    <bullet>  Expanding geospatial imagery mapping research at research 
universities
    <bullet>  Allowing greater access to remotely sensed imagery and 
image processing tools
    <bullet>  Providing more training for current workforce personnel
    <bullet>  Promoting imagery formats that are compatible with 
commonly used software
    <bullet>  Building training partnerships with all levels of 
government
    <bullet>  Supporting student research and development activities
    The United States Department of Labor in 2004 identified the 
geospatial technology industry as a high-growth industry. The criteria 
used for this designation were: (1) the industry is projected to add 
substantial numbers of new jobs to the economy or affect the growth of 
other industries, or (2) the industry is an existing or emerging 
business being transformed by technology and innovation requiring new 
skills for workers. Both criteria lend credence to the importance of 
AmericaView's role in geospatial education. The U.S. Department of 
Labor, in its High Growth Industry Profile of Geospatial Technology, 
notes that ``Geospatial products and specialists are expected to play a 
large role in homeland security activities.'' This same document states 
that ``Increasing demand for readily available, consistent, accurate, 
complete and current geographic information and the widespread 
availability and use of advanced technologies offer great job 
opportunities for people with many different talents and educational 
backgrounds (US Geological Survey and U.S. Bureau of Labor 
Statistics).''
    The current and projected demand for workers with geospatial 
technology skills is evident. As we look at the challenges that our 
children and grandchildren will face in the future--energy supply, 
climate change, natural resource availability and distribution, and 
even national security--we know that the role of geospatial technology 
will become more important with each passing decade. AmericaView is 
proud of the role it has played in training the current and future 
geospatial technology workforce and in preparing for our future. We 
look forward to Congress's continued and expanded support of our 
country's critical geospatial education needs.
    Thank you, Mr. Chairman, for this opportunity to testify before you 
and this Subcommittee.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [NOTE: Figures 2 and 3 (photographs) have been retained in the 
Committee's official files.]
                                 ______
                                 

     Response to questions submitted for the record by Mary O'Neill

Questions from Chairman Jim Costa from the State of California
1.  How much annual funding does a StateView typically receive? Also, 
        please provide information on any contribution, including in-
        kind support, that the state or lead institution in your 
        StateView Program provides.
    Since FY03 every StateView has received an equal amount of funding. 
The amounts are:
    FY03-FY05 -- $89,500
    FY06 -- $84,000
    FY07 -- $51,000
    FY08 -- $23,989
    FY09 -- $23,100 (anticipated amount)
    South Dakota State University (SDSU), the lead institution for 
SouthDakotaView (SDView), provides office space, telephone, computer 
hardware and software, utilities, and all of the other services 
normally included in a university's indirect cost structure. Since 
FY06, SDSU has allowed a reduced indirect cost rate of 15% for SDView. 
Because SDSU would normally charge an indirect rate of 44.5%, it is, in 
essence, making an in-kind contribution of 29.5% of our SDView direct 
costs. Previous to FY06 when funding levels were much higher than they 
are now, SDSU allowed an indirect cost rate of 25%.
    Although the level of StateView funding has decreased dramatically 
in the past few years, many StateViews have tried hard to maintain the 
level of services provided in previous years. This has necessitated 
innovative types of leveraging and other means of unofficial in-kind 
support. Although this may be effective for the short term, it is not 
sustainable and, for many StateViews, is not possible.
2.  Expanding AmericaView to additional states and activities would 
        seem to require more funding. Have you considered soliciting 
        non-federal sources of support for AmericaView? Why or why not? 
        Some StateViews assist the private sector with geospatial 
        analysis and technology. Would it be possible for AmericaView 
        to solicit support from private sector beneficiaries of the 
        program, or create some form of public private partnership for 
        AmericaView? Why or why not?
    AmericaView will indeed require more funding to expand the number 
of StateViews and their activities. We have considered soliciting non-
federal sources of support for AmericaView, including state and local 
governments, foundations, and private industry. Currently, state and 
local government agencies are not in a position to fund AmericaView 
activities and, in fact, are often the recipients of AmericaView 
services. Our mission is to show them how they can use our country's 
huge investment in remotely sensed imagery to do their jobs more cost-
effectively and efficiently, with a hoped-for result of more demand for 
the imagery and perhaps the creation of value-added industries that 
will contribute to economic development.
    AmericaView already has agreements in place with some private-
sector vendors. These agreements make it possible for StateView 
consortium members to purchase imagery and software at reduced prices 
for education and applied research purposes. As with the federal 
government, the ultimate goal of these vendors is to cultivate more 
users of remote sensing data and associated technologies. Since 
AmericaView is, in a sense, creating customers for the private sector, 
we may be able in the future to create a public-private partnership 
that could partially fund AmericaView activities. However, my belief is 
that this possibility is many years down the road and contingent upon 
continued and enhanced federal funding to create a critical mass of 
customers.
3.  AmericaView has existed for about 10 years. Why does H.R. 2489 need 
        to be passed by Congress for AmericaView to continue?
    As evidenced by the hundreds of highly leveraged cooperative 
projects that AmericaView undertakes each year and the testimonials 
regarding those projects in our annual reports to USGS, AmericaView is 
providing a valuable and unique service to many individuals and groups. 
Passage of H.R. 2489 will provide congressional recognition of what 
AmericaView has accomplished and its potential for continued and 
enhanced services. An AmericaView program that has been authorized by 
Congress will create greater awareness of the program, give it more 
visibility and legitimacy, and make it more accountable. It will 
hopefully also be the impetus for increased funding that will allow the 
program to grow to include all 50 states and territories and increase 
the services provided by each StateView.
4.  H.R. 2489 directs the Secretary of the Interior to cooperate with 
        the AmericaView Project ``to develop nationally consistent 
        standards for geospatial imagery mapping in each state.'' 
        However, the development of standards for mapping seems like 
        the kind of activity that should involve more stakeholders than 
        the Department of the Interior and AmericaView. Could you 
        clarify the role you think would be appropriate for AmericaView 
        in the development of standards for mapping? Would 
        AmericaView's focus be more appropriately described as 
        development of standards for the distribution of images, 
        information, and technology, rather than for mapping?
    Developing mapping standards is not an appropriate role for 
AmericaView. Entities such as the National Spatial Data Infrastructure, 
the Federal Geographic Data Committee and the USGS National Geospatial 
Programs Office have developed national mapping standards and are 
charged with updating them as necessary. A more appropriate role for 
AmericaView is to be cognizant of the mapping standards and to make 
sure that state and local agencies and other ``clients'' with whom we 
work are in compliance with the standards. As you suggest, it would 
also be appropriate for AmericaView to be involved in the development 
of standards for the distribution of remotely sensed imagery, 
information and technology.
5.  This bill would expand AmericaView to all 50 states. Is that 
        realistic? Why is it important for this program to be in all 50 
        states and territories?
    It would seem unfair to deny any of the states or territories the 
benefits that result from an AmericaView presence in their state or 
territory. AmericaView is described as a program that is nationally 
coordinated and locally controlled. This means that even though there 
are common requirements among the StateViews, each has the flexibility 
to adapt its program to meet the needs within its state. National 
coordination also means that synergy exists among the states, enabling 
the sharing of resources and ideas that result in savings of time, 
effort and money. As more states and territories are added, the 
knowledge base increases, more ``customers'' are created, and the 
utilization of remotely sensed products is expanded. All of our states 
and territories deserve a StateView that can work with them in 
utilizing remotely sensed imagery for purposes such as better natural 
resource management and inventory, increased levels of precision 
agriculture, a greater understanding of climate change, and more 
effective response to natural disasters.
    The United States Department of Labor in 2004 identified the 
geospatial technology industry as a high-growth industry. The criteria 
used for this designation were: (1) the industry is projected to add 
substantial numbers of new jobs to the economy or affect the growth of 
other industries, or (2) the industry is an existing or emerging 
business being transformed by technology and innovation requiring new 
skills for workers. Both criteria lend credence to the importance of 
AmericaView's role in geospatial education--in all 50 states and 
territories.
6.  How do you see AmericaView interacting with ongoing image-
        collection initiatives like Imagery for the Nation and USDA's 
        NAIP aerial photography program? Please explain the differences 
        between the Imagery for the Nation Initiative and the NAIP 
        Program and the activities that will be authorized through H.R. 
        2489.
    Imagery for the Nation (IFTN) and NAIP are programs that acquire 
aerial photography and make it available for distribution and 
utilization. AmericaView is a program that creates awareness (and 
supports the use) of the imagery available from IFTN, NAIP, and several 
other government and private industry sources. AmericaView strives to 
connect imagery and users through education, outreach, and 
applications. Because each StateView is university-based, the 
AmericaView community is well-connected to remote sensing research and 
researchers. It is the mission of AmericaView to transfer the results 
of this applied research to the user community, including K-12 and 
university students who are our next generation of citizens, scientists 
and data consumers.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  The National Cooperative Geologic Mapping Program has a state match 
        funding requirement. Would you support a similar requirement 
        for the America View Geospatial Imagery Mapping Program? Would 
        you support a 25% federal/75% state share requirement? Would 
        you support a 50/50 cost share requirement?
    With the current downturn in state and university economies, it 
would be extremely difficult to cost share at either a 25/75 or 50/50 
level. However, StateView host universities are already providing a 
form of cost sharing by agreeing to an indirect cost rate of 15%. South 
Dakota State University, for example, would normally charge an indirect 
rate of 44.5%. It is, in essence, making an in-kind contribution of 
29.5% of our SDView direct costs.
2.  What other sources of funding do the States receive for this 
        program? Do you receive grants from other federal agencies?
    In general, the StateView programs do not receive any other direct 
sources of funding for their AmericaView activities. In order to 
provide an adequate level of service, most StateViews do, however, 
highly leverage other programs that allow them to share resources, 
create travel efficiencies, and maximize their exposure to the user 
community. As noted in question 1 above, host universities also in 
essence provide funding by accepting an indirect cost rate of 15%.
3.  Would you support a sunset provision in the authorizing legislation 
        to allow Congress to review this program again in 10 years? 20 
        years?
    I would support a sunset provision in H.R. 2489 because of the 
potential for change in remote sensing technology, its applications, 
and user needs and because of the accountability that is necessary for 
any program such as this. The education and outreach needs in the user 
community will likely still exist far into the future, but the types of 
remotely sensed data, delivery methods, and processing techniques will 
change. Reviewing the program in 15 to 20 years seems to be appropriate 
given the fact that only 36 states are currently within the AmericaView 
program and many of them are in the initial stages of their StateView 
development. This period of time would be sufficient for all 50 states 
and territories to come on board and develop a mature program.
                                 ______
                                 
    Mr. Costa. Thank you, and I know why your Congresswoman is 
so high on the good work you are doing. Clearly it has made a 
difference in South Dakota.
    Ms. O'Neill. Thank you.
    Mr. Costa. We appreciate your testimony.
    Our last witness on this panel, but certainly not the 
least, is Dr. Sam Batzli. We look forward to hearing your 
testimony. Dr. Batzli is the Geospatial Information Scientist 
at the Space Science & Engineering Center of the University of 
Wisconsin-Madison. Did I get that right? That is a mouthful.
    Dr. Batzli. Yes, that is right. Thank you.
    Mr. Costa. OK. Five minutes. You are on.

STATEMENT OF SAM BATZLI, WISCONSINVIEW DIRECTOR, SPACE SCIENCE 
     & ENGINEERING CENTER, UNIVERSITY OF WISCONSIN--MADISON

    Dr. Batzli. Good morning. My name is Sam Batzli. I am a 
scientist at the University of Wisconsin-Madison, Director of 
WisconsinView and a member of the AmericaView board of 
directors. I would like to thank Chairman Costa and Ranking 
Member Lamborn for inviting me to testify today.
    Why does AmericaView matter? Two main reasons. First, 
AmericaView bridges a gap. To a significant extent, satellite 
imagery is available to the public from Federal agencies like 
USGS, but satellite imagery is not plug-and-play. Experts in 
universities, governmental agencies and the private sector 
require sophisticated software and processing techniques to 
extract information for end users.
    What has been missing is the infrastructure to implement 
that knowledge at a local level where it can be used on a daily 
basis to improve the lives of people, and that is where 
AmericaView comes in. AmericaView has become that 
infrastructure and bridges that gap.
    Second, AmericaView helps deliver a greater return on the 
billions of dollars already invested in our Federal earth 
observation systems, data warehouses and university science. It 
extends the reach of USGS and other agencies.
    Let us look at AmericaView's support for disaster response 
and recovery. As you can see here, satellite imagery and air 
photos provide what no other technology can. With just a 
glance, managers can see what they are dealing with.
    Here are some examples. In June of 2008, all of southern 
Wisconsin experienced severe flooding. As the crisis developed, 
Chris Diller of the Wisconsin Department of Military Affairs--
and Chris is here with us today as a guest--requested the USGS 
activate the international charter, an agreement with foreign 
nations to share satellite imagery at times of emergency.
    The charter is especially important for floods and 
hurricanes because the U.S. does not have a civilian satellite 
system that can see through clouds and measure the extent of 
flooding below as radar systems can.
    Within a day, radar imagery of the flooding became 
available from the Canadian space agency. Tapping into the 
expertise of WisconsinView and AmericaView, the Wisconsin DMA 
had the map it needed within 48 hours. Attachment 2 of my 
written material includes a statement by Chris.
    LouisianaView supported Katrina relief with rapid 
deployment of a website to access air photography, among other 
support activities. TexasView processed international charter 
imagery for mapping Hurricanes Dolly, Gustav and, here, Ike. 
AlaskaView supports firefighters every summer with daily 
satellite imagery processed to detect hot spots. KansasView 
mapped the aftermath of the Greensburg tornado. WisconsinView 
mapped the aftermath of the Stoughton tornado.
    Let us look more closely at why AmericaView works. I think 
there are three main reasons. First, the equality-based funding 
philosophy promotes cooperation. We are colleagues, not 
competitors. There is a rich exchange of ideas at our twice 
annual meetings and through working group teleconferences, and 
there is significant sharing of data and educational materials 
among StateViews. I would be happy to provide examples in 
questions if there is time.
    Second, we fulfill a need. AmericaView extends the reach of 
the USGS, bridging the gap between Federal and local, removing 
educational and technical barriers and leveraging our StateView 
networks.
    Third, each state has the flexibility within AmericaView to 
adapt its programs to the unique needs of its state.
    These are the three things that have brought success to 
AmericaView, but AmericaView is in a sense becoming a victim of 
its own success. As states join, we are slicing our budget pie 
into smaller and smaller wedges. Over the past three years, our 
per state allocation has diminished to critical levels.
    H.R. 2489 and this hearing today gives me hope because I 
see that the importance of our contributions is now being 
recognized and understood by those who can help shape our 
future.
    I have hope that we will be able to continue to inspire awe 
for science and technology in our young students, to prepare 
college students and the current workforce to assist our 
country with the geospatial challenges it faces and to make our 
government work better by paving that final mile between our 
Federal remote sensing investments and our classrooms and 
worksites all across America.
    In the end, AmericaView is about connecting remote sensing 
science and technology with American citizens for the greater 
good, and that is why H.R. 2489 is important.
    Thank you again, Mr. Chairman, for the opportunity to share 
my views on AmericaView, H.R. 2489. I am happy to answer 
questions that the Committee may have.
    [The prepared statement of Dr. Batzli follows:]

         Statement of Dr. Sam Batzli, Director, WisconsinView, 
  Space Science & Engineering Center, University of Wisconsin--Madison

    Good morning. My name is Sam Batzli and I am a staff scientist at 
the Space Science & Engineering Center at the University of Wisconsin-
Madison, director of WisconsinView, and a second-term member of the 
AmericaView board of directors. I would like to thank Chairman Costa 
and the committee members for giving me the opportunity to testify on 
behalf of the AmericaView consortium concerning H.R. 2489, the 
AmericaView Geospatial Imagery Mapping Program Act. I would also like 
to thank Wisconsin Representatives Ron Kind, and Gwen Moore for their 
support and encouragement of WisconsinView and AmericaView and 
especially my own Representative Tammy Baldwin for her long-standing 
and consistent support of our efforts.
    This morning I would like to offer my perspective on the 
importance, uniqueness, and value of AmericaView with examples from 
Wisconsin and my fellow StateView partners. I will touch on three 
topics 1) support for disaster response and recovery; 2) cooperation 
among StateViews; and 3) AmericaView's connection to end-users.
Support for Disaster Response and Recovery
    The State members of AmericaView (StateViews) provide each state 
with a network of expertise both within each state and nationally to 
enable timely response to urgent needs.
    Let me start with the story of the June 2008 floods in Wisconsin. 
On June 5th 2008 a severe weather pattern evolved over the Midwest. For 
the next 10 days much of the Midwest including all of southern 
Wisconsin witnessed an unprecedented rain event. Melt-off of the record 
100-inches of snow from the previous winter had already saturated the 
soil. During those 10 days in June, areas saw upwards of 17-inches of 
rain, and every river system in southern Wisconsin was flooded. Many 
areas of Wisconsin experienced a 500 year flood event. Thirty counties 
were initially declared a ``state of emergency'' by Governor Doyle and 
as the situation escalated, 31 of our 72 counties received federal 
disaster declarations.
    As the crises developed, Mr. Chris Diller of the Wisconsin 
Department of Military Affairs (DMA) requested the U.S. Geological 
Survey (USGS) activate the International Charter. The International 
Charter is ``An International agreement among Space Agencies to 
support...relief efforts in the event of emergencies caused by major 
disasters.'' These satellite resources are provided at no cost to 
countries requesting help. A second related program is provided by the 
U.S. Air Force known as ``Eagle Vision.'' This program allows U.S. 
States and Territories to access even more satellite resources that are 
not covered under the International Charter. Both programs are 
coordinated by the USGS and made available to states and territories at 
no cost greatly enhancing access to remote sensing imagery.
    Over the past few years, satellite and airborne remote sensing 
imagery has become a very important part of Wisconsin's disaster 
response and recovery activities. Remote sensing provides what no other 
technology can. When merged with mapping technologies, it provides 
emergency managers improved situational awareness, the ability to see 
on a map the areas that are affected, and a fuller understanding of the 
scope and scale of a disaster. With just a glance, managers can see 
what they are dealing with (Attachment A).
    But remote sensing imagery is not plug-n-play. Experts require 
sophisticated software and processing techniques to extract useful and 
accurate information relevant to an end-user's needs. And that is where 
AmericaView comes in.
    Once the International Charter was activated, radar imagery of the 
flooding became available from the Canadian Space Agency. Mr. Diller 
called me at WisconsinView for help with the processing. However, I 
work with optical sensors rather than radar sensors and so I tapped 
into the AmericaView network and coordinated the processing with radar 
expert Dr. Jon Chipman at NewHampshireView. Within 48 hours of the 
Charter activation, Mr. Diller and Wisconsin DMA had the map it needed. 
I am including a statement from Mr. Diller regarding this flood event 
and remote sensing support form WisconsinView/AmericaView (Attachment 
B).
    Use of the International Charter in 2008 was new to Wisconsin, but 
WisconsinView had experience mapping tornado paths with satellite 
imagery in support of emergency management including mapping of the 
August 18, 2005 Stoughton tornado (Attachment C). Fellow stateviews in 
hurricane-prone areas such as TexasView and LouisianaView have been 
forced to utilize the International Charter more frequently and are at 
the center of emergency management activities in their states. In fact, 
a mere 10 days after the Stoughton Tornado, a disaster of larger 
proportions was imminent.
    LouisianaView found itself on the front lines of the Katrina 
response in 2005. Facing catastrophic infrastructure failures along the 
coast and in New Orleans, LouisianaView tapped into its network of 
resources to deliver hard copy air photo maps of New Orleans during 
recovery operations. Rapid deployment of a website for access to the 
LouisianaView archive of air photography taken both before and after 
the disaster proved invaluable for response and recovery operations 
(Attachment D).
    TexasView responded to multiple tropical events in quick succession 
during the summer of 2008: Hurricane Dolly, Tropical Storm Edouard, 
Hurricane Gustav, and Hurricane Ike. The University of Texas at Austin 
Center for Space Research (CSR), a member of the TexasView university 
consortium, provided geospatial support to the Texas Governor's 
Division of Emergency Management (GDEM) during all four activations of 
the State Operations Center and Emergency Management Council. The 
International Charter was invoked by CSR during the three major 
hurricane events that impacted the Texas and Louisiana Gulf Coast 
(Attachment E).
    AlaskaView supports emergency responders include wildfire fighters 
who use daily satellite imagery for tracking smoke and hot spots that 
would otherwise be impossible to locate. This ongoing service allows 
wildfire managers to make informed decisions for directing resources 
within the vast territory of Alaska (Attachment F).
    KansasView has supported emergency response and preparedness 
activities for a variety of natural disasters and training exercises. 
Utilizing an aerial imaging system, KansasView was able provide 
emergency managers with a complete map of the aftermath of the May 2007 
Greensburg tornado. KansasView staff also serve as the state project 
manager for the International Charter- Space and Major Disasters, and 
work closely with the USGS disaster response coordinator, the USGS 
geospatial liaison for the state, the Kansas Division of Emergency 
Management, and other others in all phases of disaster preparedness and 
response (Attachment G).
Cooperation Among StateViews
    AmericaView provides the necessary infrastructure for cooperation 
within the remote sensing community of expertise.
    Within AmericaView, we learn from each other. We are colleagues not 
competitors. AmericaView funding is distributed equally to all 
qualified StateViews. This promotes the sharing of technical expertise, 
curriculum materials, and lessons learned. We exchange ideas at our 
twice-annual meetings and through our working groups' monthly 
teleconferences.
    Some notable examples of cooperation and sharing include:
    <bullet>  WisconsinView has experience mapping tornado swaths with 
satellite imagery. These techniques have been shared with other 
tornado-prone states such as KansasView.
    <bullet>  After the 2008 floods in Wisconsin, KansasView offered to 
process post event data from WisconsinView with a special flood 
modeling program they had developed for KansasView. The results will 
help Wisconsin in planning for future flood events.
    <bullet>  AlaskaView and WisconsinView develop leading-edge web-
mapping technology (using GoogleEarth and GoogleMaps) to display their 
imagery for end-users. They have generously shared their technical 
expertise to great advantage within the consortium and with USGS.
    <bullet>  MississippiView hosts the AmericaView online user forum 
for StateView interaction and communication.
    <bullet>  MichiganView hosts the AmericaView wiki online 
collaboration tool.
    <bullet>  WyomingView and MontanaView have hosted and managed the 
AmericaView website.
    <bullet>  GeorgiaView hosts the online reporting tool for 
AmericaView states.
    <bullet>  IowaView, GeorgiaView, and CaliforniaView have developed 
online introductory remote sensing courses that are shared throughout 
the AmericaView consortium.
    <bullet>  IndianaView and WisconsinView have access to in-house 
satellite imagery receiving stations. Both programs provide daily 
imagery to all of the 36 AmericaView states in user-friendly formats 
that are not available anywhere else.
    <bullet>  TexasView, LouisianaView, AlaskaView, KansasView and 
WisconsinView have shared their experience and lesson's learned in 
coordinating remote sensing contributions to emergency management with 
each other and beyond at special sessions of national conferences (such 
as the 2008 Pecora conference in Denver, Colorado).
Reaching End Users
    AmericaView connects the network of remote sensing expertise in 
each member state to the citizens of the state to meet end user needs.
    The final theme I would like to touch on is the reach of remote 
sensing to end-users and the role of AmericaView. To a significant 
extent, remote sensing imagery is available to the public from federal 
agencies like USGS. The knowledge on how to use that imagery resides 
with the experts in the universities, governmental agencies, and the 
private sector. What has been missing is the infrastructure to 
implement that knowledge at a local level where it can be used on a 
daily basis to improve the lives of people. That is, perhaps, the 
primary value of AmericaView: to bridge that gap, to be the conduit, to 
simplify the process by removing technical barriers and taking 
advantage of our intrastate networks and internal state consortia. This 
is especially valuable with regard to emergency management where local 
knowledge is crucial.
    The federal air photos and satellite images archived and provided 
to the public without charge through low barrier internet access by the 
StateViews are used across the state for a variety of purposes. Uses 
include, but are not limited to, agricultural field management, 
construction site evaluation, environmental management, drinking water 
intake management, recreation planning, transportation planning, 
private consulting, and natural resource management.
    The imagery is widely popular. At WisconsinView I have established 
a login system that records users and downloads. Our total number of 
registered users topped 8,000 earlier this year. The total volume of 
downloaded imagery in Wisconsin through July of 2009 alone is a 
staggering 5.19TB (the equivalent of nearly 7,800 CDs). Back in 
February I asked the most frequent of these users for feed back and 
received over 30 testimonials and letters of support. Here are some 
examples.

        Agro-Industry
        2/27/2009
        I use the WisconsinView to download imagery which I then use to 
        assist in making maps for Code 590 Nutrient Management Plans as 
        well as CNMP's. The imagery is saved and loaded into our GIS 
        program. (Farmworks Sitepro) We then can layer the field 
        boundaries and other mapped objects on the imagery. This 
        greatly enhances our field maps as well as maps we make to show 
        restricted areas and other areas. Other imagery is available, 
        but it is in black and white, and most of all, very outdated, 
        not showing some land features that have changed.
    Mike Plucinski
    MP Services
    Ostby MBA Inc.
    KOW Consulting Association

        Natural Resource Management
        3/1/2009
        [WisconsinView] is a great source for aerial photography which 
        is needed for map making duties (management plans, 
        demonstrations, surveying, etc). ``[It] always has worked 
        perfectly and allows great access. Don't know what I'll do if 
        it is removed.
        Wade Oehmichen
        Wildlife Biologist
        Wisconsin Department of Natural Resources

        Utility Infrastructure
        3/2/2009
        Access to WisconsinView digital resources has improved our 
        efficiency and greatly reduced our costs in terms of both 
        dollars and time. Our reviews are conducted more rapidly and at 
        a lower cost while maintaining a high level of accuracy. 
        Continued support for AmericaView and WisconsinView will be 
        important in the coming years as efforts to upgrade our 
        nation's transmission system move forward.
        William Fannucchi
        Public Service Commission--Wisconsin

        K-12 Education
        3/2/2009
        I am a teacher and director of a school that uses GIS 
        throughout the curriculum. We regularly visit your site for GIS 
        data and download coverage for student use. ``Your site is easy 
        to access, user friendly and very important to the GIS 
        community in Wisconsin. ``This type of site has allowed our 
        students to work on projects that help build 21st century 
        skills and an awareness of our state that is unparalleled by 
        other opportunities.

        Paul Tweed
        Wildands School
        Augusta School District
        Augusta, WI 54722
Summary
    Why AmericaView Works:
    I became involved with AmericaView in 2004 and have served on the 
board of directors since 2006. Right away I discovered that there was 
something different going on here, that the collegial spirit and 
optimism of this organization goes beyond business as usual in 
government or academia. I think there are two reasons for this: 1) the 
equality-based funding philosophy promotes cooperation, and 2) 
AmericaView is an education and service-based endeavor that attracts 
like-minded people who want to share technology and knowledge for the 
benefit of others.
    We take great pride in our work because we see the tangible 
benefits. We are on the front lines of workforce development, at the 
earliest stages, when at our outreach events we see our young students, 
inspired and awed by the magic of science and technology. We are there 
giving the lectures and workshops for undergraduates and graduate 
students, helping as they develop skills for the geospatial information 
technology job sector. We are there running the professional workshops 
and conferences where early- and mid-career professionals incorporate 
new techniques and technologies that enable their companies or agencies 
to improve and optimize their access and use of the rich and 
indispensable remote sensing imagery resources provided by USGS (as 
well as NASA, USDA and other federal agencies). And we are there, 
fostering cooperation among state and federal agencies within our 
states, making government more efficient and responsive to the people 
it serves.
    To reiterate what my colleagues have already said this morning, 
AmericaView is built on the knowledge that there are remote sensing 
needs best understood and addressed at the national level, while other 
aspects are best addressed at the state level. Operating satellites and 
maintaining centralized national and global data archives are critical 
national priorities well handled by USGS. Education, emergency 
response, and support of local natural resource managers, for example, 
are more state and local issues that are not well handled by a 
centralized effort, but that require local knowledge and adaptation. 
AmericaView is the only organization established to do this throughout 
the country. This is how AmericaView effectively extends the reach of 
the Department of the Interior and the USGS.
    It is a well-known paradox that the process of making things easy 
and simple can be very hard and complex. But we are good at that; 
AmericaView is a university-based consortium, experts in technology but 
also education-based, working in cooperation with governmental agencies 
and private sector members of our state consortia. And by removing 
technical and financial barriers, AmericaView extends the value of 
federal remote sensing investments, reaches across the final mile to 
the end-users. We are coordinated nationally and implemented locally. 
And the flexibility each StateView has to adapt to the needs of its 
locale is the key to our success.
    But AmericaView is in a sense becoming a victim of its own success. 
As we have grown in the number of member states, with the goal of 
ultimately including the full 50 states and six territories, we are 
slicing our budget pie into thinner and thinner wedges. Over the past 
three years our per-state allocation has diminished to critical levels.
    H.R. 2489 and this hearing today gives me hope because I see that 
the importance of our contributions are now being recognized and 
understood by those who can help shape our future. I have hope that we 
will be able to continue inspiring awe for science and technology in 
our young students, preparing our college students and current 
workforce to assist our country with the geospatial challenges it 
faces, and making our government work better by ``paving'' that final 
mile between our federal remote sensing investments and our classrooms 
and worksites all across America. In the end, AmericaView is about 
connecting remote sensing science and technology with American citizens 
for the greater good (Attachment H).
    Thank you again for the opportunity to share my views on 
AmericaView and H.R. 2489. I am happy to answer any questions the 
Committee may have.
                                 ______
                                 

    [A letter submitted for the record by Dr. Batzli from the State of 
Wisconsin Department of Military Affairs to Chairman Jim Costa 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 

    [NOTE: The documents listed below have been retained in the 
Committee's official files.]
    <bullet>  WisconsinView image of June 2008 Flooding in Wisconsin
    <bullet>  WisconsinView image of August 2005 Tornado Path
    <bullet>  LouisanaView image of Hurricane Katrina 2005
    <bullet>  TexasView image of Hurricane Ike 2008
    <bullet>  AlaskaView image of wildfires 2005
    <bullet>  KansasView image of May 2007 Greensburg tornado
    <bullet>  WisconsinView photographs from youth education programs
                                 ______
                                 

    Response to questions submitted for the record by Dr. Sam Batzli

Questions from Chairman Jim Costa from the State of California
1.  How much annual funding does a StateView typically receive? Also, 
        please provide information on any contribution, including in-
        kind support, that the state or lead institution in your 
        StateView Program provides.
Funding
    Since 2003 funded StateViews have all received the same amount of 
funding (an equal distribution from AmericaView). WisconsinView started 
with $89,500 per year in 2004 but that amount dropped (along with the 
amounts for other stateviews) as new States were admitted to membership 
and the AmericaView budget declined. Since 2005, annual funding for 
each StateView has dropped from $89,500 to $84,000, to $51,000, to 
$23,989, to $23,000 where it is expected to be for FY2010 [see 
Attachment 1].
    Each year AmericaView has looked for ways to tighten its 
administrative budget in an effort to keep costs low and to fund as 
many qualified StateViews as possible at the highest level possible. At 
the same time, to operate under these reductions, StateViews have been 
forced to reduce services and staff positions.
Contributions and In-Kind Support
    Most Universities require an overhead rate on extramural funding 
between 45% and 50% for Federal grants (at UW-Madison it is 48.5%). The 
overhead cost keeps the universities running and pays for general 
infrastructure. Most Universities recognize that smaller organizations 
such as not-for-profits like AmericaView grant relative small amounts 
of money for public service projects and should be allowed a lower 
rate. Facing budget pressures in 2005, AmericaView decided to require a 
lower overhead rate for lead institutions to 15% to help keep as much 
of the grant money available for StateView programs. By accepting this 
rate (which I'm told is actually quite rare), the lead institutions of 
StateViews are effectively contributing between 15% and 20% in funds to 
the StateView programs. In this way WisconsinView receives an 18% 
contribution from UW-Madison.
    StateViews have been creative in finding other ways to help keep 
their organizations going in light of shrinking budgets. At 
WisconsinView we received help in the form of donated graduate Project 
Assistants (nearly a $40,000 annual value [including tuition waiver and 
fringe benefit costs] to the project) in three of the past four years. 
In 2007 WisconsinView hosted a GIS Certificate Student summer intern 
20hr per week for university credit (a $4,000 value).
    Another approach is to conduct internal technology transfer. That 
is, technologies such as imagery processing techniques, or curriculum 
modules developed under different funding for different grants within 
the same department or university are adapted for use by WisconsinView 
with very little effort or cost. It is difficult to put a value on 
these contributions but some examples include the following:
    A.  The Space Science & Engineering Center receives a NASA grant to 
operate a satellite receiving station for MODIS imagery. The receiving 
station has developed software to ``subset'' imagery for specific 
regions on a daily basis. WisconsinView takes advantage of that system 
and service by requesting and receiving a custom made daily satellite 
image that would otherwise have been very expensive to develop 
independently. Now that the infrastructure is in place and the 
algorithms have been developed, it is relatively easy to add new 
subsets to the processing stream. This service has been expanded to 
include daily satellite imagery subsets for all AmericaView states by 
special arrangement through WisconsinView. [Attachment 2--screen shot 
of MODIS for AmericaView page]
    B.  My role as director of WisconsinView is a 25% position. I am 
also the principal investigator on a NASA grant and a co-investigator 
on a USDA grant. When the technology I help develop for the NASA and 
USDA grants complements the needs of WisconsinView, that technology is 
applied at no cost to WisconsinView.
    The consortium is continually looking for efficiencies and cost-
savings opportunities through ``inter-stateview'' technology transfer. 
For example curriculum developed by CaliforniaView, GeorgiaView, and 
IowaView is shared with all other StateViews for online teaching.
2.  Expanding AmericaView to additional states and activities would 
        seem to require more funding. Have you considered soliciting 
        non-federal sources of support for AmericaView? Why or why not? 
        Some StateViews assist the private sector with geospatial 
        analysis and technology. Would it be possible for AmericaView 
        to solicit support from private sector beneficiaries of the 
        program, or create some form of public private partnership for 
        AmericaView? Why or why not?
    AmericaView will require additional funding to expand to full 
membership. Yes AmericaView has considered a number of alternative 
funding scenarios. However, the mission and goals of AmericaView are 
public service oriented. The return on the investment in AmericaView is 
education, improved workforce, improved efficiency of local government, 
and improved economic performance of small and large businesses. The 
benefits are spread across a broad spectrum of users. While all groups 
and individuals may benefit financially, no single group benefits 
financially in a large enough way to justify a significantly large fee. 
It has been difficult to find industry sponsors willing to support the 
public service mission of AmericaView. We have considered charging for 
imagery, but it goes against the core philosophy of our organization. 
We are removing barriers (economic, educational, and financial) that 
stand between the public and federal imagery. Adding a fee would create 
a barrier.
    StateViews are encouraged to augment their budgets with 
contributions solicited from their membership. But we cannot depend on 
those gifts to maintain core operating budgets and programs.
    I support the concept of base federal funding (such as 90K per year 
for each state view as has been shown to work) with encouragement of 
supplemental gifts and contributions from private sector and state and 
local government.
    I would also add that AmericaView has been a national program 
designed to advance the goals and objectives of the USGS. We are 
actively and constantly seeking additional and alternative funding, but 
it has been difficult to convince other organizations to support 
AmericaView when the parent organization is decreasing its funding. 
USGS has repeatedly expressed its support for the program and has 
maintained that the decreased funding is more a matter of fiscal 
realities than an issue of organizational support, but this is a ``hard 
sell'' with respect to outside organizations.
3.  AmericaView has existed for about 10 years. Why does H.R. 2489 need 
        to be passed by Congress for AmericaView to continue?
    AmericaView has demonstrated through its success that it fulfills a 
unique and important national need. It deserves to be recognized as the 
national program it is with a Congressional authorization. Now is the 
time to act because AmericaView is at a crossroads with its funding and 
growth. Add-on appropriations are no longer generating sufficient 
support for this national program to continue if current trends in 
appropriations and USGS budget continue. Without H.R. 2489, AmericaView 
will not receive the level of funding it needs to complete its growth 
in membership and to maintain a sustainable and stable future.
    AmericaView was established through a Congressional appropriation, 
which as has been pointed out is not the optimal way to provide 
Congressional direction and oversight. AmericaView now has a majority 
of all 50 states and territories in membership and should no longer be 
considered an experimental program. Clear priorities and direction from 
Congress will enable the states and USGS to set appropriate objectives 
and metrics against which to measure the success and value of the 
program and appropriations made with respect thereto. In addition, 
numerous Congressional offices have stated that, while they support the 
principles of AmericaView, they find it difficult to support 
appropriations without authorizing language.
4.  H.R. 2489 directs the Secretary of the Interior to cooperate with 
        the AmericaView Project ``to develop nationally consistent 
        standards for geospatial imagery mapping in each state.'' 
        However, the development of standards for mapping seems like 
        the kind of activity that should involve more stakeholders than 
        the Department of the Interior and AmericaView. Could you 
        clarify the role you think would be appropriate for AmericaView 
        in the development of standards for mapping? Would 
        AmericaView's focus be more appropriately described as 
        development of standards for the distribution of images, 
        information, and technology, rather than for mapping?
    I feel it is appropriate for AmericaView to ``cooperate'' with the 
development of nationally consistent standards. I would agree that 
AmericaView as an organization is not focused on, nor should be focused 
on, standards-setting activities. AmericaView's distribution activity 
is primarily to facilitate the education, outreach, workforce 
development, and to encourage the use of satellite imagery in the 
civilian private sector and the implementation of remote sensing 
technology to help meet societal needs. AmericaView will continue to 
work with appropriate agencies and organizations to provide any 
appropriate input on remote sensing aspects of mapping or distribution 
standards. I would feel comfortable if the standards language were 
dropped all together, but as it stands I don't see it as a conflict 
within the context of ``cooperation'' as it is stated in Sec 
4(c)(2)(B).
5.  This bill would expand AmericaView to all 50 states. Is that 
        realistic? Why is it important for this program to be in all 50 
        states and territories?
    Expanding to 50 States and the territories is realistic. One thing 
we have learned as we have grown to include 36 StateViews, is that the 
benefits of AmericaView in each state vary in type depending on the 
needs of each State and the strengths of each StateView consortium. 
Each StateView is unique and delivers tremendous quality and value at 
very low cost. It would seem arbitrary and unfair to deny membership in 
this national organization to the remaining states if qualified 
applications are submitted. Drawing the line at 36 or 40 or 45 states 
would deprive citizens in those remaining states access to the federal 
resources (multi-billion dollar land remote sensing infrastructure) 
they have already paid for with tax dollars but have difficulty 
accessing without a StateView to bridge the gap.
    It is incumbent upon the remaining states to express interest in 
AV, to organize their remote sensing scientists and educators within 
their state, and to compile a quality application, in order to earn 
membership. It has to start within the state. That is what makes it 
work. That being said, AmericaView as a national organization with a 
mission to reach out to all United States and Territories to help them 
develop their own StateView consortia.
    Ultimately, AmericaView provides a structure where each state can 
organize the remote sensing assets within that state to take full 
advantage of those assets and advance them for the benefit of the 
citizens of that state. By providing a national structure, all states 
can benefit from the developments within each of the other states. 
AmericaView will best serve its mission when all states and territories 
are represented in the organization.
6.  How do you see AmericaView interacting with ongoing image-
        collection initiatives like Imagery for the Nation and USDA's 
        NAIP aerial photography program? Please explain the differences 
        between the Imagery for the Nation Initiative and the NAIP 
        Program and the activities that will be authorized through H.R. 
        2489.
    AmericaView is excited about and supportive of the idea and of an 
``Imagery for the Nation'' program because the improved coverage and 
frequency of imagery collected and archived by this program would fully 
complement the workforce development, imagery access, education, and 
outreach activities of AmericaView.
    As I understand it, ``Imagery for the Nation'' is about 
coordinating the systematic and standardized acquisition of aerial 
imagery. AmericaView is the mechanism by which imagery from these other 
programs moves from imagery to applications at the state level.
    The primary goal of AmericaView when it was founded was data 
archive and distribution. However AmericaView has always had the 
broader goal of generally advancing remote sensing within each state 
through education, outreach, emergency response, research, and other 
activities. The AmericaView program has been crucial in the development 
of the current web-enabled distribution system operated by the USGS, 
and to some extent this has reduced the data archive and distribution 
activities within AmericaView as USGS systems (such as the AmericaView-
developed GloVis) came online. The need to make the state and national 
archives, including Imagery for the Nation and NAIP, more beneficial 
for the citizens of the U.S. has not abated. Indeed, as data have 
become more available through these programs, the need for AmericaView 
to support data applications to benefit people's daily lives has 
increased.
    I would also like to point out that many StateViews currently 
cooperate with their state Farm Service Agencies to distribute imagery 
from the NAIP program of the USDA. In Wisconsin, this is our most 
popular data-download. This relieves the distribution burden for FSA 
and supports the education and outreach activities of AmericaView. 
AmericaView is well positioned to host additional imagery that might be 
collected by the Imagery for the Nation program in the same way it 
distributes NAIP imagery.
Questions from Ranking Member Doug Lamborn from the State of Colorado
1.  The National Cooperative Geologic Mapping Program has a state match 
        funding requirement. Would you support a similar requirement 
        for the America View Geospatial Imagery Mapping Program? Would 
        you support a 25% federal/75% state share requirement? Would 
        you support a 50/50 cost share requirement?
    Adding a requirement for a state share to AV would adversely affect 
the participation of StateViews. While it is true that state agencies 
often benefit form the StateView programs in most states, they do so in 
varying degrees in different states, depending on the unique nature of 
each individual StateView program. Adding a required specific cost-
share amount would not be appropriate for the heterogeneous nature of 
the AV program. Unlike NCGMP, AmericaView does not produce a specific 
state-oriented product (like a geology map) that states would be 
willing to contribute for ownership of.
    I support the concept of base federal funding (such as 90K per year 
for each state view as has been shown to work) with encouragement of 
supplemental gifts and contributions from private sector and state and 
local government.
    The current model that includes base funding through the 
AmericaView federal grant distributed evenly to all the StateViews, 
augmented by the lead university contributions, leveraging, and in-kind 
contributions uniquely adapted to the circumstances of each StateView 
works well, produces tremendous value and return on investment for 
citizens, small businesses, K-12 educators, state and local government, 
and large businesses, and should not be changed.
2.  What other sources of funding do the States receive for this 
        program? Do you receive grants from other federal agencies?
    StateViews are actively leveraging resources at their lead 
university institutions and pursuing in-kind cost sharing throughout 
their consortia.
Contributions and In-Kind Support
    Most Universities require an overhead rate on extramural funding 
between 45% and 50% for Federal grants (at UW-Madison it is 48.5%). The 
overhead cost keeps the universities running and pays for general 
infrastructure. Most Universities recognize that smaller organizations 
such as not-for-profits like AmericaView grant relative small amounts 
of money for public service projects and should be allowed a lower 
rate. In 2005 AmericaView decided to require a lower overhead rate from 
lead institutions of 15% to help keep as much of the grant money 
available for StateView programs. By accepting this rate, the lead 
institutions are effectively contributing between 15% and 20% to the 
StateViews. In this way WisconsinView receives an 18% contribution from 
UW-Madison.
    StateViews have been creative in finding other ways to help keep 
their organizations going in light of shrinking budgets. At 
WisconsinView we received help in the form of donated graduate Project 
Assistants (nearly a $40,000 annual value [including tuition waiver and 
fringe benefit costs] to the project) in three of the past four years. 
In 2007 WisconsinView hosted a GIS Certificate Student summer intern 
20hr per week for graduate credit (a $4,000 value).
    Another approach is to conduct internal technology transfer. That 
is, technologies such as imagery processing techniques, or curriculum 
modules developed under different funding for different grants within 
the same department or university are adapted for use by WisconsinView 
with very little effort or cost. It is difficult to put a value on 
these contributions but some examples include the following:
    A.  The Space Science & Engineering Center receives a NASA grant to 
operate a satellite receiving station for MODIS imagery. The receiving 
station has developed software to ``subset'' imagery for specific 
regions on a daily basis. WisconsinView takes advantage of that system 
and service by requesting and receiving a custom made daily satellite 
image that would otherwise have been very expensive to develop 
independently. Now that the infrastructure is in place and the 
algorithms have been developed, it is relatively easy to add new 
subsets to the processing stream. This service has been expanded to 
include daily satellite imagery subsets for all AmericaView states by 
special arrangement through WisconsinView [see Attachment 2].
    B.  My role as director of WisconsinView is a 25% position. I am 
also the principal investigator on a NASA grant and a co-investigator 
on a USDA grant. When the technology I help develop for the NASA and 
USDA grants complements the needs of WisconsinView, that technology is 
applied at no cost to WisconsinView.
    The consortium is continually looking for efficiencies and cost-
savings opportunities through ``inter-stateview'' technology transfer. 
For example curriculum developed by CaliforniaView, GeorgiaView, and 
IowaView is shared with all other StateViews for online teaching.
3.  Would you support a sunset provision in the authorizing legislation 
        to allow Congress to review this program again in 10 years? 20 
        years?
    I support the idea of a 10-year review of the program legislation 
to ensure that AmericaView is continuing to meet important contemporary 
societal needs, as it does now. It is fair to assume that the 
geospatial ``revolution'' that our country is currently experiencing 
will evolve over time. As I read it, the current authorizing language 
of H.R.2489 covers 2010-2014. Currently, the AmericaView consortium 
competes nationally for a 5-year grant from USGS. I think an additional 
sunset or expiration provision would not be necessary given the current 
5-year cycle, but I would welcome and even prefer a 10-year cycle for 
congressional review.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mr. Costa. Thank you, Doctor, and we appreciate your 
succinct testimony within the time limit.
    At this time, Members of the Subcommittee, we have had 
votes that have been called. We have a little over nine minutes 
left for the first measure. This sequence of votes is four, so 
my estimate is that it will take about 20 minutes.
    So for the panel, when we have completed that we will come 
back for the questioning of the panel members, and the Chair 
will entertain a round or two based upon the interest and I 
know there is interest in our colleague's legislation, and then 
following that we will adjourn the hearing.
    So that is the intent of the Chair. Let us go and vote. We 
will come back in about 20 minutes, 25 minutes, so if you want 
to take a little coffee break downstairs at the basement you 
can get coffee or water or a quick sandwich or an apple or 
whatever your heart desires.
    So we will be back in about 20 minutes, 25 minutes. Thank 
you very much. The Committee is now in recess.
    [Recess.]
    Mr. Costa. The Subcommittee on Energy and Minerals as part 
of the Natural Resources Committee will now come to order.
    The vote sequence took a bit longer than I had anticipated. 
I apologize for that. I hope some of you got a chance to get a 
little bit refreshed and get a cup of coffee or that apple you 
were craving. We will now begin with the question and answer 
period of the hearing and we will go from there.
    Let me begin by indicating that obviously the measure 
before us proposes an extensive list of activities for the 
Secretary of the Interior to undertake, acting through the 
AmericaView program. The list includes expanding the number of 
mapping courses, expanding the mapping research, building 
partnerships and developing mapping standards. That is what is 
contained in the bill.
    I would like to ask the panelists your thoughts as to how 
those responsibilities proposed for the U.S. Geological Survey 
in this measure, H.R. 2489, compare to the kind of activities 
that currently USGS undertakes with AmericaView.
    Who would like to begin? Let us begin with USGS. That is 
probably the best place to start.
    Ms. Kimball. OK. Thank you. I think that the most important 
element here is that we in USGS feel we have established a very 
effective working relationship with the states that participate 
in AmericaView and that we have developed a governing mechanism 
through the AmericaView board of directors that allows us to 
systematically consider activities that would take place and 
how that effort would be distributed from between USGS and the 
particular states.
    And I see that that mechanism would continue to work 
effectively. The program itself was reviewed by OMB as part of 
our Fiscal Year 2006 program review, and in that review we 
received a 100 percent rating on elements associated with 
AmericaView that went to planning, vision, long-term goals and 
performance metrics and methods to evaluate the effectiveness 
of the program, and so I believe that we would have----
    Mr. Costa. So are you saying this comports with the current 
activities that U.S. Geological Survey is undertaking or this 
complements it, or is it redundant?
    Ms. Kimball. I would say that it both comports with and 
complements. It will allow us to extend the activities in the 
states as new technologies and new analytical methodologies are 
developed in the university community. It will allow us to 
expand and enhance.
    Mr. Costa. In your opening testimony you talked about some 
concerns. Do you think that they could be addressed if this 
legislation was modified in terms of roles and responsibilities 
and clarification from your agency's perspective?
    Ms. Kimball. Yes, sir, we do.
    Mr. Costa. Will you please provide that to the Committee 
and to the author of the measure?
    Ms. Kimball. Absolutely.
    Mr. Costa. All right.
    Ms. Kimball. We will submit that for the record.
    Mr. Costa. All right. Do the three of you want to take a 
quick crack at that? I have some additional questions.
    Dr. Dodge. I would just like to add to the comments about 
how the activities in the states come into being. We actually 
every year every state puts in a statement of work, and this is 
reviewed anonymously by members of the StateViews and also by 
the board of directors.
    I am an advisor to the board of directors and a former 
member of the board of directors and also a former StateView 
director, so I have submitted those statements of work and also 
reviewed them. You know, we make sure that things are being 
done in a practical and economical way, and it works very well.
    Then all of that goes up to the U.S. Geological Survey, who 
also reviews everything, so it is very well assessed what is 
going to happen and how it works.
    Mr. Costa. South Dakota, what do we think? Are you worried 
about the redundancy?
    I keep harping on this, but it is still not clear in my 
mind how we define the roles between the private and the public 
partnerships.
    Ms. O'Neill. I think that the roles are quite clearly 
defined. We don't in any way pretend to compete with the 
private sector. Rather, we like to think of our role as 
contributing to the job that they do, training the people that 
they need to do their job and in some cases finding the right 
people for them when they have an open position.
    Also, I think we don't compete with them in terms of 
projects, but we can help them. We can find data sources for 
them. So I think our roles are very complementary, and in no 
way do we intend for those roles to be competitive.
    Mr. Costa. All right. My time has expired.
    The gentleman from Colorado, Mr. Lamborn?
    Mr. Lamborn. Thank you, Mr. Chairman. This would be for any 
one of you. As drafted, the legislation before the Committee 
provides such sums as is necessary to operate the program.
    I am wondering how much you think should be appropriated 
for the program. If any of you wish to answer that, could you 
just give me a dollar amount?
    Dr. Dodge. We have discussed this extensively, and what we 
have done is gone through the list of activities that are 
recommended in this legislation, and it is a lengthy list, and 
in each StateView each StateView is doing some of these things 
at a relatively low level of funding.
    There are eight things on the list. We have actually 
determined by looking at the distribution of activities that if 
we were appropriated $5 million and spread it out among 50 
states and territories that each StateView or TerritoryView 
would be able to engage in two or three of these activities at 
a good level of effort.
    If we were to get something like $25 million, we could 
probably in each StateView be doing four, five of these, maybe 
six, at a full level of effort, and if we got $50 million--not 
to be greedy--then every StateView could be doing all of these 
things with a very high level of effort.
    And that would be the K-12 education, the training of 
people who are already in the professional workforce. Student 
internship programs could be initiated at all of the 
universities so that the students would go out and get 
practical experience.
    Mr. Lamborn. OK. I think you have answered my question.
    Dr. Dodge. Thanks.
    Mr. Lamborn. No. Thank you. Now, the National Cooperative 
Geologic Mapping Program has a state matching fund requirement. 
Would you support a similar requirement for the AmericaView 
Geospatial Imagery Mapping Program? For any one of you.
    Dr. Dodge. I would say that that is something that we would 
definitely have to look at. We and some of the states are 
funded by state funds, but we are a really young program and in 
a lot of our states that outreach into the state agencies is 
still ongoing.
    Most of our StateViews have only been members for a couple 
of years, and they are still doing the outreach to connect well 
with the state government, so that is something that I think 
that we would have to take a hard look at and see if that was 
appropriate. I don't think we would oppose something like that, 
but right now----
    Mr. Lamborn. Thank you. What about the two of you who 
represent a state here today?
    Ms. O'Neill. In the case of South Dakota and specifically 
my position, I think that that match is already happening, even 
though we don't report it on paper.
    Part of my salary is paid with state funding, and even 
though I am funded at let us say 25 percent on AmericaView, I 
probably put in much more effort than that, so I think the 
match is already happening. It is just not a formal requirement 
at this point.
    Mr. Lamborn. OK. And Wisconsin?
    Dr. Batzli. I think that to a great extent our consortiums, 
our state consortia, are highly leveraged right now in terms of 
taking advantage of common goals and vision of complementary 
programs within our universities.
    For example, when WisconsinView was started in 2004 we had 
a budget of $89,000. We were able to afford to have a 
coordinator. When our budget got smaller over adding new states 
and such, we no longer could afford that coordinator, but I get 
some money from my university to help support that position 
because they believe in our program and they recognize the 
value that it brings to the whole university and the state.
    I would be a little uncomfortable with a requirement for a 
specific match from the state because our states are so 
different and have such different structures, and I believe 
that we really do a lot with the resource we have now in terms 
of leveraging.
    Mr. Lamborn. OK. Now, both of you have just touched on 
this. Can you be more specific as to how much money your two 
respective states have put into this program?
    Dr. Batzli. How much we have received?
    Mr. Lamborn. No. How much state money have you put into the 
program? I am not talking about Federal money from any source, 
but state money.
    Dr. Batzli. I would have to get back to you with a specific 
figure, but I would say that there is probably a 10 percent or 
15 percent addition to our effort through mostly in kind 
contributions.
    Mr. Lamborn. OK. Ma'am?
    Ms. O'Neill. A similar situation in South Dakota. I would 
say at least 10 to 20 percent contribution in terms of state 
dollars, mostly in salary dollars.
    Mr. Lamborn. OK.
    Dr. Dodge. I could say the same thing for GeorgiaView. I 
was the founder of GeorgiaView, and it was probably 20 percent 
to 25 percent. It was in kind office space, telephone, computer 
hookup. Everything that we needed to run the consortium was 
made available by the university, the state university.
    Mr. Lamborn. OK. Thank you. Mr. Chairman, I yield back.
    Mr. Costa. All right. The gentleman's time has expired.
    The gentlelady, the only Member of Congress, from South 
Dakota where you have real power.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    Mr. Costa. Congresswoman Stephanie Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you. Again, I thank each of you 
for your testimony today.
    I want to direct my first question to Ms. O'Neill, and if 
you could elaborate for the Chairman and Ranking Member and 
Subcommittee staff on the work that South Dakota View has done 
or hopes to do with the state's Federally recognized tribes and 
with Federal and state public land management agencies?
    Ms. O'Neill. Thank you. We do a lot of work with tribal 
government, tribal colleges and universities and also with 
Indian schools in the state. We make data available to these 
various entities.
    In the case of the educational institutions, we work 
closely with them in developing lesson plans, developing 
curriculum for their courses. We sometimes actually go into the 
classroom and work with their students. They bring students to 
campus, and we do various activities with them with the 
ultimate goal of encouraging them to become university 
students.
    We also try to in some ways influence economic development 
on the reservations. I think there are a lot of economic 
development opportunities in terms of using the geospatial 
technologies on the reservations within tribal government, 
training students that go back into their tribal government and 
do good things in terms of developing the reservation lands 
that they are required to manage.
    We also work with a program at the Flandreau Indian School, 
which is close to our university at Brookings, where they bring 
students to campus every spring semester, all four years of 
high school students, and teach them about various 
opportunities that are available to them at the university and 
opportunities for furthering their education.
    So, yes, we interface in a lot of different ways with 
tribal folks.
    Ms. Herseth Sandlin. And then further on, are you looking 
at trying to develop partnerships or how you can make your data 
available that has been archived to public land management 
agencies?
    Ms. O'Neill. Yes. They have the same access to our data 
that anyone else has from students and teachers on to folks in 
the Federal and state agencies and local governments as well.
    So it is not just data. Data is certainly an important part 
of it, but it is helping them use and understand the data. As I 
mentioned in my testimony, it is often a case of educating 
folks about what can be done with the data.
    There is a lot of data there that people just need to 
understand, and often we can help them figure out what they can 
do with that data, how it can help them in performing their 
jobs.
    Ms. Herseth Sandlin. My understanding is that, as an 
example, in terms of how the imagery and the data have been 
used in monitoring activities because of some of the invasive 
species that we have had on state or Federal land with regard 
to our grasslands, and that has been again one area where you 
have had to sort of educate and inform them how the data could 
be useful in monitoring circumstances such as that, correct?
    Ms. O'Neill. That is right. It is one of those cases where 
a picture is worth a thousand words.
    Within a very short period of time it is easy with the 
right kind of imagery and data to see where the invasive 
species are and the extent, the spread from year-to-year, the 
change analysis. That is an example of why it is important to 
have new data on an annual or somewhat frequent basis.
    Ms. Herseth Sandlin. Very good. And then just a final 
question in the time remaining for both Ms. Dodge and Dr. 
Batzli.
    Can you elaborate on if your states are looking at adding 
additional activities to your current efforts or different 
stakeholders that you would like to involve and how this 
authorization might assist in doing so?
    Dr. Dodge. Yes. I can comment now that I am in Texas and I 
am working with TexasView, we are reaching out and doing a lot 
more training for people who are working in government.
    That has been one of the strengths of TexasView for many 
years, but we are trying to reach out to even more agencies 
because we have learned about new techniques and new 
technologies, for example, for monitoring the impact of 
hurricanes that have taken place in Mississippi and Louisiana, 
and we want to train people on those technologies on the Texas 
coast.
    So we are constantly working between the states and 
learning from one another and then implementing things in our 
states that have been successful in other states.
    Dr. Batzli. I would like to expand on the workshops that we 
do to help train various professionals within the state to work 
with the kinds of data that are required for emergency 
management and to expand our capability within the 
WisconsinView network so that we can respond quickly to the 
kinds of disasters that we have been having in recent years and 
do a better job with that.
    Ms. Herseth Sandlin. Thank you. Thank you, Mr. Chairman.
    Mr. Costa. Thank you very much for your legislation and for 
your efforts. I want to thank the panel members as well.
    We have had a very good hearing today. I thank the Ranking 
Member and both the Minority and Majority staff for the 
preparation they did to put this together.
    I especially liked the visuals to really explain how 
important geospatial planning is and the tremendous technology 
gains that have taken place over just the last five years. 
Marcie, you done good.
    Anyway, I want to thank everyone for being here, and we 
will work together with the Congresswoman from South Dakota to 
see that her legislation gets an opportunity to do its intent.
    Before you came here, Stephanie, I had asked U.S. 
Geological Survey--I don't know if you were here at the time--
to make recommendations of what changes and modifications they 
would recommend on your legislation, and they said that they 
would provide that information to us. Please make sure you 
provide it to the author and to us.
    So we will go from there and do our best work, and at this 
time the Subcommittee is now adjourned.
    Ms. Herseth Sandlin. Thank you.
    [Whereupon, at 1:18 p.m. the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
